<html>
<title> - CYBERSECURITY: ENHANCING COORDINATION TO PROTECT THE FINANCIAL SECTOR</title>
<body><pre>[Senate Hearing 113-583]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-583


 CYBERSECURITY: ENHANCING COORDINATION TO PROTECT THE FINANCIAL SECTOR

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

    EXAMINING THE COORDINATION AND INFORMATION SHARING BETWEEN THE 
   FINANCIAL SERVICES INDUSTRY AND THE SECRET SERVICE, DEPARTMENT OF 
   HOMELAND SECURITY, FEDERAL BUREAU OF INVESTIGATION, THE TREASURY 
  DEPARTMENT, THE FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL, 
   FEDERAL REGULATORY AGENCIES, AND LAW ENFORCEMENT IN IDENTIFYING, 
               MONITORING, AND RESPONDING TO CYBERTHREATS

                               __________

                           DECEMBER 10, 2014

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                 Available at: http: //www.fdsys.gov/

                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-566 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001














            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  TIM JOHNSON, South Dakota, Chairman

JACK REED, Rhode Island              MIKE CRAPO, Idaho
CHARLES E. SCHUMER, New York         RICHARD C. SHELBY, Alabama
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
SHERROD BROWN, Ohio                  DAVID VITTER, Louisiana
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
MARK R. WARNER, Virginia             PATRICK J. TOOMEY, Pennsylvania
JEFF MERKLEY, Oregon                 MARK KIRK, Illinois
KAY HAGAN, North Carolina            JERRY MORAN, Kansas
JOE MANCHIN III, West Virginia       TOM COBURN, Oklahoma
ELIZABETH WARREN, Massachusetts      DEAN HELLER, Nevada
HEIDI HEITKAMP, North Dakota

                       Charles Yi, Staff Director

                Gregg Richard, Republican Staff Director

                  Laura Swanson, Deputy Staff Director

                        Jeanette Quick, Counsel

                    Phil Rudd, Legislative Assistant

                  Greg Dean, Republican Chief Counsel

                    Jared Sawyer, Republican Counsel

                    Travis Hill, Republican Counsel

                       Dawn Ratliff, Chief Clerk

                      Troy Cornell, Hearing Clerk

                      Shelvin Simmons, IT Director

                     Jason T. Parker, GPO Detailee

                          Jim Crowell, Editor

                                  (ii)









                            C O N T E N T S

                              ----------                              

                      WEDNESDAY, DECEMBER 10, 2014

                                                                   Page

Opening statement of Chairman Johnson............................     1

Opening statements, comments, or prepared statements of:
    Senator Crapo................................................     2

                               WITNESSES

Brian Peretti, Director for the Office of Critical Infrastructure 
  Protection and Compliance Policy, Department of the Treasury...     4
    Prepared statement...........................................    26
    Responses to written questions of:
        Senator Crapo............................................    48
        Senator Menendez.........................................    49
        Senator Warner...........................................    51
Phyllis Schneck, Deputy Under Secretary for Cybersecurity and 
  Communications, National Protection and Programs Directorate, 
  Department of Homeland Security................................     6
    Prepared statement...........................................    29
    Responses to written questions of:
        Senator Crapo............................................    53
        Senator Menendez.........................................    58
        Senator Warner...........................................    59
Valerie Abend, Senior Critical Infrastructure Officer, Office of 
  the Comptroller of the Currency................................     8
    Prepared statement...........................................    33
    Responses to written questions of:
        Senator Crapo............................................    64
        Senator Menendez.........................................    66
        Senator Warner...........................................    70
William Noonan, Deputy Special Agent in Charge, Cyber Operations 
  Branch, Criminal Investigative Division, Secret Service........    10
    Prepared statement...........................................    39
    Responses to written questions of:
        Senator Crapo............................................    75
        Senator Warner...........................................    76
Joseph M. Demarest, Jr., Assistant Director, Cyber Division, 
  Federal Bureau of Investigation, Department of Justice.........    11
    Prepared statement...........................................    41

              Additional Material Supplied for the Record

Letter to Agencies submitted by Chairman Johnson and Senator 
  Crapo..........................................................    79
Letter of response submitted by Joint Agencies...................    81
Letter of response submitted by the Department of the Treasury...    83
Letter of response submitted by Federal Deposit Insurance 
  Corporation....................................................    85
Letter of response submitted by the National Credit Union 
  Administration.................................................    91
Letter of response submitted by the Board of Governors of the 
  Federal Reserve System.........................................    97
Letter of response submitted by the Office of the Comptroller of 
  the Currency...................................................   102
Letter to the Conference of State Bank Supervisors submitted by 
  Chairman Johnson and Senator Crapo.............................   109
Letter of response submitted by the Conference of State Bank 
  Supervisors....................................................   111

                                 (iii)

Statement submitted by the National Association of Federal Credit 
  Unions.........................................................   121
Statement submitted by the Securities Industry and Financial 
  Markets
  Association....................................................   123
Statement submitted by the Independent Community Bankers of 
  America........................................................   130
Protecting Merchant Point of Sale Systems During the Holiday 
  Season.........................................................   132
 
 CYBERSECURITY: ENHANCING COORDINATION TO PROTECT THE FINANCIAL SECTOR

                              ----------                              


                      WEDNESDAY, DECEMBER 10, 2014

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:04 a.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Tim Johnson, Chairman of the 
Committee, presiding.

           OPENING STATEMENT OF CHAIRMAN TIM JOHNSON

    Chairman Johnson. I call this hearing to order.
    For my last hearing as Banking Committee Chairman, I am 
focusing on an issue that will require action in the next 
Congress and beyond. Responsible management of cyber-risks by 
financial institutions is important for consumer protection, 
financial stability, privacy, and national security. Not only 
are financial institutions frequent targets of cybercrime, they 
are uniquely interconnected with major sectors of the economy. 
Cyber attacks may cause damage to the financial system without 
directly attacking a bank, including through third-party 
providers.
    Earlier this year, I held a hearing on the role of 
financial regulators in ensuring that institutions protect 
consumer information. Since then, we have seen one of the 
biggest data breaches in history at JPMorgan. We must ensure 
that consumers have confidence in the financial system and that 
hard work is done by industry and Government together to 
prevent data breaches before they occur and respond quickly and 
in coordination when breaches do occur.
    However, data breach is only one piece of the cybersecurity 
puzzle. That is why Ranking Member Crapo and I asked Federal 
and State banking regulators and Treasury to provide 
information about each agency's protection of our financial 
system from cyber attacks. I am entering each agency's response 
into the record and I expect that regulators continue vigilance 
on cybersecurity.
    Safeguarding cyberspace has become increasingly complex as 
our lives become more entwined with technology. Technological 
innovation in financial services, such as mobile payments, 
peer-to-peer lending, and cloud computing can facilitate 
improvements in the consumer experience and economic growth. 
However, these innovations highlight the crucial need for sound 
cybersecurity policy, as many of these products are outside of 
the regulated financial sector.
    I have asked today's witnesses to discuss each of their 
roles in responding to cyberthreats and how to improve 
information sharing. Law enforcement, the intelligence 
community, Treasury, and financial regulators each may have 
different missions, but in addressing cybersecurity concerns, 
they all must be united in what some call a whole Government 
approach. I look forward to hearing more about cross-sector 
risks to the financial system, challenges facing small 
financial institutions, and how effective your partnerships 
with the private sector have been in improving cybersecurity 
practices.
    Cybersecurity is one of the most important issues facing 
the financial system. I urge all of the witnesses today, as 
well as policymakers in the next Congress, to act quickly to 
address cybersecurity concerns.
    Before I turn to Ranking Member Crapo for the last time, I 
want to say one more time to him and his staff, thank you for 
being such good partners as we sought to run our Committee in a 
civil, bipartisan way. To my other colleagues on this 
Committee, it has been a pleasure working with all of you over 
the many years.
    I now turn to Senator Crapo for his opening statement.

                STATEMENT OF SENATOR MIKE CRAPO

    Senator Crapo. Thank you, Mr. Chairman, and I appreciate 
your kind remarks. I share the same feelings that you have 
indicated with regard to not only our work together, but our 
staff, and I have developed great friendships with all of you. 
I appreciate that.
    This morning, we are holding what may be the final Banking 
Committee hearing that will be chaired by you, and I just have 
to reiterate what a pleasure it has been to work with you. You 
and I do have a great working relationship and it has been a 
privilege to serve with you in the past in a number of 
contexts, but in this Congress as Chairman and Ranking Member, 
and I wish you the best of luck in the future.
    Chairman Johnson. Thank you.
    Senator Crapo. Today, we have gathered to discuss 
cybersecurity in the financial sector. A ``60 Minutes'' segment 
that aired last week called 2014 the Year of the Data Breach. 
One recent study estimated that 60 percent of companies overall 
have experienced a breach in the last 2 years. This includes a 
number of high-profile breaches in which hackers have stolen 
personal and financial information from millions of consumers.
    These breaches can result in frustrating experiences for 
consumers, including obtaining new credit or debit cards, 
monitoring accounts for fraudulent activity, and the disruption 
of preauthorized payments. Additionally, financial 
institutions, especially community banks and credit unions, 
face significant costs in reissuing cards and covering losses. 
The financial sector itself is also a primary target for 
hackers, because, as some have pointed out, that is where the 
money is. The largest banks are under constant attack, every 
day, and spent hundreds of millions of dollars per year on 
cyber defense.
    What many may not realize is that the cost of defending 
against cyber attacks is remarkably disproportionate compared 
to the cost of attacking. Hackers can purchase tools to exploit 
vulnerabilities for just a few hundred dollars, while firms 
must spend upwards of a million dollars or more to defend 
against specific cyber attacks. The costs and burdens on 
smaller financial institutions to defend against attacks can be 
enormous.
    JPMorgan Chase, the Nation's largest bank by assets, was 
attacked this summer when hackers stole personal information 
from 76 million households and seven million small businesses. 
While this is certainly concerning, I am encouraged that 
despite spending weeks inside JPMorgan's system, the criminals 
reportedly were unable to steal any financial account 
information.
    Maintaining a strong perimeter defense is one essential 
component of cybersecurity. Minimizing damage if hackers get 
inside is another.
    The impact of a major cyber attack against our financial 
system would be dire. In the words of Secretary Lew, successful 
attacks on our financial system would compromise market 
confidence, jeopardize the integrity of the data, and pose a 
threat to financial security.
    Many of your agencies have made cybersecurity a priority 
and I applaud you for that. In addition, the financial industry 
has devoted substantial resources to protecting its information 
systems and is widely viewed as one of the most advanced 
sectors in terms of prioritizing cybersecurity. Today, I hope 
to learn more about how the Federal Government is partnering 
with industry to ensure that our financial system is protected 
from cyberthreats. What is the Government's process for 
obtaining threat information and delivering it to the private 
sector? How can we improve this process to get the information 
where it needs to go more quickly?
    It is good that cybersecurity is getting attention from so 
many different agencies and offices and working groups. While 
positive steps are being taken, we must be sure that the 
process has not become so complicated that it slows down the 
outflow of information and hinders coordination. Law 
enforcement, the Departments of Treasury and Homeland Security, 
and intelligence community, and banking regulators must all 
work together effectively to maximize the speed of information 
sharing and to minimize the risk of damage from cyber attacks.
    I hope to learn, also, about the work being done by the 
FFIEC's Cybersecurity Working Group and how that will inform 
exam procedures and policies moving forward.
    Thank you, Mr. Chairman, for holding this hearing, and I 
look forward to hearing the testimony of each of our witnesses 
today.
    Chairman Johnson. Thank you, Senator Crapo.
    Are there any other Members who would like to give a brief 
opening statement?
    [No response.]
    Chairman Johnson. I would like to remind my colleagues that 
the record will be open for the next 7 days for additional 
statements and any other materials you would like to submit.
    Now, I will introduce our witnesses. Brian Peretti is 
Director for the Office of Critical Infrastructure Protection 
and compliance Policy at the U.S. Department of the Treasury.
    Phyllis Schneck is Deputy Under Secretary for Cybersecurity 
and Communications for the National Protection and Programs 
Directorate at the Department of Homeland Security.
    Valerie Abend is the Senior Critical Infrastructure Officer 
for the Office of the Comptroller of the Currency.
    William Noonan is Deputy Special Agent in Charge of the 
Cyber Operations Branch of the Secret Service's Criminal 
Investigative Division.
    Joseph Demarest, Jr., is Assistant Director of the Cyber 
Division at the Federal Bureau of Investigation.
    I would like to ask the witnesses to please keep your 
remarks to 5 minutes. Your full written statements will be 
included in the hearing record.
    Mr. Peretti, you may begin your testimony.

STATEMENT OF BRIAN PERETTI, DIRECTOR FOR THE OFFICE OF CRITICAL 
INFRASTRUCTURE PROTECTION AND COMPLIANCE POLICY, DEPARTMENT OF 
                          THE TREASURY

    Mr. Peretti. Chairman Johnson, Ranking Member Crapo, and 
distinguished Members of the Committee, it is my pleasure to 
appear before you today to discuss cybersecurity of the 
financial sector. As Director of Treasury's Office of Critical 
Infrastructure Protection and Compliance Policy, my role is to 
support the security and resiliency of the critical virtual and 
physical infrastructures that enable financial sector 
operations. Cybersecurity has been a central focus of our 
office for several years.
    Before I begin, I would like to thank the Committee for 
focusing attention on this critical issue. At all levels, 
Government and the financial sector have taken significant 
steps in recent years to enhance information sharing of 
processes, improve baseline security at firms, and develop and 
test processes for responding to and recovering from incidents. 
More work is needed, however, and discussions like this can 
help advance the whole-of-Nation-collaborative effort that is 
needed to respond to these very complex challenges.
    Helping to protect financial sector critical infrastructure 
from physical and virtual threats is an integral component of 
Treasury's leadership in financial affairs domestically and 
globally. Presidential Policy Directive 21 was created in 2013 
to advance a national unity of effort to strengthen and 
maintain secure, functioning, and resilient critical 
infrastructure. This Directive reaffirms Treasury's role as the 
sector-specific agency for financial services, recognizing its 
financial services expertise and the value of its day to day 
engagement with financial institutions in building and 
enhancing security and resiliency partnerships.
    PPD-21, along with the President's 2013 Executive Order on 
cybersecurity, forms the basis for Treasury's mission to 
protect critical infrastructure from cyber incidents. This work 
depends on strong partnerships with others in Government and 
industry. To focus our work, we collaborate closely with other 
Government agencies and the private sector. To coordinate with 
Government, we chair the Financial and Banking Information 
Infrastructure Committee, a committee of 18 Federal and State 
regulators, and participate in interagency discussions chaired 
by the White House. To coordinate with the sector, we work with 
the Financial Services Sector Coordinating Council, which 
brings together private-sector institutions, trade 
associations, and individual firms to discuss security and 
resiliency policy.
    Now that I have described who we work with, I would like to 
spend the remainder of my time today talking specifically about 
the substantial outcomes of our work.
    First, I would like to highlight our work to promote 
cybersecurity information sharing. Sharing technical and 
strategic information about cyber instances and threats is one 
of the most effective tools that the Government has to support 
the mitigation of cyber instances and improve the operational 
resilience of the financial sector. In order to ensure that the 
sector receives the best information from all Government 
sources, Treasury works closely with other agencies to identify 
and declassify information that may be of use to private-sector 
firms. To this end, I have established a team within my office, 
the Financial Sector Cyber Intelligence Group, which works with 
the interagency and private-sector partners to provide timely 
and actionable information, including threat indicators, to the 
financial services sector.
    The financial services sector has invested significant 
resources in developing robust information-sharing mechanisms, 
primarily through the FS-ISAC. This information sharing and 
analysis center is a model for what can be accomplished by the 
private sector, and we in Government should look further to 
encourage the growth of the FS-ISAC and ISACs in other sectors.
    The President's Executive Order 13636 called for NIST to 
develop a framework that would reduce cyber-risks to critical 
infrastructure. Treasury has worked closely with the financial 
sector regarding how this sector could provide input into the 
framework. Today, the NIST Cybersecurity Framework is a 
voluntary blueprint that firms of all sizes can use to 
evaluate, maintain, and improve the resilience of their 
computer systems and reduce cyber-risk.
    Treasury continues to encourage financial service firms to 
utilize the framework, including by holding business partners, 
suppliers, and customers accountable to the risk management 
approach. In particular, efforts by SIFMA by develop auditable 
standards of the framework may be beneficial in supporting 
broad adoption of best practices.
    Finally, to improve incident management, Treasury believes 
the roles and responsibilities for different entities must be 
more clearly defined and regularly tested and refined. In order 
to prepare for cybersecurity instances, Government agencies and 
private-sector entities must work together to develop and 
refine response protocols that clearly delineate roles and 
responsibilities.
    Similarly, exercises are necessary to improve incident 
plans and develop muscle memory in the organizations with the 
personnel responsible for managing the incidences. Treasury has 
partnered with DHS and the FSSCC to develop an exercise program 
focused on the financial services sector. The first joint 
exercise in this program was held yesterday. By continuing to 
hold these exercises and smaller drills along the way, we can 
collectively hone preparedness and continually improve response 
mechanisms.
    In conclusion, while significant progress has been made to 
improve financial sector cybersecurity, we know there is more 
work to be done. We continue to hold ongoing discussions with 
our Government and private-sector partners to identify and 
build a more secure and resilient financial sector. As these 
efforts progress, we will work with senior policymakers to 
determine the best course of action to address these issues as 
they are identified.
    I thank you for focusing on this issue and will be happy to 
take your questions.
    Chairman Johnson. Thank you.
    Dr. Schneck, please proceed with your testimony.

   STATEMENT OF PHYLLIS SCHNECK, DEPUTY UNDER SECRETARY FOR 
   CYBERSECURITY AND COMMUNICATIONS, NATIONAL PROTECTION AND 
     PROGRAMS DIRECTORATE, DEPARTMENT OF HOMELAND SECURITY

    Ms. Schneck. Good morning, Chairman Johnson, Ranking Member 
Crapo, and distinguished Members of the Committee. I am very 
pleased to be here today to talk with you about the role of DHS 
in cybersecurity, the way we work with these critical issues 
with the financial sector.
    Secretary Johnson always reminds us that cybersecurity is a 
part of homeland security, and we are fortunate within the 
Department of Homeland Security to not only have where I am, 
with the National Protection and Programs Directorate, a non-
law enforcement piece focused on the protection and resilience 
of critical infrastructure, which includes cybersecurity and 
communications, but also law enforcement with Homeland Security 
Investigations as well as the U.S. Secret Service, some of the 
finest law enforcement investigators on the planet for 
financial crimes.
    So, I speak with you today from the National Protection and 
Programs Directorate on the non-law enforcement side and the 
role that we play. If you look at our National Cybersecurity 
and Communications Integration Center, which I will call the 
NCCIC, that is the core of cyber awareness, information coming 
in from victims, from partners, from vendors, from all of our 
interagency partners, whether it is the FBI, the intelligence 
community, from our in-house law enforcement, from Secret 
Service, from Homeland Security Investigations, all of our 
private-sector partners, all the State and local.
    Twenty-four-seven, all this information is coming in. We 
see something, say something. Just like the aviation industry, 
we learn from every event, whether people go out and help 
somebody stay online, we learn from that and it protects 
everybody else, or whether the programs we have to protect the 
Government in, as you said, perimeter defense, those collect 
data with the full collaboration with privacy and civil 
liberties. We collect as much data as we are allowed to 
understand, just as weather forecasters do, what we need to do 
to have information propagated ahead to protect the next 
victim. We do that for Government and private sector, as our 
programs look at perimeter defense for Government agencies as 
well as internal, and we are also able to protect private 
sector with Government data.
    We also house the United States Computer Emergency 
Readiness Team, or the U.S.-CERT, people that get on airplanes 
to keep people online, fix and respond. Our role is to respond 
and mitigate cyberthreat, make sure people stay online, whether 
it is systems that keep the lights on, the water running, or 
cyber systems in general. We also have the Industrial Control 
System CERT housed in Idaho Falls which looks at those very 
control systems that do keep physical infrastructure alive. So, 
those electronic systems that can be breached and are being 
targeted, keeping those online.
    If we look at what is important here, it is speed. Our 
adversary enjoys an agility that we do not have. My background 
is in high-performance computing and cryptography, but also 
really looking at how you build intelligence and situational 
awareness, and it was my job at my previous company, a large 
cyber provider, to do the information sharing and to lead for 
the company when we shared information with Government and law 
enforcement. And, I learned there this is a very complex issue 
and what we can do to help build resilience and help change the 
profit model for the adversary and make that much smaller, make 
this not worth their time, is to mitigate faster. This is about 
speed.
    And, the way we can balance that is if the NCCIC and our 
ability to respond as a Government, as a whole of Government, 
if you use the civilian non-law enforcement side to ingest the 
cyber activity, as we are doing, and the first place to report, 
we can then begin the mitigation while people work with their 
lawyers to figure out how to work with law enforcement. They 
are equally important. We must prosecute bad guys, but we also 
have to make sure that we do not waste time in the middle with 
the lawyers on the law enforcement side so the companies can 
work with them and have that understood. We have to make sure 
we are already mitigating in real time.
    So, the financial sector has done a lot of work to help us 
use real time, as they call it, or machine time protocols, 
faster than the attacks, to help networks be smarter about what 
is coming to them. Those can already be working while law 
enforcement is then deciding how they want to prosecute the 
case, because we want that civilian non-law enforcement 
reporting. Then we fan out all the data to the Secret Service, 
Homeland Security Investigation, FBI, intelligence community, 
and vendor partners that sit within the NCCIC.
    But, we have already started the mitigation, and it is this 
very speed that the FISMA modernization will help us to 
achieve, as well, helping us to clarify in statute the 
authority that we have to defend these networks and ensure that 
that, again, that mitigation has already started. And, I do 
thank the Senate for passing a version of this bill that could 
help us get there.
    I also want to point out what is important in our vision is 
the situational awareness, understand what is happening right 
now in cybersecurity, collect that data, work with private-
sector partners, work with the financial sector, leverage the 
great work that this sector has build in trust, in automated 
machine-to-machine communication, in getting to the bottom of 
legal issues so that we can all talk and, again, enjoy the 
agility that usually the adversary only enjoys and enable this 
to work cross-sector. And, to do that, we also have to get to 
the small to medium business and use that Executive Order 13636 
and our voluntary framework to enable best practices in 
cybersecurity to then enable all of this information sharing to 
get to those companies, as well, so that we can learn from 
them.
    In conclusion, we need to continue the great work that the 
financial sector has done such a tremendous job on with us as a 
whole of Government, and I look forward to more partnership and 
to any questions you may ask.
    Chairman Johnson. Thank you.
    Ms. Abend, please proceed with your testimony.

  STATEMENT OF VALERIE ABEND, SENIOR CRITICAL INFRASTRUCTURE 
       OFFICER, OFFICE OF THE COMPTROLLER OF THE CURRENCY

    Ms. Abend. Chairman Johnson, Ranking Member Crapo, and 
Members of the Committee, I am pleased to be here today to 
discuss the important issue of cybersecurity and what the OCC 
and the Federal Financial Institutions Examination Council has 
been doing to address cyberthreats and vulnerabilities. These 
efforts include information sharing for the benefit of the 
banking industry, regulatory community, and the financial 
system overall.
    But, first, I want to thank Chairman Johnson for his many 
years of leadership in the financial services arena and wishing 
him well in his future endeavors.
    There are few issues more important to the OCC and to our 
country's economic and national security than the risks posed 
to financial institutions by cyber attacks. We live in a world 
of rapidly evolving technology in which consumers store 
information in the cloud, pay bills with their computers, and 
use their cell phones to make purchases at the mall. However, 
these conveniences have also introduced new vulnerabilities 
into the financial system, making it more difficult to protect 
financial institutions and customer information from cyber 
attacks.
    As risks evolve, financial institutions must adapt. Our job 
as regulators is to ensure that institutions we supervise do 
everything possible to identify and manage vulnerabilities to 
these cyberthreats and our ability to response.
    To meet that objective, the OCC's supervisory framework 
includes ongoing monitoring and information sharing with other 
regulators, Government agencies, and banks regarding emerging 
threats and changes to the risk landscape. It also includes 
development and continual refinement of standards and guidance 
that set forth our expectations as to how banks should 
safeguard their systems and their customers' information, 
including at their third-party service providers.
    To complement these efforts, we are committed to 
maintaining a cadre of highly trained IT examiners. While all 
OCC examiners receive training on information technology risk 
management, we also cultivate examiners with specialized skills 
and experience to focus on the evolving information security 
and other technology risks in bank operations. Our examiners 
assess bank compliance with our supervisory expectations to 
ensure that they are appropriately managing risk, and when 
necessary, directing them to take corrective action.
    Comptroller of the Currency Tom Curry chairs the FFIEC, and 
one of the Council's top priorities is to strengthen the 
resilience of regulated institutions to cyber attacks. Under 
the Comptroller's leadership, the FFIEC created the 
Cybersecurity and Critical Infrastructure Working Group. The 
Working Group helps the FFIEC members collaborate on cyber-
related examination policy, training programs, coordination of 
responses to cybersecurity incidents, and information sharing 
and awareness efforts.
    The Working Group has been quite active since its 
inception. In addition to sponsoring awareness and training 
webinars, it has drafted statements advising financial 
institutions about the variety of specific threats and 
vulnerabilities, including the Heartbleed and Shellshock 
vulnerabilities and attacks on ATMs.
    The FFIEC, on behalf of its members, also recommended that 
all institutions join the Financial Services Information 
Sharing and Analysis Center, a public-private partnership which 
provides information about current threats and vulnerabilities.
    A major initiative of the Working Group was to pilot a 
cybersecurity examination work program at more than 500 
community institutions. This cybersecurity assessment evaluated 
the operating environment for each institution and assessed its 
overall level of preparedness. The results of the assessment 
will help FFIEC members make informed decisions about how they 
prioritize actions to enhance the effectiveness of 
cybersecurity-related supervisory programs, guidance, and 
examiner training. The results are summarized in a General 
Observations document that provides observations and questions 
that banks, boards of directors, and CEOs should consider when 
assessing their cybersecurity preparedness.
    The Comptroller has emphasized the importance of 
communication, collaboration, cooperation in all aspects of our 
mission, but nowhere is communication and collaboration more 
important than in the realm of cybersecurity, where the threats 
transcend agency jurisdictions and industry boundaries. The OCC 
is an active member of several information-sharing bodies. We 
also recognize the importance of maintaining relationships with 
law enforcement and intelligence communities to share 
information through open lines of communication. We use 
information-sharing forums, relationships with Government 
agencies, and information from our exams to inform our 
supervision.
    Finally, the recent breaches at large retailers highlight 
the need for improved cybersecurity for merchants. When 
breaches occur in merchant systems, we believe that merchants 
should contribute to efforts to make affected consumers whole 
so that banks, particularly community institutions, do not 
disproportionately shoulder the cost. Additionally, financial 
institutions share dependencies with other sectors, such as 
telecommunications and energy, and as such, we support efforts 
to ensure commensurate standards for those important critical 
infrastructures.
    In closing, we are committed to refining our supervisory 
processes and to participating in a range of information-
sharing forums to keep abreast of and respond to cyberthreats. 
Combating threats and protecting our economic security requires 
the Government and industry to work together for the good of 
consumers, the industry, and the entire financial services 
sector.
    Thank you, and I would be happy to answer your questions.
    Chairman Johnson. Thank you.
    Mr. Noonan, please proceed with your testimony.

 STATEMENT OF WILLIAM NOONAN, DEPUTY SPECIAL AGENT IN CHARGE, 
   CYBER OPERATIONS BRANCH, CRIMINAL INVESTIGATIVE DIVISION, 
                         SECRET SERVICE

    Mr. Noonan. Good morning, Chairman Johnson, Ranking Member 
Crapo, and distinguished Members of the Committee. Thank you 
for the opportunity to testify with interagency partners 
regarding the ongoing threat of cybercrime to our Nation's 
financial services sector.
    Chairman Johnson, while the Secret Service has only 
testified a handful of times before this Committee in recent 
years, we all appreciate the work you have done on behalf of 
American consumers and the financial services industry. We wish 
you the best in retirement.
    The founding mission of the Secret Service is to protect 
our Nation's financial payment system from malicious activity. 
As it has evolved from paper to plastic to now digital 
information, so, too, has the Secret Service's investigative 
mission. Today, financial transactions of all types depend 
heavily on information technology. As such, criminals motivated 
by greed have adapted their methods and are increasingly using 
cyberspace to exploit these systems to engage in fraud and 
other illegal activities.
    The wealth accrued by the world's most skillful 
cybercriminals is staggering. Some have become 
multimillionaires through their criminal endeavors and are not 
stopping there. Cyber investigative programs are being outpaced 
by criminals who reinvest their illicit proceeds to support 
their malicious cyber activity.
    Despite substantial investments in cybersecurity by our 
leading financial institutions, we continue to see many fall 
victim to cybercriminals. In considering all the high-profile 
cyber incidents over the last year, it is clear that defense 
alone is inadequate. Proactive law enforcement investigations 
are essential in Combating these threats.
    The Secret Service has observed transnational 
cybercriminals who, over the past 10 years, have grown into 
highly capable adversaries. They command botnets consisting of 
millions of computers. They routinely compromise highly secure 
computer networks. And, they accomplish increasingly profitable 
operations. Last year, we witnessed an unlimited ATM cash-out 
operation that was unprecedented in scope. The operation 
involved a cybercriminal organization which stole $40 million 
in less than 11 hours through a synchronized effort executed 
across 24 countries. Rich off the money they have stolen from 
Americans, our Nation faces increasing risk that sophisticated 
cybercriminals may coordinate their unique skill sets and apply 
their combined expertise to conduct cyber attacks against our 
critical infrastructure.
    Achieving a different outcome drives our work at the Secret 
Service. We focus on proactively investigating the most capable 
cybercriminals. To defeat these transnational groups, we target 
their criminal infrastructure and leaders. For example, last 
year, the Secret Service shut down the digital currency 
platform Liberty Reserve for allegedly running a $6 billion 
money laundering scheme. Prior to its shutdown, the currency 
had more than 5.5 million user accounts and approximately 55 
million transactions. The founder of Liberty Reserve, Arthur 
Budovsky, was extradited from Spain to the United States in 
October. Mr. Budovsky is among seven individuals charged in the 
indictment. Four other codefendants pled guilty and are 
awaiting sentencing.
    In addition, this past year, the Secret Service worked with 
a key law enforcement partner to apprehend one of the primary 
masterminds alleged to be behind a series of unlimited ATM 
cash-out operations, including the one I previously mentioned. 
Since his arrest, there has not been another successful 
operation of this kind. These arrests prove that transnational 
cybercriminals are not beyond the reach of U.S. law 
enforcement. Over the past 5 years, the Secret Service arrested 
nearly 6,000 cybercriminals and prevented nearly $12 billion in 
potential fraud losses.
    The Secret Service actively shares information to disrupt 
cybercriminal schemes. This year, as a result of information 
discovered through just one of our ongoing cybercrime 
investigations, we notified over 200 U.S. organizations of 
cybercriminal activity targeting their networks. These include 
retailers, financial institutions, Government agencies, IT 
companies, health care providers, and military agencies.
    Our work does not stop with victim notification. The Secret 
Service also widely shares actionable cybersecurity information 
through our close partnerships with the Department of Treasury, 
the Department of Justice, and DHS's National Cybersecurity and 
Communications Integration Center. This is in addition to our 
work with industry groups like the FS-ISAC, Financial Services 
Roundtable, and the Business Executives for National Security.
    Through the dedicated efforts of our special agents, our 
Electronic Crimes Task Forces, and our public and private-
sector partners, the Secret Service will continue its efforts 
to counter the growing threat posed by cybercriminals.
    Thank you for the opportunity to testify on this important 
topic, and I look forward to your questions.
    Chairman Johnson. Thank you.
    Mr. Demarest, please proceed with your testimony.

STATEMENT OF JOSEPH M. DEMAREST, JR., ASSISTANT DIRECTOR, CYBER 
   DIVISION, FEDERAL BUREAU OF INVESTIGATION, DEPARTMENT OF 
                            JUSTICE

    Mr. Demarest. Last, but certainly not least, the FBI.
    [Laughter.]
    Mr. Demarest. Good morning, Ranking Member Crapo and 
distinguished Members of the Committee. And to Chairman 
Johnson, I, and we in the FBI, thank you, sir, for your long 
and distinguished service to the American people. Thank you, 
sir.
    I am honored to appear before you today to discuss 
cyberthreats facing our Nation, their relation to the financial 
sector, and the efforts the FBI is taking to identify, pursue, 
and defeat those threats. In the course of my testimony this 
morning, I hope to give you a sense of the extent to which 
today's cyber actors pose new and increasingly complex threats 
to our country and to the financial sector specifically, a 
threat that challenges traditional models of law enforcement 
and the intelligence communities. Today's cyber actors, from 
Nation-States to criminal groups and individuals, find 
themselves virtually unconstrained by time, distance, and 
physical location.
    I would like to start with a brief overview of the Cyber 
Division of the FBI. In general, our mission falls into three 
separate but primary buckets. First, we identify the cyber 
actors perpetrating the harm and the role of cybercrime and 
cyber espionage. This is often the most difficult step, as 
cyberthreats use various methods to attempt to hide virtually 
in plain sight.
    Second, we pursue these actors, tracking their activity 
both online and off. We utilize collaborative partnerships 
across the Federal Government, with international partners, and 
certainly with industry, along with our unique combination of 
national security and law enforcement authorities to gather 
intelligence about the tactics, techniques, and procedures of 
these actors. In short, we find these threat actors by using a 
variety of cutting-edge techniques to locate them no matter 
where they are on the planet.
    Last, with the aid of partnerships and our unique 
authorities, we defeat the cyber adversaries through a full 
range of methods, from prosecution to disruption, here and 
abroad.
    As the Members of this Committee are aware, the threat from 
cyber actors continue to advance in sophistication. I would 
like to spend the rest of my brief testimony highlighting a few 
of the ways the FBI, along with our partners here in Government 
and in organizations like the Securities Industry and Financial 
Markets Association, SIFMA, the Financial Services Sector 
Coordinating Council, FSSCC, the Financial Services Information 
Sharing and Analysis Center, FS-ISAC, and the Financial 
Services Roundtable are collaborating with each other and with 
the private sector to protect the Nation and the financial 
sector, in particular, from cyberthreats.
    Specifically, I would like to talk about botnets and the 
criminal underground which harness the power of enormous webs 
of computers for malicious purposes and the FBI's efforts to 
address them through Operation Clean Slate.
    As I speak, since 2001, estimates place the total damages 
caused by botnets at more than $9 billion in losses to U.S. 
victims and over $110 billion in losses worldwide to date. 
Approximately 500 million computers are infected globally per 
year, translating to 18 victims per second. Botnets are 
continually used to attack the financial sector through 
``denial of service'' attacks, or DDoS attacks, and the FBI has 
been deeply involved in keeping such attacks from inflicting 
lasting damage.
    Beginning in September of 2012, for example, actors 
launched powerful DDoS attacks from a botnet to target major 
U.S. banking institutions. From March 2013 through July 2014, 
the FBI conducted approximately 36 classified threat briefings 
regarding the attacks on private-sector financial institutions 
and Government agencies, including DHS, Department of Treasury, 
the FDIC, and the Federal Reserve. The initial classified 
briefing held in March 2013 was attended by over 300 chief 
information security officers. This type of outreach is now the 
norm for us. We share by rule, not exception. Based on imminent 
threats to the financial sector in early 2014, the FBI provided 
classified threat briefings in March, April, and July to a 
total of 145 financial institutions.
    Further, the FBI worked closely with DHS to issue a Joint 
Indicator Bulletin, or Bulletins, or JIBs, as they are 
affectionately called internally, to the U.S. banks, which 
included thousands of IP addresses that participated in the 
attacks. Throughout this campaign, the FBI held significant 
outreach efforts to brief bank net defenders through a series 
of classified briefings. These briefings, conducted by FBI, 
DHS, and Treasury representatives, provided the bank security 
personnel the context of the DDoS threat and enabled the banks 
to share best practices with their peers in real time.
    To further assist with network defense of botnets, the FBI 
created a document called the FBI Liaison Alert System Message, 
or FLAS. Through this system, the FBI releases high-confidence 
data to the private sector with indicators and alerts related 
to computer intrusions and DDoS attacks. From April of 2013 
through July of this year, the FBI disseminated 34 FLAS 
messages, about 20 of which dealt with threats directly focused 
on the financial sector. The FBI disseminated, among other 
information, indicators for approximately 115,000 compromised 
systems in these messages.
    We at the FBI, in short, are doing everything in our power 
to keep pace with the threat against the financial sector and 
our Nation. Our agents, computer scientists and analysts, and 
professional staff are all working hard to outpace the threats 
on a daily basis by identifying, pursuing, and defeating our 
adversaries wherever they may be in the world. The FBI and our 
partners throughout the Government have all made significant 
progress in recent years in collaborating within the cyber 
domain and we look forward to working with the Committee and 
Congress in protecting our Nation from these evolving threats.
    I thank you again for this opportunity and I look forward 
to your questions. Thank you.
    Chairman Johnson. Thank you all for your testimony. I will 
now ask the clerk to put 5 minutes on the clock for each 
Member.
    Director Schneck, we have heard that cyber attacks often 
have impacts on more than one critical infrastructure sector. 
What is DHS doing to facilitate information sharing and best 
practices among sectors? Are there other sectors that are 
particularly important to coordinate with the financial 
services sector?
    Ms. Schneck. Thank you, sir, and I also regret that my 
first time talking to you in this forum is my last, but thank 
you----
    Chairman Johnson. Yes.
    Ms. Schneck. So, a great question. One of the reasons, I 
believe, that we exist in our NCCIC, that National 
Cybersecurity Coordination, Communication, Integration Center, 
is really to look at how we take these attack attempts and how 
we take the data that we see and we take the actual attacks and 
make sure that not only we respond and mitigate quickly, but 
that we share that information out across sectors, because we 
are all connected. If we had to figure out whether finance was 
more important than electricity or water or gas, we would have 
a hard time doing that because they are all so interdependent, 
and you also add a complexity that a lot of the signaling 
systems, the electronics that control circuits opening and 
closing to make, literally, decisions--whether water comes out 
of a valve or nuclear or electric--all of that is, in many 
cases, the same equipment across the sectors.
    We work very hard through our Industrial Control Systems 
CERT and our regular computer emergency response teams and our 
interagency partners, our internal partners, everybody, and all 
of the trusted private-sector relationships to gather data and 
science and technology to understand two things. One is, how do 
we bring information in faster, and how do we analyze it, make 
real actionable intelligence out of it, and how do we push it 
out faster.
    So, bringing it in comes from trust and then automated 
mechanisms, so people and machines. When machines see something 
wrong behaviorally, they tell us, and this is all designed with 
privacy and civil liberties baked in. The other piece is with 
people, and as we work closely with sectors such as financial 
industry as well as electric and water and all of the others, I 
think the finance sector, and I gave credit earlier, is very 
important, because they had set a standard of the level of 
trusted relationship going back 15 years. They have been 
leaders in this.
    The Financial Services ISAC, Information Sharing and 
Analysis Center, that was mentioned earlier has taken great 
strides in providing ways, free of charge, for others in the 
private sector and Government to attach their software, 
whatever they may be using, to protocols or ways that we can 
protect other sectors and other companies with information that 
we know in the NCCIC. So, if we keep all the information and 
analyze it and look at trends, just as weather forecasters do, 
our job now is to get it out as quickly as possible so that our 
networks are resilient, and without having seen it before, a 
piece of the network can understand a behavior that is wrong, 
just like your body's immune system recognizes a cold that you 
may not have had before. And, working with our interagency 
partners and working with trust and advancements with the 
financial sector and others, we make other sectors stronger.
    There are many sectors that are looking at this, as well as 
State and local and small to medium businesses, leveraging 
outreach from the cybersecurity framework. And, we have 
launched at DHS the C-Cubed VP. It is an acronym, of course, 
but it is the cyber--Critical Infrastructure Cybersecurity 
Community Voluntary Program, and that is a long name for we 
reach out to everybody that will listen to our best practices, 
that will go to our Web site and see how to judge your 
resilience, and that will take the information that we have, 
either ingest it by machine in real time, or by one of the 
reports that my colleagues have mentioned, or by simply calling 
us up saying that they need help, because the adversary moves 
quickly and with an agility we do not have.
    Chairman Johnson. Thank you.
    Ms. Abend, you are Chair of the FFIEC Cybersecurity Working 
Group. Third-party vendors may pose cybersecurity risks to 
financial institutions, particularly smaller institutions. What 
actions are the FFIEC members taking to supervise third-party 
service providers?
    Ms. Abend. Technology service providers serve an important 
role to our institutions, particularly in terms of the largest 
ones that provide core banking and other critical services to a 
large number of financial institutions, including community 
institutions. And, as such, the FFIEC publishes guidance that 
our examiners use to oversee these institutions, including 
guidance specifically on the oversight of technology service 
providers. We use some of our most talented specialized IT 
examiners at the OCC to supervise these entities jointly with 
other banking regulatory authorities.
    Chairman Johnson. Mr. Noonan and Mr. Demarest, last year 
around the holidays, we learned that one of the country's 
largest retailers experienced a massive data breach after 
Thanksgiving. What changes and improvements have been made 
since last year to protect consumers during the holiday season, 
and how do you pursue cybercriminals, and would you 
characterize your investigations as proactive or reactive? Mr. 
Noonan, let us start with you.
    Mr. Noonan. Yes, sir. Thank you. The Secret Service's 
approach to going after cybercriminals today is a proactive 
approach. As we dive into our criminal investigations, we 
utilize a number of different methods. We look at undercover 
operations. We have criminal sources. We have confidential 
informants. And, we are also able to look at the criminals' 
infrastructure and their communications. And, in doing so, we 
are able to see potentially where other victims are and make 
notifications to those companies.
    So, in many of today's data breaches that are out there, 
our notifications are being made to those companies of their 
potential data breach by law enforcement, by the Secret 
Service. As a result of that, we work closely with those 
companies and we are able to draw out important evidence and 
tactics and trends that the criminal adversaries are using 
against the victim company. When we do do that, we take that 
information and we share that across the industry.
    So, just this past year, we increased the amount of 
information that we have put out. Actually, we put out, I think 
it was eight malware initial finding reports, which are new or 
different strains of malware, which we put out to industry to 
better help them in their defenses. In addition to that, we put 
out seven different industry notices that went out to the whole 
of industry, and we use that--we take that information, and we 
are not just putting that out, but our partners at the NCCIC 
are helping us in disseminating that information out to the 
whole of Government, out to the rest of industry, and in doing 
so, we are helping to fortify and protect industry.
    Just this November, on November 7, the FS-ISAC along with 
the Retail Cyber Intelligence Sharing Center and the Secret 
Service put out a document to help the retailers on how to 
better protect themselves with the types of crimes that we saw 
over the past year--point of sale terminal, information theft 
that were happening through infiltration of different networks. 
And, it is a pretty robust product that we put out and I would 
be willing to share it for the record after the hearing.
    Chairman Johnson. Mr. Demarest.
    Mr. Demarest. Yes. In exactly the same very proactive or 
shifting toward a proactive stance, beyond our similar hair 
styles, Bill and I are very closely fused together today----
    [Laughter.]
    Mr. Demarest. ----yet, you would find--and we talk about 
major hacks of some of the retailers, too--we are finding great 
benefit. And, as Bill mentioned, we each do a great job in that 
proactive stance where we are using undercover operations, 
source operations, or human operations, current tactical 
coverages. But, we in the FBI are able also to bring to that 
the national security authorities. We are able to bring in what 
we are collecting and working with the intelligence community 
that may have overlap. Some of our actors, as you know, may 
serve by day on their own, but may be cooperating with a 
certain Government Nation or a Nation-State by evening.
    So, from that standpoint--and, what we provide is, on joint 
matters or separate, is providing those industries or at least 
the targeted sector retail threat indicators. If they are 
focused or they are for some reason not following the target of 
either a Nation-State or criminal actors, that information is 
provided in near real time to the targeted company.
    Chairman Johnson. Senator Crapo.
    Senator Crapo. Thank you very much, Mr. Chairman.
    Mr. Noonan and Mr. Demarest, one question I have is, as 
your law enforcement agencies in the course of an investigation 
obtain data that is helpful for the victims of the data breach, 
it is often important to share this among institutions, as you 
have indicated, so that other potential victims are alerted and 
become able to protect themselves. But, is there not an issue, 
also, with regard to whether in the process of sharing this 
data the bad actors are notified that they are being 
investigated or alerted to the possibility that they are about 
to get caught?
    Mr. Noonan. So, I think it is more important for us in law 
enforcement, obviously, to share information with the 
infrastructure we are talking about. Yes, sir, there is always 
a risk of the actors finding out about an investigation. But, I 
think it is more important for us together in law enforcement 
to make that notification to industry to be able to better 
prevent the occurrence from happening, or to stop the bleeding, 
if you will.
    So, take for example Target. Notification was made to 
Target in a rather quick period of time, and I think the 
exposure on Target was only 2 weeks. Had that exposure gone out 
longer and we not made a notification to the industry, and then 
within 5 days of us working with Target, we took those 
industry, the indicators, and we pushed it out to the whole of 
industry.
    So, I believe law enforcement's approach of going out and 
making notification, working with potential victim companies, 
is a critical part of the equation in what needs to be done to 
prevent further instances of data breach and others.
    Mr. Demarest. Fully concur. Cost-benefit analysis. So, once 
we do that, we look at what we are doing, those indicators that 
may potentially compromise current collection. We feel more 
strongly about sharing that information and closing down those 
avenues of the actors. The actors, Ranking Member Crapo, you do 
accurately point out they do a lot of research online, so they 
find these products that are posted by us, DHS, I will say some 
of the managed cybersecurity firms' products, the research 
products that are also done. They will do research on those and 
then change their tactics. But, the idea is to frustrate those 
adversaries, have them cost more in the way of time, resources, 
and energy to actually devise ways to circumvent what we put in 
place to block them.
    Senator Crapo. Thank you.
    And, Mr. Peretti and Dr. Schneck, the FS-ISAC and the DTCC 
recently launched a new information-sharing platform called 
Soltra Edge, which automates information sharing to send out 
threat information at, as you have said, machine speed rather 
than human speed. And, as I understand it, Soltra uses the STIX 
language and the TAXII distribution method, which are protocols 
developed through DHS-funded projects. As the industry moves 
forward with automated information sharing, are Treasury and 
DHS able and ready to send and receive information at the same 
speed and in the same format as industry?
    Mr. Peretti. So, as we are moving forward--as industry is 
rolling out these programs--we are developing our systems to 
mirror that. So, while we are not at the stage yet to be able 
to share our information, we are formatting our information in 
that method and we expect to be able to do that as soon as the 
private sector is able to receive it.
    Senator Crapo. Do you want to add anything, Dr. Schneck?
    Ms. Schneck. I do. This is one of the most exciting things, 
I think, to happen to cybersecurity and information sharing. 
STIX is a way of shipping information and TAXII is a way of--
STIX is a language, if you will, what fields are we sending, 
and TAXII is a way to do it, and Soltra is kind of like a user 
interface. And, Treasury and the financial sector and the FS-
ISAC in particular built this so that anybody can use it, which 
all of a sudden hooks all of the entities we need to protect 
with an opportunity to send and receive information. So, the 
wider your aperture in understanding what is happening in 
cyber, the better you can understand how you can form a 
behavior and an analysis of that that might hurt you. So, we 
are learning as we protect, and this is one enabler.
    The other thing on which we are working with Treasury is 
cyber insurance as a potential building--and the exploration of 
a potential market to incentivize even the smallest companies 
to budget for cybersecurity.
    Senator Crapo. Well, thank you.
    Let me just--I just have a few seconds left, but let me 
follow up on that. We have had a lot of discussion here in your 
testimony and in our questions about the flow of information 
and making sure that we communicate at machine speed and so 
forth, but what information are we talking about? What is it 
that you just described as such an exciting development that we 
are able to see being transferred and communicated at machine 
speed?
    Ms. Schneck. If I may, I will use an example in botnets 
that was raised a moment ago by law enforcement. Botnets are 
the ability for the adversary to lease hundreds of thousands of 
machines to just throw traffic at a network that is not 
expecting it and literally take them offline.
    What we can do with this now is understand, because we see 
a whole world that we are protecting and being connective 
through the efforts of the DHS programs and EINSTEIN and 
continuous diagnostics and mitigation across the Government, 
enhanced cybersecurity services will use that information to 
protect the private sector and now the automation will connect 
us to everybody else, if you will. We can use that intelligence 
to start to understand which machines are generating this 
traffic.
    And, this is the world I come from in the private sector. 
This can happen in seconds. We can then provide the addresses 
of those machines to the ISPs, as an example, and stop the 
traffic from getting to the organizations that they were 
targeted to hurt. And, that is just one example, and my saying 
in that in-house is months to milliseconds.
    So, before, and we still do this through trusted 
relationships with the Secret Service and Homeland Security 
Investigations and the FBI, we call the ISPs and give them the 
addresses now, or we email them. As this takes on, the machines 
will automatically know to block it.
    Senator Crapo. Thank you.
    Mr. Peretti. And, if I can just add on to that for 1 
second; and what we do is ask the industry in conferences and 
meetings, what kind of information they need to be able to 
better defend their systems. So, instead of us providing 
information to them that may not be actionable based upon the 
systems they use, we go out and actually ask them, what kind of 
information they need. Usually, what they are asking for is IP 
addresses and malware hashes that they can then run through 
their systems to see if there are any intrusions or malicious 
activity going on. So, that is the type of information we are 
going to keep providing and that dynamic feedback loop between 
us and industry is really helping to refine the information and 
the delivery of resources that is more actionable to them to 
help the network defenders to protect themselves.
    Senator Crapo. Thank you.
    Chairman Johnson. Senator Warren.
    Senator Warren. Thank you, Mr. Chairman, and since this is 
likely our last hearing of the year, I want to say to Chairman 
Johnson and to Ranking Member Crapo, thank you for the very 
engaged, very open way that you have run this Committee and 
given us an opportunity to explore so many issues. It has 
really been terrific. And, I also want to say on Chairman 
Johnson's retirement that your leadership has always been 
knowledgeable, thoughtful, principled, and it has been a great 
honor to serve with you, sir, so thank you.
    I want to talk about safety and soundness. In January 2011, 
Federal Reserve Governor Tarullo gave a speech on regulating 
systemic risk in our financial institutions and how problems in 
one financial firm can create risks for overall financial 
stability. And, I was thinking about an example of two banks, 
JPMorgan and New York Mellon, settle all triparty repurchase 
agreements in the market. One-point-six trillion dollars' worth 
of securities are funded by triparty repos every day. If a 
cyber attack disrupted the ability of either of those banks to 
allocate collateral, it could have devastating consequences for 
securities firms, for money market, mutual funds, major banks, 
even the liquidity of the United States Treasury.
    Now, Ms. Abend, this strikes me as a classic safety and 
soundness issue. The OCC's safety and soundness analysis 
requires you to investigate how sensitive banks are to systemic 
market risk and how exposed each individual institution is to 
market risk given particular products and services that it 
offers. Then OCC regulators give the institution a ranking 
signifying whether it has adequately addressed each of the 
risks that are identified.
    So, I want to know whether systemic risk from cybersecurity 
is taken into account in the ranking, and second, whether firms 
that are not prepared are determined, as determined by the OCC, 
to have failed to satisfy the safety and soundness guidelines 
are then treated.
    Ms. Abend. Cybersecurity has been a top priority for the 
OCC, particularly over the last couple of years.
    Senator Warren. No, I appreciate that. You have made that 
clear.
    Ms. Abend. And, in that process, we do look at the risk 
profile of our institutions. As part of the cybersecurity risk 
assessment, we actually looked at various aspects of their 
cybersecurity inherent risk profile, which includes 
technologies that they use, the products and services that they 
offer, and the connections that they have. And, as part of our 
OCC examination process, we do assign some of our most talented 
IT examiners to be resident on-site at our largest 
institutions.
    Senator Warren. No, I understand that, but the question I 
was asking is whether or not you take this into account in 
ranking the institutions and then holding them accountable as 
part of your safety and soundness analysis.
    Ms. Abend. We do see cybersecurity as a safety and 
soundness issue and we do look at the risk profile of those 
institutions----
    Senator Warren. And you put it into the ranking?
    Ms. Abend. I am not actually the expert who conducts that 
part of the ranking policy, but, what I can say is that we do 
have a risk-based analysis as to how we determine the risks of 
our institutions and the level of resources that they get on-
site as resident exams.
    Senator Warren. Well, as we all know here, a future cyber 
attack could paralyze the financial sector with devastating 
consequences for our economy. No two crises are alike. We want 
to be out in front on this, and I would really like to know 
that the OCC is using this as part of their ranking.
    Let me ask about another issue. When we talk about cyber 
attacks that affect our financial institutions, we should 
remember it is not just the institutions themselves who are at 
risk. There is a whole chain of organizations. We have talked a 
little bit about this. There are lots of individuals, 
institutions that present vulnerabilities, from the merchants 
to the acquirers to the payments processors and even to the 
employees. Forbes reported yesterday that 71 percent of 
employees in a new survey report having access to data they 
should not see. But, my point is that each and every one of 
these links in the chain of commerce means millions of people, 
potentially, are exposed to financial fraud and theft.
    Last year's breach at Target, which we have talked about a 
little bit today, made this abundantly clear. We now know that 
criminals used one of Target's vendors to breach Target's 
system by using malware to capture credit card and debit card 
information. In this case, there was a single point of failure, 
one vendor who had computers that were authorized to submit 
billing information to Target, that created a breach that 
affected the entire chain.
    So, Mr. Peretti, how is Treasury monitoring the other 
entities along the chain, from the retail merchants, to the 
third-party data processors and software providers, all the way 
down the line before it gets to the banks, to ensure that they 
are making the necessary investments in cybersecurity?
    Mr. Peretti. So, what Treasury has been doing has been 
communicating with financial firms to be able to highlight this 
risk within the system, to be able to make sure that they are 
paying attention not only to their own internal systems, but to 
also all their vendors. One of the ways we have been doing that 
is to really publicize in this cybersecurity framework, which 
is a framework to be able to, first, be able to identify how 
you are doing cybersecurity within your own organization, but 
then we have been asking firms to be able to use this 
potentially as a way to be able to look at their outside 
vendors. Are there----
    Senator Warren. I am sorry. So, your monitoring of the 
chain is limited to telling the financial institutions to take 
a look at the chain? Is that what you are saying?
    Mr. Peretti. So, the financial firm's decisions are based 
upon a risk model in which they look at that. They are able to 
select their vendors based upon the products and services that 
they need to be able to deliver the services to their 
customers. And, so, we try----
    Senator Warren. I think that meant yes. Is that what you 
were saying?
    Mr. Peretti. What we try to do is deliver the information 
to them so that they can make appropriate risk management 
determinations as opposed to telling them which vendors they 
should or should not use.
    Senator Warren. Oh, I am not talking about telling them 
which vendors to use. What I am just trying to understand is 
the process by which you are monitoring--the risk comes in all 
the way up and down the chain----
    Mr. Peretti. Yes.
    Senator Warren. ----and we obviously know that now. So, the 
question I was asking about is whether you have any direct 
monitoring of any part of the chain, and what I think I am 
hearing you say is you are just telling the financial 
institutions to be sure to monitor.
    Mr. Peretti. So, Treasury is not a financial regulator.
    Senator Warren. I understand that.
    Mr. Peretti. We have 17 Federal and State financial 
regulators out there. What we do is provide information to them 
so that as they do their examination process, that could be 
incorporated into their examination procedures going forward. 
So, we do not go out and monitor or survey any of those folks. 
That is not our role within the sector. We provide that 
information to the regulators to be able to then use that 
information within their examination process.
    Senator Warren. Well, I am over my time, but if I can ask 
just one more question, just a little bit here. Dr. Schneck, 
how much risk do retailers pose, and particularly small 
retailers, particularly those who do not have the resources for 
sophisticated cyber defense?
    Ms. Schneck. So, thank you. That is a great point, and I 
would ask to expand it to small to medium business in general.
    Senator Warren. Fair enough. Yes. Expand.
    Ms. Schneck. So, we think there is a lot of risk, and that 
is part of why, as Mr. Peretti was mentioning, we do leverage 
this cybersecurity framework, because it was developed by 
industry and Government, by scientists from industry with NIST 
and with DHS, and we use those best practices to bring the 
discussion of cybersecurity as a risk equation, because most 
small to medium businesses, at least the last year with whom I 
have spoken, did not really look at cybersecurity as a main 
part of their risk equation and we are trying very hard to 
change that with these massive outreach programs. I have 
actually gone out West and talked to venture capitalists who 
start the smallest companies with the best technologies and ask 
them how they could invest tens of millions of dollars in 
intellectual property and not think about how to protect it.
    So, we are trying to change the paradigm of how we focus on 
cybersecurity and make it part of how every entity in that 
chain looks at their risk so that the information that Mr. 
Peretti gets is more accurate, and we are using these outreach 
programs as a way to do that, and we are trying to incentivize 
using cybersecurity with tools such as developing a market for 
cyber insurance and working closely with Treasury on that. 
Other areas look at grants, or how do we protect reputation 
forward, but really making security part of the culture, making 
it good to share information about a breach, because your 
experience is very common and can protect a lot of others and 
that is the kind of intelligence and galvanization that we as a 
country and community need to do to help Government and 
industry tackle this and change the profit model for the 
criminals.
    Senator Warren. Well, good. Well, I very much appreciate 
that you are trying to shift the paradigm here. I understand 
the focus on the banks and why that is so important, but we 
have got to harden our security up and down the line, and I 
think that we cannot just make this about the banks. It has got 
to be the whole chain here. So, thank you very much, and thank 
you, Mr. Chairman.
    Chairman Johnson. Senator Schumer.
    Senator Schumer. Well, thank you, Mr. Chairman, and first, 
I would be remiss if not to acknowledge, I guess this will be 
the last hearing, unless we have to have one on TRIA or 
something--I hope not----
    [Laughter.]
    Senator Schumer. ----that you will be chairing the Banking 
Committee. So, I just wanted to take this opportunity to 
personally say how much you will be missed. You have been a 
great voice of reason, a steady tiller on this Committee, and 
we have done great things under your fair and independent 
chairmanship, and, of course, we have become close friends. 
Last night, I got to say a few words, of course, about you at 
our departing dinner. But, I just want to wish you and Barbara 
all the best.
    And, to my good friend, Mike Crapo, I guess this is your 
last hearing, we hope, as Ranking Member. I imagine you are 
moving on to bigger and better things.
    Senator Crapo. We are going to see.
    [Laughter.]
    Senator Schumer. But, I want to wish you well. And, just 
like Tim, you have been fair and open and a wonderful person to 
work with, so thank you.
    Now, I have a couple of--first, to the matter at hand, 
whether it is terrorists looking to cause us harm by wreaking 
havoc on cyber infrastructure, illicit goods being sold over 
the Internet, or sophisticated criminals hacking into systems 
of our financial and retail institutions, cybersecurity has 
never been more important to our safety and economy, and I 
think it is finally beginning to come into the public 
consciousness.
    A couple of years ago, when a number of chairs here 
attempted to do a cybersecurity bill, there was resistance from 
industry. They did not want to share information about 
breaches. It was sort of like, I thought, almost some of these 
industry leaders objecting, it was sort of when Churchill asked 
them to turn out the lights. He asked Britain to turn out the 
lights during the Battle of Britain. Some people said, ``No, I 
do not want to.'' I think those days are over. I think that the 
business community, broadly put, understands the danger here 
and is far more willing to cooperate than before. And, it is 
going to become a worse problem before it becomes better, I am 
afraid.
    So, I have a few questions. First, to any of you, is 
business much more willing to cooperate, to share information 
about breaches and all these kinds of things than they were a 
year or two ago? Mr. Peretti.
    Mr. Peretti. Thank you for that question. We have seen a 
large change within industry to be able to be more forthcoming 
and open with sharing this information. They understand that 
the key for this is not only to share the information with law 
enforcement and the Government, but also with other parties.
    Senator Schumer. Right.
    Mr. Peretti. This really came about during the DDoS attacks 
that started to occur back in 2012 in which financial firms saw 
that they were being attacked, and instead of keeping that 
information to themselves, they actively shared it with other 
financial institutions who would potentially be the next one to 
be attacked.
    Senator Schumer. And, are they willing to share it with law 
enforcement and the people at Treasury, Homeland Security? Do 
you all agree they are much more willing to share information 
now than before? Does anyone disagree with that?
    Mr. Demarest. We agree, yes, Senator Schumer. Yes, from the 
FBI, and I am sure Secret Service will echo the same, and DHS. 
We find them much more open today to sharing and getting 
involved earlier for purposes of whether they want to take 
something to prosecution or criminal or for national security 
purposes----
    Senator Schumer. Right.
    Mr. Demarest. ----to better defend the Nation.
    Senator Schumer. Sure.
    Mr. Demarest. So, we find them sharing much more readily.
    Senator Schumer. Well, I hope this will yield next year an 
ability to pass some real legislation here. We need 
legislation. It has been stymied, in part because of the 
business reluctance of required sharing of information, and I 
just hope we will overcome that.
    My next question, I think most of us were shocked at the 
sophistication of the breach on Sony. I know that is not a 
financial firm, but could happen, and my question was broader 
than just Sony. Fingers are pointing to North Korea. Now, I do 
not know what information you folks have about that, but my 
general question is, it is sort of surprising that a country 
like North Korea, which is sophisticated in a few areas but not 
very sophisticated in most, would have such an amazing ability 
to turn a large company into a knot.
    How many other countries have this kind of ability? How 
serious is country attacks, cybersecurity not so much on 
Government facilities, but on--which we have to worry about 
seriously, I am very worried about those--but on other private 
entities, whether they be in financial, where they could 
disrupt an economy, or retail, disrupt retail, power, whatever 
else. Could somebody give me a little analysis there about how 
serious country threats are?
    I think we have all been--our awareness of that has been 
heightened because of the supposed attack by North Korea. I do 
not know what level of proof you can give on that yet, or want 
to, but I am just asking about the country sophistication in 
doing this, not just U.S., Russia, China, which we hear about 
all the time, but next level countries.
    Mr. Demarest. Senator Schumer, I will start. So, I will not 
touch on the attribution piece because we are still working 
very, very hard at that.
    Senator Schumer. Right. I understand.
    Mr. Demarest. I will say it is a model of cooperation with 
Sony, Sony executives, in how this is brought about. The event 
occurred, and within hours, you find teams from the FBI and the 
interagency actually on ground and working with Sony and their 
managed cybersecurity provider, for Mandiant.
    The level of sophistication is extremely high, and we can 
tell based on our investigative efforts to date, organized and 
certainly persistent. So--and when we talk about, you know, 
generally speaking, about Nation-States that have this 
capability, you could pick the top three or four off the top of 
your head that have the ability when we talk about computer 
network attack capability, and one predominately out of the 
Middle East that we are also very concerned about.
    Senator Schumer. Yes.
    Mr. Demarest. So, generally speaking, it is of concern, 
because in speaking with, I will say, with Sony and, 
separately, their managed cybersecurity provider, the malware 
that was used would have slipped, it probably would have gotten 
past 90 percent of the net defenses that are out there today in 
private industry, and I would challenge to even say Government.
    Senator Schumer. Wow. Does every--so, I know you mentioned 
a big Middle East country, which I would assume is Iran, and 
you do not have to comment. But, what I was asking, is there a 
next level of countries that have almost as sophisticated a 
level, an ability to attack as U.S., China, Russia, Iran?
    Mr. Demarest. So----
    Senator Schumer. Because, that was frightening. I think it 
was frightening to people, the specter that it might have been 
North Korea that did this, and said, Lord knows, anyone can do 
this.
    Mr. Demarest. We have watched countries over the past 2\1/
2\, 3 years actually evolve and develop greater capability and 
skill.
    Senator Schumer. So, this is becoming more and more of a 
problem, and I imagine, and this is Dr. Schneck more than 
anything else, it is a geopolitical problem as well as an 
economic problem.
    Ms. Schneck. I think it is an everything problem. This is--
and I am going to take this from a slightly different angle----
    Senator Schumer. Sure.
    Ms. Schneck. ----from a non-law enforcement angle. In our 
world, in the National Cybersecurity and Communications 
Integration Center, and for DHS, the non-law enforcement piece, 
to protect----
    Senator Schumer. Yes.
    Ms. Schneck. ----everyone and our stakeholders, it--
attribution is almost a distraction. For us, it is how do we 
understand--malware is simply a set of instructions that have 
the ability to allow me to execute my will on your machine, 
which means I turn your lights out, I kill your machine, I take 
your business down, whatever I want, or I sit there and watch 
what you do and send it out back home and learn what you are 
doing and resell it.
    What I worry about and what our team worries about is that 
the increasing sophistication is available to anyone. It is 
really not about what country or what about--it is about, how 
can they acquire it. It is for sale in the underground. You can 
get sophisticated sets of instructions that will do this, and 
it is very much like what I will call the antibiotic resistant 
strain. The better we get, and we have to get better, but the 
better the adversaries get----
    Senator Schumer. Yes.
    Ms. Schneck. And that is why my push for speed, because the 
one thing they cannot do is behaviorally make the Internet 
stronger.
    Senator Schumer. In some ways, it is a little like nuclear 
weapons. You not only worry that these countries can make them, 
but who they sell them to, which might not be a country.
    Ms. Schneck. Correct.
    Mr. Noonan. Senator Schumer----
    Senator Schumer. Does anyone--just one final question, with 
your indulgence, Mr. Chairman, since I am the last one here--
and I will call on you, Mr. Noonan--but, does anyone doubt the 
need for stronger legislation on this, aside from all the good 
efforts that you are doing? Raise your hand if you think we 
need legislation of some sort. Everybody. Let the record show 
all hands were raised.
    [Laughter.]
    Senator Schumer. You have the last word, Mr. Noonan.
    Mr. Noonan. I am sorry. Your comments about Nation-State 
actors. I think with the FBI and the Secret Service and the 
experience that we have together on going after a number of the 
different sophisticated criminal groups, Dr. Schneck mentioned 
how some of this information and some of these tactics are 
available at the criminal underground level, too. Just this 
year, we discovered a criminal tool that was available to the 
criminal underground for the simple price of $3,000 which could 
DDoS many, many different companies, many different countries, 
if you will, at a huge, huge rate. I think it was 36 gigs of 
DDoS power it would do for a simple $3,000 for sale on the 
criminal underground. So, the complex criminal actors that we 
are looking at that are doing a lot of these intrusions have 
the skills and the sophistication that far exceed a number of 
different Nation-States, too. So, the criminal threat is a 
significant threat and it is scary about how much of that 
technology exists today, just for sale on the criminal 
underground.
    Mr. Demarest. Senator Schumer, we could make you a hacker 
in 30 minutes, based on the tools that are currently available 
in the underground----
    Senator Schumer. I refuse the offer.
    [Laughter.]
    Mr. Demarest. Let the record reflect.
    Senator Schumer. I want to show you the phone I use, just 
in case. You may want to revise your remarks here.
    [Laughter.]
    Senator Schumer. Thank you, Mr. Chairman.
    Chairman Johnson. Thank you.
    Does Senator Warren or Senator Schumer have a follow-up?
    Senator Schumer. No, thank you.
    Chairman Johnson. I want to thank our witnesses for 
testifying today and for all their work on this important 
issue.
    This hearing is adjourned.
    [Whereupon, at 11:18 a.m., the hearing was adjourned.]
    [Prepared statements, responses to written questions, and 
additional material supplied for the record follow:]
                  PREPARED STATEMENT OF BRIAN PERETTI
   Director for the Office of Critical Infrastructure Protection and 
             Compliance Policy, Department of the Treasury
                           December 10, 2014
    Chairman Johnson, Ranking Member Crapo, and distinguished Members 
of the Committee, it is a pleasure to appear before you today to 
discuss the cybersecurity of the financial sector. As Director of 
Treasury's Office of Critical Infrastructure Protection and Compliance 
Policy (OCIP), my role is to support the security and resiliency of the 
critical virtual and physical infrastructure that enables financial 
sector operations, and cybersecurity has been a central focus of our 
office for several years.
    Over this time, I've seen cybersecurity questions that were once 
thought of as a ``back office'' information technology issue now take 
center stage among senior Government leaders, business executives, and 
the Nation as a whole. I believe this shift reflects the increasingly 
sophisticated and persistent nature of the cyberthreat, which most 
would say is among the most pressing operational risks that financial 
institutions face today.
    Before I begin, I would like to thank the Committee for focusing 
attention on this critical issue. At all levels, Government and the 
financial sector have taken significant steps in recent years to 
enhance information-sharing processes, improve baseline security at 
firms, and develop and test processes for responding to and recovering 
from incidents. More work is needed, however, and discussions like this 
can help advance the whole-of-Nation, collaborative effort that is 
needed to respond to these very complex challenges.
History of Treasury's Role
    Helping to protect financial sector critical infrastructure from 
physical and virtual threats is an integral component of Treasury's 
leadership in financial affairs domestically and globally.
    In recent decades, and specifically since the publication of 
Presidential Decision Directive (PDD) 63 in 1998, Treasury has served 
as the lead Executive Branch agency liaison with the financial sector 
for national and homeland security purposes, supporting a national 
effort to assure the security of the United States' critical 
infrastructure. Since the early days of this effort, we have recognized 
that this work absolutely cannot be done without strong collaboration 
with the private sector, who, as you know, own and operate the bulk of 
the infrastructure we are discussing. Along these lines, one of 
Treasury's early efforts in this space was to support the creation and 
development of the Financial Services Information Sharing and Analysis 
Center (FS-ISAC) in 1999, which continues to be an important focal 
point for cross sector collaboration on these issues. Following the 
attacks of September 11, Treasury established OCIP, was made chair of 
the newly formed Financial and Banking Information Infrastructure 
Committee (FBIIC), and engaged again with industry and Government 
partners to encourage the establishment of the Financial Services 
Sector Coordinating Council for Critical Infrastructure Protection and 
Homeland Security (FSSCC), which brings together private-sector 
institutions and organizations to discuss security policy.
    Of course the Federal Government sought to reorganize its efforts 
to protect critical infrastructure as a whole following 9/11. This 
included the creation of the Department of Homeland Security (DHS) and 
its central role in supporting critical infrastructure protection 
across sectors.
    In 2003 Homeland Security Presidential Directive 7 (HSPD-7), 
superseded PDD-63 and further established Treasury's role as sector 
liaison by naming Treasury the Sector Specific Agency (SSA) for the 
banking and finance sector.
    Presidential Policy Directive (PPD-21), which revoked HSPD-7, was 
published in 2013 to advance a national unity of effort to strengthen 
and maintain secure, functioning, and resilient critical 
infrastructure. PPD-21 reaffirmed Treasury's role, recognizing its 
sector expertise and day-to-day engagement in building and reinforcing 
the security and resiliency partnership between the public and private 
sectors.
    At the same time that PPD-21 was published, the President issued 
Executive Order (EO) 13636, which was focused specifically on 
cybersecurity. EO 13636 sought to specifically address the growing 
cyberthreat to critical infrastructure by enhancing partnership with 
the owners and operators of critical infrastructure to improve 
cybersecurity information sharing and collaboratively develop and 
implement risk-based standards.
    In response to PPD-21 and EO 13636, the Treasury has continued to 
expand its focus on increasing the security and resiliency of the 
financial services sector. Cybersecurity now ranks as one of Treasury's 
top priorities.
Building Partnerships To Reduce Risk
    We at Treasury have found it necessary to coordinate closely with 
other Government agencies and the private sector in order to keep pace 
with the growing volume and sophistication of cyber attacks.
    In addition to routine one-on-one communications with Federal and 
State financial regulators at the staff- and principal-levels, Treasury 
coordinates financial sector cybersecurity efforts through the FBIIC. 
This committee of Federal and State financial regulators meets monthly. 
\1\ Meeting agenda topics range from removing information-sharing 
impediments and enhancing incident response planning, to discussing 
best practices for cybersecurity policies, procedures, and controls. 
Between meetings, staff work to advance key initiatives, share details 
of new cyber incidents, and disseminate actionable information about 
those incidents to financial institutions.
---------------------------------------------------------------------------
     \1\ The 18 committee members include representatives from 
Treasury, the Federal banking regulators, the Federal market 
regulators, and associations representing State banking, insurance, and 
securities regulators.
---------------------------------------------------------------------------
    Given recent threats and incidents, and to sharpen the attention of 
the financial regulators on cybersecurity, last summer, under the 
leadership of Secretary Lew and Deputy Secretary Bloom Raskin, FBIIC 
launched regular principal-level meetings of the committee. While 
staff-level meetings focus on operational and tactical issues, the 
principal-level meetings concentrate on strategic, policy-level issues 
around cybersecurity and other critical infrastructure matters.
    Additionally, Treasury appreciates its collaboration with the 
Federal Financial Institutions Examination Council (FFIEC), through 
which Federal banking and credit union agencies coordinate and share 
information, and looks forward to continuing to work closely with the 
FFIEC on cybersecurity and other issues.
    To coordinate policy development and shared situational awareness, 
Treasury leadership and staff regularly meet with officials of other 
cabinet departments, law enforcement organizations, and the 
intelligence community, including the Department of Homeland Security, 
Federal Bureau of Investigation, the United States Secret Service, and 
the National Security Agency. These meetings take place in bilateral 
settings as well as various group meetings, including the National 
Security Council Staff led Cyber Interagency Policy Council (IPC).
    Our coordination with the private sector primarily takes place 
through the FSSCC and the FS-ISAC and regional coalitions. Additional 
coordination occurs through individual institutions as well as trade 
organizations such as the Financial Services Roundtable's BITS 
division, the American Bankers Association, the Clearing House, the 
Securities Industry and Financial Markets Association (SIFMA), Credit 
Union National Association, the National Association of Federal Credit 
Unions, and the Independent Community Bankers of America.
    Collaborative efforts to respond to cyber-risk also depend on 
strong partnership between the public and private sectors.
    Our coordination efforts between the public and private sector on 
financial sector cybersecurity efforts focus on three areas:

  <bullet>  Facilitating the sharing of timely, actionable information 
        regarding cyberthreats and incidents with a view toward 
        limiting attacks and stopping contagion across systems, 
        networks, and institutions;

  <bullet>  Assisting with effective, prompt response and recovery from 
        cyber incidents to reassure the public and protect public and 
        private assets; and

  <bullet>  Promoting best practices around cybersecurity controls that 
        help operators of financial systems prevent attacks from 
        succeeding and help minimize the damage from any successful 
        attacks.
Information Sharing
    Sharing technical and strategic information about cyber incidents 
and threats is one of the most effective tools that the Government has 
to support the mitigation of cyber incidents and improve the 
operational resiliency of the financial sector.
    Sharing cybersecurity information is critical to enhance firms' 
ability to protect their networks and systems from malicious cyber 
activity, limit the impact of cyber incidents that have already 
occurred, and establish shared awareness of cyberthreats so Government 
and the private sector can respond rapidly to significant incidents.
    The primary challenges that currently exist in information sharing 
are related to growing the network of institutions and Government 
agencies that contribute to collective information sharing, increasing 
the speed of sharing and processing of cyberthreat information, 
improving the value of information by contributing more information 
derived from classified sources to private-sector companies, and 
addressing legal concerns of private-sector companies that inhibit them 
from engaging in robust information sharing.
    The financial sector has invested significant resources in 
developing robust information-sharing mechanisms, primarily through the 
FS-ISAC. This Information Sharing and Analysis Center is a model for 
what can be accomplished by the private sector, and we in the 
Government should look to further encourage the growth of the FS-ISAC 
and ISACs in other sectors.
    We commend Tom Curry for his leadership and note the FFIEC's 
recommendation from last month that all firms consider participating in 
the FS-ISAC. Treasury supports firms' consideration of participation in 
such information-sharing organizations. The FS-ISAC has seen a 
tremendous surge in membership over the last year. Affirmative support 
by the financial regulators will support further growth of such 
important institutions.
    In order to improve the speed of information sharing, and therefore 
its effectiveness, Treasury supports the FS-ISAC's move towards 
automated information sharing through the adoption of Structured Threat 
Information eXpression (STIX) and Trusted Automated eXchange of 
Indicator Information (TAXII). These information-sharing protocols, on 
which DHS has been a leader, minimize the lag between discovered 
threats and deployed defenses.
    In order to ensure that the sector is receiving the best possible 
information from all Government sources, Treasury works closely with 
other agencies to identify and declassify information that may be of 
use to private-sector firms. To this end, I have established a team 
within my office, the Financial Services Cyber Intelligence Group 
(CIG), which works with interagency and private-sector partners to 
provide timely and actionable information, including threat indicators, 
to the financial services sector. Treasury supports the efforts set 
forth under section 4 of EO 13636. DHS's National Cybersecurity and 
Communications Integration Center deserves a special commendation for 
its continuing work in facilitating the efficient and beneficial 
exchange of information between Government agencies and the private 
sector.
    Treasury also recognizes that Federal financial regulators have 
unique authorities and relationships with financial institutions. To 
capitalize on this, Treasury encourages efforts by the financial 
regulators to develop strategies for regulatory agencies to utilize 
unique relationships and authorities to improve information sharing and 
enhance situational awareness.
Incident Management
    To improve incident management, Treasury believes that roles and 
responsibilities for different entities must be more clearly defined 
and regularly tested and refined. In order to best prepare for 
cybersecurity incidents, Government agencies and private-sector 
entities must work together to develop response protocols that clearly 
delineates roles and responsibilities.
    Within the financial sector, Treasury has worked closely to support 
the development of sectorwide response protocols, including the FS-
ISAC's all-hazards response plan and the FSSCC's cyber-response 
framework. Additionally, protocols must be developed by individual 
private firms and coordinated across sectors.
    And these protocols must be integrated and regularly updated to 
maintain relevance and effectiveness. They must also take into account 
interconnections across sectors and be inclusive of all relevant 
critical infrastructure.
    Similarly, exercises are necessary to improve incident response 
plans and develop ``muscle memory'' in the organizations and with the 
personnel responsible for managing incident response. Treasury has 
partnered with DHS and the FSSCC to develop an exercise program focused 
on the financial services sector. The first joint exercise in this 
program was held yesterday. By continuing to hold these exercises, and 
smaller drills along the way, we can collectively hone our preparedness 
and continuously improve our response mechanisms.
Best Practices
    And finally, the Federal Government can play a unique role in 
working with industry to support the use and development of standards, 
guidelines, and best practices on cybersecurity, ensuring that these 
practices are up-to-date and enable technical innovation. President 
Obama's EO 13636 called for NIST to develop a framework that would 
reduce cyber-risks to critical infrastructure. Treasury has worked 
closely with the financial sector regarding how the sector could 
provide input into the Framework. Over the 12-month period from the 
issuance of the EO to the roll out of the Framework for Improving 
Critical Infrastructure Cybersecurity (NIST Cybersecurity Framework), 
the financial sector sent representatives to each of the five NIST 
workshops, met with NIST and Treasury to discuss sector specific 
considerations, and provided comment letters on the draft document. 
Without this time commitment and sharing of knowledge by the financial 
sector and all of the members from other sectors, interested 
organizations and the public who devoted time to this subject, the NIST 
Cybersecurity Framework would not have been completed so successfully.
    As it exists today, the NIST Cybersecurity Framework, is a 
voluntary blueprint that firms of all sizes can use to evaluate, 
maintain, and improve the resiliency of their computer systems and 
reduce cyber-risk. Treasury continues to encourage financial services 
firms to utilize the Framework, including by holding business partners, 
suppliers, and customers accountable to its risk management approach. 
In particular, efforts by SIFMA to develop auditable standards of the 
Framework may be beneficial in supporting broad adoption of best 
practices.
    Likewise, recent efforts by financial regulators to promote 
consistent adoption of best practices across the sector are 
encouraging. The SEC recently promoted the use of the NIST 
Cybersecurity Framework and other related NIST standards in the 
guidance to its final Regulation Systems Compliance and Integrity (Reg 
SCI). Such consistency is important to promoting shared understanding 
of cybersecurity risk management and broad adoption of best practices.
Conclusion
    While significant progress has been made to improve financial 
sector cybersecurity, we know that there is more work to be done. We 
continue to hold ongoing discussions with our Government and private-
sector partners to identify and build a more secure and resilient 
financial sector. As these efforts progress, we will work with senior 
policymakers to determine the best courses of action to address the 
issues that are identified.
    I thank you for focusing on this issue and would be happy to take 
your questions.
                                 ______
                                 
                 PREPARED STATEMENT OF PHYLLIS SCHNECK
 Deputy Under Secretary for Cybersecurity and Communications, National 
  Protection and Programs Directorate, Department of Homeland Security
                           December 10, 2014
Introduction
    Chairman Johnson, Ranking Member Crapo, and distinguished Members 
of the Committee, I am pleased to appear today to discuss the work of 
the Department of Homeland Security (DHS) National Protection and 
Programs Directorate (NPPD) to address persistent and emerging 
cyberthreats to the U.S. homeland.
    On February 12, 2013, the President signed Executive Order (EO) 
13636, Improving Critical Infrastructure Cybersecurity and Presidential 
Policy Directive (PPD) 21, Critical Infrastructure Security and 
Resilience. These set out steps to strengthen the security and 
resilience of the Nation's critical infrastructure. They reflect the 
increasing importance of integrating cybersecurity efforts with 
traditional critical infrastructure protection. The President 
highlighted the importance of Government's role in encouraging 
innovation and economic prosperity while promoting safety, security, 
business confidentiality, privacy, and civil liberties. DHS partners 
closely with owners and operators to improve cybersecurity information 
sharing and encourage implementation of risk-based standards in order 
to meet the President's objectives.
    In my testimony today, I would like to highlight how DHS helps 
secure cyber infrastructure and then discuss a few specific examples 
where we prevented and responded to a variety of cybersecurity 
challenges.
DHS Cybersecurity Role
    Based on our statutory and policy requirements, DHS undertakes 
three broad areas of responsibility in cybersecurity: (1) we coordinate 
the national protection, prevention, mitigation, response and recovery 
in the event of significant cyber and communications incidents; (2) we 
disseminate domestic cyberthreat and vulnerability analyses across 
critical infrastructure sectors; (3) we investigate cybercrime that 
falls under DHS's jurisdiction.
    DHS components actively involved in cybersecurity include NPPD, the 
United States Secret Service, the U.S. Coast Guard, U.S. Customs and 
Border Protection, Immigration and Customs Enforcement, the DHS Office 
of the Chief Information Officer, the DHS Science and Technology 
Directorate, and the DHS Office of Intelligence and Analysis (I&A), 
among others. In all of its activities, DHS coordinates its 
cybersecurity efforts with governmental, private sector, and 
international partners.
    The DHS National Cybersecurity & Communications Integration Center 
(NCCIC) is a 24-7 cyber situational awareness and incident response and 
management center that serves as a centralized location for the 
coordination and integration of operational elements involved in 
cybersecurity and communications reliability. NCCIC partners include 
all Federal departments and agencies; State, local, tribal, and 
territorial Governments (SLTT); the private sector; and international 
entities. The Center provides greater situational awareness of 
cybersecurity and communications, and takes actions to address 
vulnerabilities, intrusions, and incidents, including mitigation, 
information-sharing, and recovery.
    The NCCIC is composed of the United States Computer Emergency 
Readiness Team (U.S.-CERT), the Industrial Control System Cyber 
Emergency Response Team (ICS-CERT), the National Coordination Center 
for Communications (NCC), and an Operations and Integration Team. NCCIC 
operations are currently conducted from three States: Virginia, Idaho, 
and Florida. During the first 11 months of 2014, the NCCIC has had 
108,734 incidents reported to the center, issued over 11,514 actionable 
cyber alerts, and had over 219,805 partners subscribe to our 
cyberthreat warning sharing initiative. NCCIC teams have also detected 
over 87,797 vulnerabilities and directly aided in the mitigation of 
near 53,624 unique challenges.
Enhancing the Security of Cyber Infrastructure
    The NCCIC actively collaborates with public and private-sector 
partners every day, including responding to and mitigating the impacts 
of attempted disruptions to the Nation's critical cyber and 
communications networks. DHS also directly supports Federal civilian 
departments and agencies in developing capabilities that will improve 
their own cybersecurity postures. Through the Continuous Diagnostics 
and Mitigation (CDM) program, led by the NPPD Federal Network 
Resilience Branch, DHS enables Federal agencies to more readily 
identify network security issues, including unauthorized and unmanaged 
hardware and software; known vulnerabilities; weak configuration 
settings; and potential insider attacks. Agencies can then prioritize 
mitigation of these issues based upon potential consequences or 
likelihood of exploitation by adversaries. The CDM program provides 
diagnostic sensors, tools, and dashboards that provide situational 
awareness to individual agencies and at a summary Federal level. 
Memoranda of Agreement between Government entities and DHS to provide 
the CDM program's services encompass network security protection for 
over 97 percent of all Federal civilian personnel.
    The National Cybersecurity Protection System (NCPS) complements 
these efforts. A key component of NCPS is referred to as EINSTEIN, an 
integrated intrusion detection, analysis, information sharing, and 
intrusion-prevention system. EINSTEIN utilizes hardware, software, and 
other components to support DHS's protection of Federal civilian agency 
networks. The program will expand intrusion prevention, information 
sharing, and cyber analytic capabilities at Federal agencies. EINSTEIN 
3 Accelerated (E3A) gives DHS an active role in defending ``.gov'' 
network traffic. At this time, E3A provides Domain Name System and/or 
email protection services to 33 departments and agencies. It reduces 
threat vectors available to actors seeking to infiltrate, control, or 
harm Federal networks.
Securing the Homeland Against Persistent and Emerging Cyberthreats
    Cyber intrusions into critical infrastructure and Government 
networks are serious and sophisticated threats. The complexity of 
emerging threat capabilities, the inextricable link between the 
physical and cyber domains, and the diversity of cyber actors present 
challenges to DHS and our customers. As the private sector owns and 
operates over 85 percent of the Nation's critical infrastructure, 
information sharing and capability development partnership becomes 
especially critical between the public and private sectors.
Financial Sector Distributed Denial of Service (DDoS) Attacks
    The continued stability of the U.S. financial sector is often 
discussed as an area of concern, as U.S. banks are consistent targets 
of cyber attacks. There have been increasingly powerful DDoS incidents 
impacting leading U.S. banking institutions in 2012 and 2013 and some 
high-profile media coverage of financial sector cybersecurity issues in 
2014. U.S.-CERT has a distinct role in responding to a DDoS: to 
disseminate victim notifications to United States Federal Agencies, 
Critical Infrastructure Partners, International CERTs, and U.S.-based 
Internet Service Providers.
    U.S.-CERT has provided technical data and assistance, including 
identifying 600,000 DDoS related IP addresses and supporting contextual 
information about the source of the attacks, the identity of the 
attacker, or other associated details. This information helps financial 
institutions and their information technology security service 
providers improve defensive capabilities. In addition to sharing with 
relevant private-sector entities, U.S.-CERT provided this information 
to over 120 international partners, many of whom contributed to our 
mitigation efforts. U.S.-CERT, along with the FBI and other interagency 
partners, also deployed to affected entities on-site technical 
assistance, or ``boots on the ground.'' U.S.-CERT works with Federal 
civilian agencies to ensure that no USG systems are vulnerable to take-
over as a part of a botnet, since botnets are a tool that 
cybercriminals use to deflect attribution in DDoS attacks.
    During these attacks, our I&A partners bolstered long-term, 
consistent threat engagements with the Department of Treasury and 
private-sector partners in the Financial Services Sector. I&A analysts 
presented sector-specific unclassified briefings on the relevant threat 
intelligence, including at the annual Financial Services Information 
Sharing and Analysis Center (FS-ISAC) conference, alongside the Office 
of the National Counterintelligence Executive and the U.S. Secret 
Service. At the request of the Treasury and the Financial and Banking 
Information Infrastructure Committee (FBIIC), I&A analysts provided 
classified briefings on the malicious cyberthreat actors to cleared 
individuals and groups from several financial regulators, including the 
Federal Deposit Insurance Corporation (FDIC), Securities and Exchange 
Commission (SEC), and the Federal Reserve Board (FRB). Additionally our 
Science and Technology organization coordinates priority R&D programs 
in collaboration with the Financial Services Sector Coordinating 
Council.
Point of Sale Compromises
    On December 19, 2013, a major retailer publicly announced it had 
experienced unauthorized access to payment card data from the 
retailer's U.S. stores. The information involved in this incident 
included customer names, credit and debit card numbers, and the cards' 
expiration dates and card verification value security codes. The value 
security codes are three or four digit numbers that are usually on the 
back of the card. Separately, another retailer also reported a malware 
incident involving its Point of Sale (POS) system on January 11, 2014, 
that resulted in the apparent compromise of credit card and payment 
information.
    In response to this activity, NCCIC/U.S.-CERT analyzed the malware 
identified by the Secret Service as well as other relevant technical 
data and used those findings, in part, to create two information-
sharing products. The first product, which is publicly available and 
can be found on U.S.-CERT's Web site, provides a nontechnical overview 
of risks to POS systems, along with recommendations for how businesses 
and individuals can better protect themselves and mitigate their losses 
in the event an incident has already occurred. The second product 
provides more detailed technical analysis and mitigation 
recommendations, and has been securely shared with industry partners to 
enable their protection efforts. NCCIC's goal is always to share 
information as broadly as possible, including by producing products 
tailored to specific audiences.
    These efforts ensured that actionable details associated with a 
major cyber incident were shared with the private sector partners who 
needed the information in order to protect themselves and their 
customers quickly and accurately, while also providing individuals with 
practical recommendations for mitigating the risk associated with the 
compromise of their personal information. NCCIC especially benefited 
from close coordination with the private-sector Financial Services 
Information Sharing and Analysis Center during this response.
Preparing for the Next Cyber Incident
    DHS is taking a number of proactive measures to strengthen its 
partnerships with the financial sector and increase shared 
understanding of one another's capabilities and cybersecurity response 
plans and procedures. These efforts include regularly exercising 
incident response procedures together with interagency and private-
sector representatives; working collaboratively with financial sector 
representatives to clarify and streamline processes when requesting 
technical assistance from the Government; identifying barriers to 
information sharing and ways to reduce those barriers; and implementing 
automated information sharing between the financial services sector and 
Government by expanding the use of Structured Threat Information 
eXpression (STIX) and Trusted Automated eXchange of Indicator 
Information (TAXII) programs, a free method for machine-to-machine 
sharing of cyberthreat indicators.
    Also of significant note is our vision and direction moving forward 
to create broad situational awareness of cyberthreats and disseminate 
warning information ahead of malicious attacks. We recognize the need 
to change the profit model in cybercrime by making networks more 
resilient and less appealing and rewarding for adversarial attack or 
intrusion. Just as the human body achieves resilience by fighting new 
viruses with biological mechanisms that recognize when the body is 
under attack, DHS is enabling similar mechanisms for networks using 
mathematical trend analysis of cyber events. We collect the data needed 
for this from the Government agencies that we protect, with full 
collaboration from our privacy and civil liberties experts, and are 
creating a cyber ``Weather Map,'' to help visualize and inform current 
cyber conditions. The concept comprises the ability to view the current 
state of cybersecurity, just as a traditional weather map provides a 
view of current weather. Our goal is for networks and connected devices 
to know when to reject incoming traffic or even refuse to execute 
specific computer instructions because they are recognized as harmful 
due to their current behavior, even if the exact computer ``disease'' 
has not been seen before. This will help to create that resilience to 
deter many cyberthreat actors.
    DHS also recognizes that effective incident response requires 
plenty of practice and close cooperation across Government and with the 
private sector. To prepare for and ensure effective cooperation during 
a significant event, DHS, in close coordination with the Department of 
the Treasury, private-sector representatives, financial sector 
regulatory bodies and other Federal Government partners, has instituted 
an exercise program to periodically test processes and procedures for 
responding to a significant cyber incident impacting the financial 
sector. The exercises help clarify roles and responsibilities, identify 
gaps in response plans and capabilities, and assist with developing 
plans to address those gaps. The exercises result in valuable lessons 
learned and will help improve existing processes and procedures and 
result in more effective cooperation during an actual incident.
DHS Cybersecurity Authorities
    We continue to seek legislation that clarifies and strengthens DHS 
responsibilities and allows us to respond quickly to vulnerabilities 
like Heartbleed, a vulnerability in the popular Open SSL cryptographic 
software library. Legislative action is vital to ensuring the 
Department has the tools it needs to carry out its mission. DHS had to 
go ``door to door'' securing authorization from Federal entities to 
exercise our authority in responding to Heartbleed. We urge Congress to 
continue efforts to modernize the Federal Information Security 
Management Act to reflect the existing DHS role in agencies' Federal 
network information security policies; clarify existing operational 
responsibilities for DHS in cybersecurity by authorizing the NCCIC; and 
provide DHS with hiring and other workforce authorities.
Conclusion
    DHS will continue to work with our public and private partners to 
create collaborative solutions to improve cybersecurity, particularly 
those that reduce the likelihood of the highest-consequence 
cybersecurity incidents. We work around the clock to ensure that the 
peace and security of the American way of life will not be interrupted 
by degradation of systems or by opportunist, enemy, or terrorist 
actors. Each incarnation of threat has some unique traits, and 
mitigation requires agility and layered security. Cybersecurity is a 
process of risk management in a time of constrained resources, and we 
must ensure that our efforts achieve the highest level of security as 
efficiently as possible.
    DHS represents an integral piece of the national work in 
cybersecurity: we are building a foundation of voluntary partnerships 
with private owners of critical infrastructure and Government partners 
working together to safeguard stability. While securing cyberspace has 
been identified as a core DHS mission since the 2010 Quadrennial 
Homeland Security Review, the Department's view of cybersecurity has 
evolved to include a more holistic emphasis on critical infrastructure 
which takes into account risks across the board.
    The Department stands to be the core of integration and joint 
analysis, by machines and by humans, of global cyber behavior, trends, 
malware analysis and the powerful combination of data that only we can 
correlate due to our unique role protecting civilian Government systems 
with data that often only the private sector gathers. We are working to 
further enable the NCCIC to receive information at ``machine speed.'' 
\1\ This capability will begin to enable networks to be more self-
healing, as they use mathematics and analytics to better recognize and 
block threats before they reach their targets, thus deflating the 
profit model of cyber adversaries and taking botnet response from hours 
to seconds in some cases.
---------------------------------------------------------------------------
     \1\ Automatically sending and receiving cyber information as it is 
consumed and augmented based on current threat conditions, creating a 
process of automated learning that emulates a human immune system and 
gets smarter as it is exposed to new threats.
---------------------------------------------------------------------------
    DHS forms a crucial underpinning for ensuring the ongoing 
protection of our infrastructures, services and way of life. We look 
forward to continuing the conversation and continuing to serve the 
American goals of peace and stability, and we rely upon your continued 
support.
                                 ______
                                 
                  PREPARED STATEMENT OF VALERIE ABEND
 Senior Critical Infrastructure Officer, Office of the Comptroller of 
                              the Currency
                           December 10, 2014
    Chairman Johnson, Ranking Member Crapo, and Members of the 
Committee, thank you for the opportunity to appear before you today to 
discuss the important issue of cybersecurity, including our efforts to 
address cyberthreats and vulnerabilities and coordinate information 
sharing for the benefit of the banking industry, regulatory community, 
and the financial system overall. There are few issues more important 
to the OCC and to our country's economic and national security than the 
risks posed by cyber attacks.
---------------------------------------------------------------------------
    Statement Required by 12 U.S.C. 250: The views expressed herein 
are those of the Office of the Comptroller of the Currency and do not 
necessarily represent the views of the President.
---------------------------------------------------------------------------
    My name is Valerie Abend, and I serve as the OCC's Senior Critical 
Infrastructure Officer. In collaboration with the agency's supervisory 
divisions, I lead the agency's cybersecurity and resilience efforts for 
the national banks and Federal savings institutions (referred to 
collectively as banks) that we supervise. I also currently chair the 
Federal Financial Institutions Examination Council's (FFIEC) 
Cybersecurity and Critical Infrastructure Working Group (CCIWG). I have 
more than 20 years of private and public sector experience in the 
cybersecurity and critical infrastructure fields. My testimony today 
will discuss the cybersecurity initiatives the OCC and the FFIEC have 
taken, the avenues in place to share cybersecurity information, and 
recommendations where legislation may be helpful to enhance information 
sharing among financial institutions.
Background
    We live in a world of rapidly changing technology that impacts 
financial institutions both in terms of the products and services they 
offer and the risks that they face. We are long past the time when 
retail payments occur through face-to-face cash transactions or with 
paper checks. Instead, consumers increasingly use their cellphones to 
deposit checks, pay bills, and make purchases at the mall. For most 
consumers, electronic-based payment mechanisms and electronic banking 
are a routine part of life, and they may not give much thought to what 
goes on behind the scenes to provide the speed, convenience, and 
security in our payment and settlement systems today. What they may not 
know is the vast amount of information technology that institutions 
necessarily rely upon to make this convenience possible. To continue to 
improve efficiency and offer new products and services, institutions 
are rapidly adopting new information technology. From connecting 
personal devices such as tablets and phones to their networks and 
launching new mobile banking applications, to using cloud computing, 
banks are adopting new technologies and establishing new connections. 
Collectively, this dependence on technology and the data that financial 
institutions create along with the funds they maintain and transmit 
every day make financial institutions attractive targets for hackers. 
Unfortunately, new vulnerabilities in both hardware and software are 
identified daily, making it difficult to protect systems from cyber 
attacks.
    Furthermore, networks that serve the financial industry are global, 
which means hackers can target banks and other systems from almost 
anywhere in the world. Financial institutions today face threats from 
insiders and individuals acting alone, and from international networks 
of well-organized Nation-States, criminals, and so-called 
``hacktivists'' who use cyber attacks to raise awareness and support 
for their political or social causes.
    As the risks evolve, financial institutions must continue to 
prepare for cyber attacks and how they will identify, mitigate, and 
respond to them--and regulators must take steps to ensure that they do 
so.
OCC Supervisory Framework and Initiatives
    The OCC's supervisory framework is built around four key elements. 
The first is the OCC's ongoing monitoring and information sharing with 
other regulators, Government agencies, and banks with respect to 
emerging threats and changes to the risk landscape. The second is the 
OCC's development and continual refinement of standards and guidance 
that set forth supervisory expectations as to how banks and third-party 
service providers can best safeguard bank and bank customer 
information. The third key component is the agency's communication of 
these supervisory expectations to examiners and bank management through 
training and other forms of communication. The final component of the 
framework is the implementation of policy through on-site examination 
of banks and critical third-party service providers to assess their 
compliance with our supervisory expectations to ensure that they are 
appropriately managing risks, and when necessary, directing them to 
take corrective action. Each of these elements is described below.
Ongoing Monitoring, Assessment, and Information Sharing
    Ongoing monitoring and timely information sharing across the 
financial sector regarding cybersecurity issues including threats, 
vulnerabilities and risk mitigation tactics, is a crucial component of 
our efforts. The OCC conveys risk management practices to banks, 
including strategies to identify, prevent, mitigate and respond to 
attacks. During and following a cyber attack, the OCC plays an 
important role in evaluating the impacts from the attack to determine 
if they pose a material risk to bank systems and bank customer 
information. At the same time, the OCC evaluates whether the 
institutions involved are taking appropriate and timely corrective 
action.
    We encourage banks and service providers to participate with 
regulators in forums to learn about specific cyberthreats in a timely 
manner. For example, the OCC is a member of both the Financial and 
Banking Information Infrastructure Committee (FBIIC) and the Financial 
Services Information Sharing and Analysis Center (FS-ISAC), which are 
among the financial sector's public-private partnerships that provide 
information regarding cyberthreats and various means to improve the 
security and resilience of the financial sector.
    OCC examiners also maintain ongoing communication with the banks 
they supervise. This includes information related to pervasive 
vulnerabilities and incidents that may cause significant disruption to 
systems, facilities, or business processes at the bank, its operating 
subsidiary or affiliate, or at a third-party service provider. 
Examiners monitor the bank's response to incidents and to reports on 
threats and vulnerabilities and assess the level of impact and risk to 
customers, business operations, as well as any systemwide or downstream 
effects.
    The OCC uses a number of mechanisms, based on the nature of the 
threat or vulnerability and the immediacy of potential impact, to 
communicate information that may pose a material risk to the banks we 
supervise. This includes providing examiners with instructions and 
messages to use in contacting bank management on specific wide-scale 
vulnerabilities and threats, the risks these may pose to the bank, and 
actions the bank should take to prevent, detect, and respond to a 
threat or vulnerability.
Supervisory Standards and Guidance
    The banking sector is highly regulated and has been subject to 
stringent information security requirements for decades. The OCC has 
the authority to require the banks we regulate and their service 
providers to protect their own systems and bank customer data and to 
require banks to take steps to identify, prevent, and mitigate identity 
theft.
    For example, following the 1999 enactment of the Gramm-Leach-Bliley 
Act, the OCC, in conjunction with the Federal Deposit Insurance 
Corporation (FDIC), the Board of Governors of the Federal Reserve 
System (FRB), and the National Credit Union Administration (NCUA), 
published enforceable information security guidelines that set forth 
standards for administrative, technical, and physical safeguards that 
financial institutions must have to ensure the security and 
confidentiality of customer information. These interagency guidelines 
require banks to develop and implement formal information security 
programs that are tailored to a bank's assessment of the risks it 
faces, including internal and external threats to customer information 
and any method used to access, collect, store, use, transmit, protect, 
or dispose of the information. Given the evolving threat and technology 
environment, the guidelines require a bank's information security 
program to be dynamic--to continually adapt to address new threats, 
changes in technology, and new business arrangements. Since banks often 
depend upon service providers to conduct critical banking activities, 
the guidelines also address how banks must manage the risks associated 
with their service providers.
    In addition, pursuant to section 114 of the FACT Act, the OCC, FRB, 
FDIC, NCUA, and the Federal Trade Commission, issued regulations in 
2007 titled ``Identity Theft Red Flags and Address Discrepancies''. 
These rules require each financial institution and creditor to develop 
and implement a formal identity theft prevention program that includes 
policies and procedures for detecting, preventing, and mitigating 
identity theft in connection with account openings and existing 
accounts. A bank's program must include policies and procedures to 
identify, detect, and respond to relevant indicators of identity theft, 
and must be updated periodically to reflect changes in risks to 
customers and to the institution from identity theft.
    Over the years, the OCC on its own, and through the FFIEC, also has 
published guidance and handbooks that make clear our expectations about 
acceptable risk management processes and procedures for safeguarding 
information and managing information technology (IT) risks. This 
guidance addresses broad subjects such as information security, 
business continuity planning, and outsourcing technology services. It 
also focuses on specific areas of risks, such as authentication of 
users in an Internet banking environment and effective software patch 
management. As noted below, this guidance is reviewed continually and 
updated to take into account evolving risks.
Examiner Training and Communicating Expectations
    All entry-level OCC examiners receive training on information 
technology risk management within their first 3 years of employment. In 
addition, the OCC has examiners who specialize in IT. These examiners 
have specialized skills and experience to focus on information security 
and other technology risks inherent in bank operations. To help these 
specialists maintain their skills and knowledge, the OCC has an 
advanced IT training program. This is further augmented through 
webinars, in-person meetings, and formal and informal networking 
groups. When the OCC issues new guidance or updates existing guidance, 
we incorporate it into our training and develop communications so that 
our examiners can effectively implement these changes through the 
examination process.
    Additionally, the OCC has taken steps to raise awareness of banks 
about the risks posed by cyberthreats and vulnerabilities and to inform 
them of changes to supervisory expectations. This includes highlighting 
cybersecurity as an important operational risk that banks must pay 
close attention to through our public Semi-Annual Risk Perspective 
reports, releasing bulletins to the industry on topics such as 
distributed denial of service attacks, and hosting webinars, outreach 
meetings and roundtable discussions.
On-Site Examinations
    As part of their ongoing supervision, OCC examiners assess the 
adequacy of the controls that protect customer information, and bank 
systems and information. The OCC and the other Federal banking 
regulators also conduct joint examinations of major technology service 
providers that provide critical services to the banking sector.
    Due to the complexity of the largest national banks, the OCC has 
resident IT examiners on-site who perform ongoing supervision of the 
banks' IT policies, procedures, and practices. OCC examiners also 
perform on-site IT examinations at smaller banks every 12 to 18 months 
as part of their regular exam. Examiners also follow up on identified 
concerns or emerging cyber-risks during quarterly communications with 
the banks they supervise, or on a more frequent basis depending on the 
nature of the concern or risk. The OCC uses information from bank 
examinations to inform our policies, training, and exam procedures. For 
example, through our exams, the OCC identified increasing risks and the 
need for additional guidance for banks on how to manage the complex 
risks posed by critical third-party relationships. As a result, in 
2013, the OCC updated its Third-Party Relationship Risk Management 
Guidance, which incorporates important expectations for banks to 
evaluate their third parties' information security, incident response, 
and management of information systems, as well as the servicers' 
ability to assess, monitor, and mitigate risks posed by its 
subcontractors.
FFIEC Initiatives
    The Comptroller currently chairs the FFIEC, an interagency body 
comprised of the principals of the five Federal banking regulatory 
agencies--the OCC, the FRB, the FDIC, the NCUA, and the Consumer 
Financial Protection Bureau (CFPB)--and the FFIEC's State Liaison 
Committee. The FFIEC is empowered to prescribe uniform principles, 
standards, and report forms to promote uniformity in the supervision of 
financial institutions. One of the Council's top priorities is to 
strengthen institutions' resilience to cyber attacks. Last year, the 
Comptroller called for--and the Council members concurred in--the 
creation of the CCIWG to enhance communication among the FFIEC members 
and to build on existing efforts to strengthen the activities of other 
interagency and private-sector groups with respect to cybersecurity.
    The CCIWG serves as a liaison between the members of the FFIEC and 
the intelligence community, law enforcement, and the Department of 
Homeland Security (DHS) on issues related to cybersecurity and the 
protection of critical infrastructure. The working group is empowered 
to help the FFIEC members collaborate in establishing cyber-related 
examination policy, developing training programs, coordinating 
responses to cybersecurity incidents, and managing information-sharing 
efforts.
    The working group has been quite active since its inception. 
Through its coordination and information sharing with intelligence, law 
enforcement, DHS, and the Department of the Treasury, the group has 
drafted several statements to institutions advising firms about the 
threats posed by ATM cashout schemes, distributed denial of service 
attacks, and widespread vulnerabilities such as Heartbleed and 
Shellshock.
    One major initiative that the working group launched this summer 
was the Cybersecurity Assessment, which involved the pilot of a new 
cybersecurity examination work program at more than 500 diverse 
community institutions supervised by the OCC, FRB, FDIC, NCUA, and 
State regulatory agencies. The Cybersecurity Assessment evaluated the 
complexity of each institution's operating environment, focusing on 
such factors as the types of connections employed, products and 
services offered, and technologies used. It also assessed each 
institution's overall cybersecurity preparedness, with a focus on the 
following key areas: Risk Management and Oversight, Threat Intelligence 
and Collaboration, Cybersecurity Controls, External Dependency 
Management, and Cyber Incident Management and Resilience. The results 
of the assessment are instructive and will help FFIEC members make 
informed decisions about how they identify and prioritize actions to 
enhance the effectiveness of cybersecurity-related supervisory 
programs, guidance, and examiner training.
    Preliminary findings that members agreed would be beneficial to 
share with institutions were released as General Observations and are 
available on the FFIEC's Web site. \1\ This document highlights some 
high-level observations and provides questions that boards of directors 
and chief executive officers (CEOs) of financial institutions should 
consider when assessing their cybersecurity preparedness. For example, 
the document encourages institutions to routinely discuss cybersecurity 
issues in board and senior management meetings to help the financial 
institution set the tone from the top and build a strong security 
culture. It also encourages institutions to clearly define roles and 
responsibilities and assign accountability to identify, assess, and 
manage cybersecurity risks across the financial institution. While the 
institutions' leadership is responsible for cybersecurity risk 
management, employees are typically the first line of defense. As such, 
the FFIEC also encourages institutions to keep their training programs 
current and provide them more frequently.
---------------------------------------------------------------------------
     \1\ The FFIEC Cybersecurity Assessment, General Observations 
document can be accessed at http://www.ffiec.gov/press/PDF/
FFIEC_Cybersecurity_Assessment_Observations.pdf.
---------------------------------------------------------------------------
    Additionally, the document emphasizes that management should 
monitor and maintain sufficient awareness of cybersecurity threats and 
vulnerabilities to help ensure that financial institutions can evaluate 
and respond to emerging risks. To help build this capability, the FFIEC 
on behalf of its members issued the statement recommending that 
institutions of all sizes participate in the FS-ISAC to better 
understand the risks posed to their institution and to support their 
risk management program.
    Institutions in the pilot assessment implement controls to impede 
unauthorized access to their systems and have tools in place to detect 
previously identified attacks. The General Observations document 
stresses that institutions should review and adjust controls when 
making changes to their IT environment, routinely scan networks for 
vulnerabilities and anomalous activity, test systems for potential 
exposure to cyber attacks, and remediate issues when identified. 
Similarly, the document highlights the importance of identifying the 
connections an institution has with third-party service providers and 
ensuring formal controls are in place to secure the ways these 
providers transmit, access, and store data.
    Finally, while we found that institutions have procedures for 
notifying customers, regulators, and law enforcement when incidents 
affect sensitive customer information, the document emphasizes that 
institutions should strengthen their ability to address breaches that 
may occur by establishing and routinely testing incident response plans 
throughout the institution. This would include incorporating cyber 
attack scenarios into business continuity plans and programs.
    In addition to the Cybersecurity Assessment, the CCIWG has made 
strides in increasing financial institutions and examiners' awareness 
of cyberthreats and vulnerabilities and the actions that management can 
take to mitigate these risks. During the past year, the working group 
led a webinar, ``Executive Leadership of Cybersecurity'' for which over 
5,000 community institution CEOs registered, and conducted Web-based 
trainings for over a thousand examiners on cybersecurity issues. Last 
month, concurrent with the release of the General Observations 
document, the FFIEC, on behalf of its members, released the 
Cybersecurity Threat and Vulnerability Monitoring and Sharing 
Statement. \2\ The statement reiterated members' expectations that 
management monitor and maintain sufficient awareness of cybersecurity 
threat and vulnerability information in order to evaluate risk and 
respond accordingly. In addition, it reinforced the need for all 
institutions and their critical technology service providers to have 
appropriate methods for monitoring, sharing, and responding to threat 
and vulnerability information. In addition to recommending institutions 
to join FS-ISAC, the statement also listed additional Government 
resources that are able to assist financial institutions with 
identifying and responding to cyber attacks.
---------------------------------------------------------------------------
     \2\ The FFIEC Cybersecurity Threat and Vulnerability Monitoring 
and Sharing Statement can be accessed at http://www.ffiec.gov/press/
PDF/FFIEC_Cybersecurity_Statement.pdf.
---------------------------------------------------------------------------
Cross Sector Cybersecurity Dependencies and Information Sharing
    As noted earlier, ensuring appropriate information sharing is an 
essential component of the OCC's cybersecurity efforts. The OCC uses 
information-sharing forums, relationships with Government agencies, and 
the supervision process to acquire information on potential and 
confirmed cyberthreats and attacks.
    As a member of the FS-ISAC and through our work with the Treasury 
Department, we receive significant alerts that provide information 
related to cyberthreats, attacks, and vulnerabilities. We also 
recognize the importance of maintaining relationships with the law 
enforcement and intelligence communities to share information and keep 
lines of communication open. The OCC is an active member of the FBIIC, 
created to improve coordination and communications among a broad array 
of financial regulators, and chaired by the Treasury Department. These 
efforts include monthly staff-level meetings and periodic meetings with 
agency principals. In addition, we attend classified briefings for 
FBIIC and support the collaborative initiatives of this sectorwide 
partnership.
    The Financial Stability Oversight Council (FSOC) also provides a 
mechanism to promote collaborative efforts on a range of issues, 
including cybersecurity issues, and has set forth specific 
recommendations to advance cybersecurity efforts. The creation of the 
CCIWG, and some of its activities are directly responsive to the FSOC's 
recommendations. In its 2014 annual report, FSOC recommended that the 
Treasury Department continue to work with regulators, other appropriate 
Government agencies, and private-sector financial entities to develop 
the ability to leverage insights from across the Government and other 
sources to inform oversight of the financial sector and to assist 
institutions, market utilities, and service providers that may be 
targeted by cyber attacks. The FFIEC's aforementioned issuances are 
prime examples of responses to these recommendations. The FSOC also 
recommended that financial regulators continue their efforts to assess 
cyber-related vulnerabilities facing their regulated entities, identify 
gaps in oversight that may need to be addressed, and inform and raise 
awareness of cyberthreats and attacks. As discussed earlier, the 
FFIEC's Cybersecurity Assessment responds to these recommendations.
    The OCC and other banking agencies have a robust process for 
issuing standards and guidance and supervising the financial sector 
through our examinations. However, the resiliency of the financial 
sector is also dependent on other critical sectors, including the 
telecommunications and energy sectors, which do not operate under a 
comprehensive supervisory regime like financial institutions. The OCC 
strongly supports efforts to ensure other sectors have commensurate 
standards and improved transparency as it relates to the cybersecurity 
preparedness for these other sectors. In addition, the financial 
services industry and retailers have interdependencies. We have seen a 
number of attacks on large retailers in which credit card and other 
information from millions of consumers was compromised. In response, 
financial institutions compensate customers for fraudulent charges and 
replace credit and debit cards, and monitor account activity for fraud 
at significant cost. This is not easy for any bank, but the burden 
falls especially heavily upon community institutions. At a cost of $5 
or more per card plus fraud related charges, the costs can escalate 
quickly. We would support efforts to even the playing field between 
banks and merchants to ensure that both contribute to efforts to make 
affected consumers whole.
    The Treasury Department, as our Sector Specific Agency, has been 
leading efforts to work more closely with the Government agencies 
responsible for overseeing these other sectors. The OCC supports these 
efforts and hopes they lead to more in-depth interactions between the 
financial sector and other sectors with which it closely interacts. For 
our part, the OCC is a member of a newly formed Cybersecurity Forum for 
Independent and Executive Branch Agencies. The Forum's objectives are 
to enhance communication, identify lessons learned, and develop a 
common understanding of cybersecurity activities through the sharing of 
best practices and exploring approaches to enhance cybersecurity 
protections.
Recommendations for Congressional Consideration
    As we work to safeguard our financial system, we note some areas 
where Congressional action is necessary to provide parity among the 
parties impacted in cyber breaches that adversely affect consumers and 
to facilitate additional information sharing within the banking 
industry.
Parity for Retailers
    The recent breaches at large retailers highlight the need for 
improved cybersecurity for merchants. Enhanced cybersecurity should 
apply to all industries where customer information is at risk. There 
should be consistent protections across all industries for securing 
financial transactions, customer information, and systems. Further, 
these protections should include appropriate responses to breaches when 
they do occur. As mentioned previously, when breaches occur in merchant 
systems, merchants should contribute to efforts to make affected 
consumers whole.
Industry Information Sharing
    The OCC believes the existing statutory framework could be improved 
to encourage information sharing about cyber attacks among 
institutions. We believe that amending the USA PATRIOT Act by creating 
a safe harbor to facilitate and promote the timely sharing of 
information among financial institutions concerning cybersecurity 
threats, cyber attacks, and data breaches would create incentives for 
enhanced information sharing, which would result in increased awareness 
of potential threats within the banking industry.
Other Legislative Proposals
    The OCC has reviewed a number of legislative proposals that are 
pending in Congress to promote and facilitate information sharing 
concerning cyberthreats and attacks among Government agencies. The OCC 
generally supports such legislative initiatives. However, in the case 
of cyberthreat information involving banks, the bills we have reviewed 
do not require or encourage the DHS, the Department of Justice, or 
other Government agencies to share this information with the 
appropriate Federal banking agency. The Federal banking agencies need 
cyberthreat information involving banks to ensure the safety and 
soundness of both individual banks and the broader financial system. 
Accordingly, we believe that legislative proposals designed to improve 
and promote cyberthreat information sharing among Government agencies 
should require other Government agencies to share information related 
to banks with the Federal banking agencies.
    In addition, most legislative proposals designed to promote and 
facilitate cyberthreat information sharing provide that the information 
shared may not be used for regulatory purposes. This provision could 
impede our ability to issue cybersecurity guidance or regulations, or 
to take action to correct deficiencies in cybersecurity risk 
management.
Conclusion
    We have high expectations for our supervised entities in the area 
of cybersecurity. Financial institutions of all types and sizes must 
remain vigilant to protect against and mitigate cyber breaches, and we 
at the OCC will continue to support banks in this effort. To ensure we 
stay on top of the evolving threats to the financial services industry, 
the OCC is committed to refining our supervisory processes on an 
ongoing basis and to participating in public-private partnerships to 
help keep abreast of and respond to emerging threats.
    The Comptroller has emphasized the importance of communication, 
collaboration, and cooperation in all aspects of our mission. Nowhere 
is such communication and collaboration more important than in the 
realm of cybersecurity, where the threat transcends agency 
jurisdictions and industry boundaries. Combatting cyberthreats and 
protecting our economic security requires the Government and industry 
to work together for the good of consumers, the industry, and the 
entire financial services sector.
                                 ______
                                 
                  PREPARED STATEMENT OF WILLIAM NOONAN
   Deputy Special Agent in Charge, Cyber Operations Branch, Criminal 
                 Investigative Division, Secret Service
                           December 10, 2014
    Good morning Chairman Johnson, Ranking Member Crapo, and 
distinguished Members of the Committee. Thank you for the opportunity 
to testify on the ongoing challenge of cybercrime impacting our 
Nation's financial system. The U.S. Secret Service (Secret Service) has 
decades of experience investigating large-scale criminal cyber 
intrusions, in addition to other crimes that impact our Nation's 
financial payment systems. Based on this investigative experience, I 
hope to provide this Committee insight into the continued trend of 
transnational cybercriminals targeting our Nation's financial system 
for their illicit gain.
The Role of the Secret Service
    The Secret Service was founded in 1865 to protect the U.S. 
financial system from the counterfeiting of our national currency. As 
the Nation's financial system evolved from paper to plastic to 
electronic transactions, so too has the Secret Service's investigative 
mission. Today, our modern financial system depends heavily on 
information technology for convenience and efficiency. Accordingly, 
criminals have adapted their methods and are increasingly using 
cyberspace to exploit our Nation's financial payment system by engaging 
in fraud and other illicit activities. This is not a new trend; 
criminals have been committing cyber enabled financial crimes since at 
least 1970. \1\
---------------------------------------------------------------------------
     \1\ Beginning in 1970, and over the course of 3 years, the chief 
teller at the Park Avenue branch of New York's Union Dime Savings Bank 
manipulated the account information on the bank's computer system to 
embezzle over $1.5 million from hundreds of customer accounts. This 
early example of cybercrime not only illustrates the long history of 
cybercrime, but the difficulty companies have in identifying and 
stopping cybercriminals in a timely manner--a trend that continues 
today.
---------------------------------------------------------------------------
    Congress established 18 U.S.C. 1029-1030 as part of the 
Comprehensive Crime Control Act of 1984 \2\ and explicitly assigned the 
Secret Service authority to investigate these criminal violations. \3\ 
These statutes first established as specific Federal crimes 
unauthorized access to computers \4\ and the fraudulent use, or 
trafficking of, access devices \5\--defined as any piece of information 
or tangible item that is a means of account access that can be used to 
obtain money, goods, services, or other thing of value. \6\
---------------------------------------------------------------------------
     \2\ Pub. L. 98-473, 1602(a) and 2102(a), 98 Stat. 1837, 2183 and 
2190.
     \3\ 18 U.S.C. 1029(d) and 1030(d)(1).
     \4\ 18 U.S.C. 1030.
     \5\ 18 U.S.C. 1029.
     \6\ 18 U.S.C. 1029(e)(1).
---------------------------------------------------------------------------
    Secret Service investigations have resulted in the arrest and 
successful prosecution of cybercriminals involved in the largest known 
data breaches, including those of TJ Maxx, Dave and Buster's, Heartland 
Payment Systems, and others. Over the past 5 years Secret Service 
cybercrime investigations have resulted in over 5,940 arrests, 
associated with approximately $1.53 billion in fraud losses and the 
prevention of over $11.71 billion in potential fraud losses. Through 
our work with our partners at the U.S. Department of Justice (DOJ), in 
particular local U.S. Attorney's Offices, the Computer Crime and 
Intellectual Property Section (CCIPS), the International Organized 
Crime Intelligence and Operations Center (IOC-2), the Federal Bureau of 
Investigations (FBI) and others, we will continue to bring major 
cybercriminals to justice.
The Transnational Cybercrime Threat
    Advances in computer technology and greater access to personally 
identifiable information (PII) via the Internet have created online 
marketplaces for transnational cybercriminals to share stolen 
information and criminal methodologies. As a result, the Secret Service 
has observed a marked increase in the quality, quantity, and complexity 
of cybercrimes targeting private industry and critical infrastructure. 
These crimes include network intrusions, hacking attacks, malicious 
software, and account takeovers leading to significant data breaches 
affecting every sector of the world economy. The recently reported 
payment card data breaches are examples of the decade-long trend of 
major data breaches perpetrated by transnational cybercriminals who are 
intent on targeting our Nation's financial payment system for their 
illicit gain.
    The growing collaboration amongst cybercriminals allows them to 
compartmentalize their operations, greatly increasing the 
sophistication of their criminal endeavors as they develop expert 
specialization. These specialties raise both the complexity of 
investigating these cases, as well as the level of potential harm to 
companies and individuals. For example, illicit underground cybercrime 
marketplaces allow criminals to buy, sell, and trade malicious 
software, access to sensitive networks, spamming services, payment card 
data, PII, bank account information, brokerage account information, 
hacking services, and counterfeit identity documents. These illicit 
digital marketplaces vary in size, with some of the more popular sites 
boasting membership of approximately 80,000 users. These digital 
marketplaces often use various digital currencies, and cybercriminals 
have made extensive use of digital currencies to pay for criminal goods 
and services or launder illicit proceeds.
Secret Service Strategy for Combating This Threat
    The Secret Service proactively investigates cybercrime using a 
variety of investigative means to infiltrate these transnational 
cybercriminal groups. As a result of these proactive investigations, 
the Secret Service is often the first to learn of planned or ongoing 
data breaches and is quick to notify financial institutions and the 
victim companies with actionable information to mitigate the damage 
from the data breach and terminate the criminal's unauthorized access 
to their networks. One of the most poorly understood facts regarding 
data breaches is that it is rarely the victim company that first 
discovers the criminal's unauthorized access to their network; rather 
it is law enforcement, financial institutions, or other third parties 
that identify and notify the likely victim company of the data breach.
    A trusted relationship with the victim is essential for confirming 
the crime, remediating the situation, beginning a criminal 
investigation, and collecting evidence. The Secret Service's growing 
global network of 37 Electronic Crimes Task Forces (ECTF), located 
within our field offices, are essential for building and maintaining 
these trusted relationships, along with the Secret Service's commitment 
to protecting victim privacy. The Secret Service routinely discovers 
data breaches through our proactive investigations and notifies victim 
companies with actionable information. For example, as a result of 
information discovered this year through just one of our ongoing 
cybercrime investigations, the Secret Service notified hundreds of U.S. 
entities of cybercriminal activity targeting their organizations. 
Additionally, as the Secret Service investigates cybercrime, we 
discover current criminal methods and share this cybersecurity 
information broadly to enable other organizations to secure their 
networks. The Secret Service does this through contributing to leading 
industry annual reports such as the Verizon Data Breach Investigations 
Report and the Trustwave Global Security Report, and through more 
immediate reports, including joint Malware Initial Findings Reports 
(MIFRs).
    This year, UPS Stores Inc. used information published in a joint 
report by the Secret Service, National Cybersecurity and Communications 
Integration Center, United States Computer Emergency Readiness Team 
(NCCIC/U.S.-CERT), and the Financial Services Information Sharing and 
Analysis Center (FS-ISAC) on the Back-Off malware to protect itself and 
its customers from cybercriminal activity. \7\ The information in this 
report was derived from a Secret Service investigation of a network 
intrusion at a small retailer in Syracuse, New York. The Secret Service 
publicly shared actionable cybersecurity information derived from this 
investigation to help numerous other organizations while still 
safeguarding sensitive information. As a result, UPS Stores, Inc. was 
able to identify 51 stores in 24 States that had been impacted, and 
then were able to contain and mitigate this cyber incident before it 
developed into a major data breach. \8\
---------------------------------------------------------------------------
     \7\ See http://www.us-cert.gov/security-publications/Backoff-
Point-Sale-Malware.
     \8\ See UPS Store's press release available at http://
www.theupsstore.com/about/media-room/Pages/The-ups-store-notifies-
customers.aspx.
---------------------------------------------------------------------------
    As we share cybersecurity information discovered in the course of 
our criminal investigation, we also continue our investigation in order 
to apprehend and bring to justice those involved. Due to the inherent 
challenges in investigating transnational crime, particularly the lack 
of cooperation of some countries with law enforcement investigations, 
it can take years to finally apprehend the top tier criminals 
responsible. For example, even after a 2011 indictment, Secret Service 
agents were not able to arrest Roman Seleznev of Vladivostok, Russia, 
in an international law enforcement operation until just recently. Mr. 
Seleznev has been charged in Seattle in a 40-count superseding 
indictment for allegedly being involved in the theft and sale of 
financial information of millions of customers. Seleznev is also 
charged in a separate indictment with participating in a racketeer 
influenced corrupt organization (RICO) and conspiracy related to 
possession of counterfeit and unauthorized access devices. \9\ This 
investigation was lead by the Secret Service's Seattle Electronic 
Crimes Task Force.
---------------------------------------------------------------------------
     \9\ See http://www.justice.gov/usao/waw/press/2014/October/
seleznev.html.
---------------------------------------------------------------------------
    In another case, the Secret Service, as part of a joint 
investigation with U.S. Immigration and Customs Enforcement's Homeland 
Security Investigations (HSI) and the Global Illicit Financial Team, 
hosted by IRS-Criminal Investigations, shut down the digital currency 
provider Liberty Reserve, which was allegedly widely used by criminals 
worldwide to store, transfer, and launder the proceeds of a variety of 
illicit activities. Liberty Reserve had more than one million users, 
who conducted approximately 55 million transactions through its system 
totaling more than $6 billion in funds. The alleged founder of Liberty 
Reserve, Arthur Budovsky, was recently extradited from Spain to the 
United States. Mr. Budovsky is among seven individuals charged in the 
indictment. Four codefendants--Vladimir Kats, Azzeddine el Amine, Mark 
Marmilev, and Maxim Chukharev--have pleaded guilty and await 
sentencing. Charges against Liberty Reserve and two individual 
defendants, who have not been apprehended, remain pending. This 
investigation was lead by the Secret Service's New York Electronic 
Crimes Task Force.
Legislative Action To Combat Data Breaches
    While there is no single solution to prevent data breaches of U.S. 
customer information, legislative action could help to improve the 
Nation's cybersecurity, reduce regulatory costs on U.S. companies, and 
strengthen law enforcement's ability to conduct effective 
investigations. The Administration has proposed various pieces of 
cybersecurity legislation, including law enforcement provisions related 
to computer security, and continues to urge Congress to pass 
legislation that will strengthen Government and private-sector 
cybersecurity capabilities. In particular, we urge Congress to act on 
legislation that will allow us to keep pace with the rapidly evolving 
threats of cybercrime. \10\
---------------------------------------------------------------------------
     \10\ This proposal is available at: http://www.whitehouse.gov/omb/
legislative_letters/.
---------------------------------------------------------------------------
Conclusion
    The Secret Service is committed to continuing to safeguard the 
Nation's financial payment systems by defeating cybercriminal 
organizations. Responding to the growth in these types of crimes, and 
the level of sophistication these criminals employ, requires 
significant resources and substantial collaboration among law 
enforcement and its public and private-sector partners. Accordingly, 
the Secret Service dedicates significant resources to improving 
investigative techniques, providing training for law enforcement 
partners, and sharing information on cyberthreats. The Secret Service 
will continue to coordinate and collaborate with other Government 
agencies and the private sector as we develop new methods to combating 
cybercrime. Thank you for your continued commitment to protecting our 
Nation's financial system from cybercrime.
                                 ______
                                 
             PREPARED STATEMENT OF JOSEPH M. DEMAREST, JR.
 Assistant Director, Cyber Division, Federal Bureau of Investigation, 
                         Department of Justice
                           December 10, 2014
    Good morning Chairman Johnson, Ranking Member Crapo, and the 
distinguished Members of this Committee. I am honored to appear before 
you today to discuss the cyberthreats facing our Nation, their relation 
to the financial sector, and the efforts the FBI is taking to identify, 
pursue, and defeat those threats.
    In the course of my brief testimony, I hope to give you a sense of 
the extent to which today's cyber actors pose new and increasingly 
complex threats to our country and to the financial sector--a threat 
that challenges the traditional models of the law enforcement and 
intelligence communities, where threat actors were previously confined 
by time, distance, and physical location. Instead, today's cyber 
actors, from Nation-States to criminal groups and individuals, find 
themselves virtually unrestricted in their targets sets and their 
ambitions, launching attacks from all over the world at literally the 
speed of light. Today, I hope to convey the many ways that we at the 
FBI are doing everything in our power to protect the Nation, and the 
financial sector in particular, from these threats.
Cyberthreats Against the Financial Sector: Trends and Implications
    Before describing the current cyberthreatscape, I'd like to give a 
brief overview of the FBI Cyber Division, our mission, and how we 
target the cyber adversaries that threaten this country on a daily 
basis. In general, the FBI's mission falls into three separate buckets: 
first, we identify the cyber actors perpetrating harm. In the world of 
cybercrime and cyber espionage, this is often the most difficult step, 
as cyberthreats may hide in plain sight, using various methods to 
obfuscate their presence, location, and activities. Second, we pursue 
these actors, tracking their activity both online and off. To this end, 
we utilize collaborative partnerships across the Federal Government, 
with international partners and with industry, along with our unique 
combination of national security and law enforcement authorities, to 
gather intelligence about the tactics, techniques and procedures of 
these actors. In short, we find these threat actors and we watch them, 
gathering intelligence and understanding the motives and the conduct of 
our adversaries. Lastly, with the aid of partnerships and our unique 
authorities, we defeat cyber adversaries through a full range of 
methods, including--most importantly, arresting and prosecuting those 
responsible. The FBI focuses foremost on intelligence led, threat-
focused cyber operations which our personnel, analysts, computer 
scientists, and agents in the field help us achieve every day.
    As the Members of this Committee are aware, the range of actors who 
threaten our interests is as complex as it is varied. We face cyber 
terrorists, who aim to use our reliance upon and use of digital systems 
to advance their political or ideological goals. We face Nation-States, 
who aim to use the cyber world to conduct espionage, to make 
preparations for war, and who may even carry out acts of war through 
cyber means. We face ideology-driven criminals, who may use methods 
such as denial of service attacks, known as ``DDoS'' attacks, to 
further their own ideology or social cause. We face insider threats, 
whose legitimate access to sensitive information may be used for 
various illicit ends. Lastly, we face financially motivated groups and 
individuals, who use a range of methods to enrich themselves at others' 
expense--and it is this group that I will focus upon most specifically 
today, though each and every group I just listed may, at times, view 
the financial sector as a prime target.
    As the Members of the Committee are also aware, the threat from 
cyber actors--specifically cybercriminals--continues to garner an 
increasing share of the media spotlight and continues to advance in 
sophistication. Recent high-profile attacks, such as those on eBay, 
Sony, JPMorgan Chase, and others, highlight vulnerabilities in some of 
our Nation's largest companies. Regarding the threats to the financial 
sector in particular, such threats range in complexity, and we continue 
to work closely with the Secret Service, DHS, and other partners across 
the Government. Point of sale thefts, also known as ``POS'' scams, for 
example, are not new, but continue to pose serious threats to the 
financial services industry. According to Verizon's 2014 Data Breach 
Investigations Report, the physical installation of a ``skimmer'' on an 
ATM, gas pump, or POS terminal to read credit card data has targeted 
ATMs with an overwhelming specificity--87 percent of skimming attacks 
in 2013, for example, were on ATMs. Retail POS scams, where attackers 
compromise the computers and servers that run POS applications with the 
intention of capturing payment data, comprise an additional level of 
sophistication, and can take weeks or even months to be discovered, 
little less mitigated. The high-profile attack on Target provides one 
of the more sophisticated examples of retail POS scams, in which, 
according to open source reporting, 40 million credit card numbers and 
another 70 million customer records were stolen. Such attacks are not 
unique to Target--additional data breaches have been reported at Neiman 
Marcus, Michaels, and P.F. Chang's, among many others.
    Vulnerabilities in mobile banking pose another new and highly 
sophisticated danger, as mobile banking vulnerabilities may exist on 
mobile devices that are not patched, and malware can be developed to 
specifically target the use of mobile devices. One example of this type 
of vulnerability is the Zeus-in-the-Middle malware, a mobile version of 
the GameOver Zeus malware, which itself was one of the most 
sophisticated types of malware the FBI ever attempted to disrupt. 
GameOver Zeus was designed to steel banking credentials that criminals 
could then use to initiate or redirect wire transfers to overseas bank 
accounts. All told, the malware infected over 1 million computers 
worldwide and caused over $100 million in estimated losses. Zeus-in-
the-Middle has not caused the same level of damage or losses as 
GameOver Zeus, but its very existence illustrates the risk posed to 
mobile platforms, where devices can be infected by malicious apps or 
via spear phishing emails, and which can then enable cybercriminals to 
utilize the banking credentials of targeted users on a grand scale. 
Current open source reporting suggests that Android OS devices remain a 
prime target for mobile malware--according to the 2014 Cisco Annual 
Security Report, for example, 99 percent of mobile malware in 2013 
targeted the Android platform.
    Botnets, which can harness the power of an enormous web of 
computers for malicious purposes, continue to evolve as well. As I 
speak, estimates place the total damages caused by botnets at more than 
$9 billion in losses to U.S. victims and over $110 billion in losses 
worldwide. Approximately 500 million computers are infected globally 
per year--translating to 18 victims per second. As botnets become more 
sophisticated, our techniques must evolve to keep pace. The FBI and our 
partners may take down one botnet, for example, but coders may alter 
code and rebuild their bots in fairly short order. The power and scale 
of botnets is particularly worth noting, as botnets have been used to 
attack the financial sector through DDoS attacks, and the FBI has been 
deeply involved in preventing such attacks and in keeping such attacks 
from inflicting lasting damage. Beginning in September 2012, for 
example, actors launched powerful DDoS attacks from a botnet, combining 
the bandwidth of numerous web servers to target major U.S. banking 
institutions. The FBI worked closely with Department of Homeland 
Security (DHS) to issue Joint Indicator Bulletins (JIBs) to the U.S. 
banks, which included thousands of IP addresses that participated in 
the attacks. The U.S. banks used the IP addresses to better mitigate 
future incidents, thus helping to ensure their business operations 
could proceed with less interruption of service to their customers. The 
JIBs helped reduce the resources available for the threat actors to 
carry out future DDoS operations and demonstrated the effectiveness of 
FBI outreach to industry. Throughout this campaign, the FBI held 
significant outreach efforts to brief bank net-defenders through a 
series of classified briefs. These briefs, conducted by FBI, DHS, and 
Treasury representatives, provided bank security personnel the context 
of the DDoS threat and enabled the banks to share best-practices with 
their peers in real time.
    From March 2013 to July 2014, the FBI provided approximately 36 
classified threat briefings regarding the DDoS attacks to private-
sector financial institutions and governmental agencies, including DHS, 
Department of Treasury, the Federal Deposit Insurance Corporation, and 
the Federal Reserve System. The initial classified briefing, held on 
March 19, 2013, was attended by over 300 chief information security 
officers via secure video teleconference from 33 FBI field offices. 
This type of outreach is far from irregular--based on imminent threats 
to the financial sector in early 2014, the FBI provided classified 
threat briefings in March, April, and July 2014 to a total of 145 
financial institutions.
    We at the FBI, in short, are doing everything in our power to keep 
pace with the evolving threat against the financial sector. We further 
our law enforcement mission when we collaborate within the Government 
and across the private sector to prosecute and protect our Nation and 
industries from the devastating consequences of cyber attacks.
Coordination and Information Sharing Across the Government
    The FBI and our partners throughout the Government have all made 
significant progress in recent years in collaborating within the cyber 
domain--and our progress hasn't just been limited domestically, but has 
occurred at international levels as well. A decade ago, for example, if 
an FBI agent tracked an Internet Protocol (IP) address to a criminal 
investigation, and if that IP address was located in a foreign country, 
this meant the effective end of the investigation. Since that time, 
however, the FBI has placed cyber specialists in key international 
locations to facilitate the investigation of cybercrimes affecting the 
U.S. Recognizing the value of cyber specialists working with key 
international partners, the FBI Cyber Division stood up a team known as 
the Operational Coordination Unit's Extraterritorial Operations group 
to focus on supporting, coordinating, and providing oversight of 
international cyber national security and criminal intrusion 
investigations One prime example of the importance of collaboration and 
coordination is the recent take down of Silk Road 2.0. Beginning in 
late December 2013, Blake Benthall, also known by the online handle 
``Defcon,'' secretly owned and operated an underground Web site known 
as Silk Road 2.0--one of the most extensive, sophisticated, and widely 
used criminal marketplaces ever created on the Internet. The Web site 
operated on the Tor network, a special network of computers distributed 
around the world and designed to conceal the IP addresses of the 
computers that access the network, thereby masking the identities of 
the network's users. Silk Road 2.0 launched in November 2013 after its 
predecessor was shut down by law enforcement. Since its launch in 2013, 
Silk Road 2.0 has been used by thousands of illicit actors to 
distribute hundreds of kilograms of illegal drugs and other 
illegitimate goods and services to buyers throughout the world, as well 
as to launder millions of dollars generated by these unlawful 
transactions. As of September 2014, Silk Road 2.0 was generating sales 
of at least approximately $8 million per month and had approximately 
150,000 active users. The very existence of Silk Road 2.0 highlights 
the core concern I'm here to address today: cybercriminals now operate 
far outside the traditional bounds that confined criminals in past 
decades, selling banking credentials by the thousands and placing 
malware on the market for the purposes of DDoS attacks, to cite just 
two examples of illicit activities that target the financial sector. 
Whereas last century's bank robbers used an automobile to steal from a 
handful of banks in a few States in one day--a novel development for 
the time--today's bank robbers can use the Internet to steal money from 
thousands of banks across the world in a few hours, all without ever 
leaving their basement.
    Thanks to our coordinated efforts, however, criminal marketplaces 
like Silk Road 2.0 cannot and will not last for long. The investigation 
into Silk Road 2.0 was conducted jointly by the FBI and the DHS's 
Immigration and Customs Enforcement's Homeland Security Investigations 
(ICE-HSI), illustrating the critical nature of cooperation and 
information sharing in today's cyber investigations--no Government 
agency, no matter how competent its agents and experts, can operate 
successfully on its own. We capitalize on our distinct roles and 
responsibilities within the Government to address and prevent 
cybercrime. Over the course of the investigation into Silk Road 2.0, an 
HSI agent acting in an undercover capacity successfully infiltrated the 
support staff involved in the administration of the Silk Road 2.0 Web 
site and was given access to private, restricted areas of the site 
reserved for Benthall and his administrative staff. By doing so, the 
HSI agent was able to interact directly with Benthall throughout his 
operation of the Web site.
    On November 7, 2014, the U.S. Government seized the Silk Road 2.0 
Web site in the largest law enforcement action to date against criminal 
Web sites operating on the Tor network. Benthall was arrested and 
charged with one count of conspiring to commit narcotics trafficking 
(carrying a maximum sentence of life in prison and a mandatory minimum 
sentence of 10 years in prison), one count of conspiring to commit 
computer hacking (carrying a maximum sentence of 5 years in prison), 
one count of conspiring to traffic in fraudulent identification 
documents (carrying a maximum sentence of 15 years in prison), and one 
count of money laundering conspiracy (carrying a maximum sentence of 20 
years in prison). The investigation was a key success for the FBI, for 
ICE-HSI, and for the U.S. Government as a whole--and a key illustration 
of the importance of collaboration and cooperation.
    Another example of the importance of collaboration and cooperation, 
both inside and outside of Government, is the vital work the National 
Cyber Investigative Joint Task Force (NCIJTF) performs on a daily 
basis. Mandated by the President in 2008, the NCIJTF serves as national 
focal point for coordinating, integrating, and sharing pertinent 
information related to cyberthreat investigations among 19 Federal 
agencies. The FBI aims to strengthen and solidify the NCIJTF as the 
cybersecurity center for coordinating cyberthreat investigations and 
disruption operations. The NCIJTF involves senior personnel from key 
agencies, including deputy directors from the National Security Agency, 
the Department of Homeland Security, the Central Intelligence Agency, 
the U.S. Secret Service, and U.S. Cyber Command. Reinforcing the role 
of the NCIJTF on cross-Government cyberthreat information sharing and 
coordination is a key priority for the FBI.
    Lastly, the FBI is working to strengthen local and national 
information sharing and collaboration efforts in support of network 
defense, intelligence operations, and disruption operations. And I 
cannot make the following statement frequently enough: the private 
sector is an essential partner if we are to succeed in defeating the 
cyberthreat our Nation confronts. I will discuss in more detail some of 
our collaboration efforts with the private sector shortly.
Current FBI Efforts To Combat Cyberthreats
    The FBI is engaged in a host of efforts to combat cyberthreats, 
from efforts focused on threat identification and sharing inside and 
outside of Government, to our internal emphasis on developing and 
retaining new talent and changing the way we operate to evolve with the 
cyberthreat. I would like to take this opportunity to highlight a few 
of the ways we at the FBI are confronting this threat head on.
FBI Liaison Alert System
    As I alluded to earlier in my testimony, the threat of botnets 
provides a good example of how the FBI is proactively working with 
industry partners to combat cyberthreats. To further assist with 
network defense and mitigation of botnets, the FBI created a document 
called the FBI Liaison Alert System message, or FLASH. Through the 
system, the FBI releases high confidence data to the private sector 
with indicators and alerts related to computer intrusions and DDoS 
attacks. From April 2013 to July 2014, the FBI disseminated 34 FLASH 
messages, about 20 of which dealt with threats against the financial 
sector. The FBI disseminated, among other information, indicators for 
approximately 115,000 compromised systems in these FLASH messages. 
These declassified, technical indicators, associated with intrusions, 
are meant to enable industry partners to be on the lookout for and 
defend their infrastructure from nefarious traffic on their networks.
    The FBI provided these FLASH messages to key partners across 
affected critical infrastructure sectors, to include: Tier 1 and 2 
Internet Service Providers (ISPs), Domain Name Server (DNS) root server 
operators, top-level domain (TLD) operators, and Five Eyes partners. 
When the FBI receives credible information regarding a threat to U.S. 
critical infrastructure, FBI coordinates with DHS to discuss and 
deconflict victim notification and mitigation strategies, at times 
involving other agencies, such as the Department of Treasury, as well.
Guardian Victim Analysis Unit
    The FBI's Guardian Victim Analysis Unit (GVAU) is a direct response 
to the President's 2013 Executive Order 13636, which called for 
increases in the volume, timeliness, and quality of cyberthreat 
information shared with U.S. private-sector entities so that these 
entities may better defend themselves against cyberthreats. To help aid 
these entities and to enhance private-sector information-sharing 
efforts, the FBI established Cyber Guardian, a series of applications 
that enables actors in and outside of Government to share threat 
information. One Cyber Guardian application is available on a Secret 
enclave, and two applications known as eGuardian and iGuardian/
InfraGard--both operating at the unclassified level--are available to 
State, Local, Tribal, and Territorial (SLTT) entities, and to the 
private sector, respectively. The Cyber Guardian applications provide a 
means for the FBI to rapidly disseminate reports on cyberthreat 
activity, in addition to a platform for coordination and deconfliction 
of cyberthreat information.
The Internet Crime Complaint Center
    Established in 2000, the Internet Crime Complaint Center (IC3) is a 
partnership between the FBI and the National White Collar Crime Center 
meant to serve as a vehicle to receive, develop, and refer criminal 
complaints regarding the rapidly expanding arena of cybercrime. During 
its infancy, the IC3 received approximately 2,000 victim complaints per 
month. Now the IC3 receives approximately 800 complaints a day, with 
over 244,000 complaints received to date for the 2014 calendar year. In 
2013, the IC3 received 262,813 consumer complaints with losses in 
excess of $781 million. The IC3 database currently houses more than 
3.15 million consumer complaints dating back to its inception in 2000.
The Domestic Security Alliance Council
    The Domestic Security Alliance Council (DSAC) is a strategic 
partnership between the U.S. Government and U.S. private industry, 
formed with the goal of increasing security by enhancing communications 
and promoting the timely and effective exchange of security information 
among its constituents. The DSAC advances the FBI's mission of 
preventing, detecting, and deterring criminal acts by facilitating 
strong, enduring relationships among its private industry members, FBI 
headquarters divisions, FBI field offices, DHS headquarters, DHS fusion 
centers, and other Federal Government entities.
The National Cyber-Forensics and Training Alliance
    The National Cyber-Forensics and Training Alliance (NCFTA) is 
composed of representatives of industry, academia, and the FBI, all 
working together to collaborate on combating cybercrime. The NCFTA 
provides a unique environment for information sharing between law 
enforcement, private industry, and academia. The NCFTA is a nonprofit 
group whose members include ISPs, banks, retailers, and a whole host of 
other industry representatives, along with law enforcement and 
academia, with a mission to identify cyberthreats and share information 
for mitigation and neutralization purposes. The NCFTA provides a one-
of-a-kind opportunity for subject matter experts to address global 
cyberthreats such as botnets, spam, and malware. Because of its 
nonprofit status, the group can share information in a neutral 
environment, develop a strategic understanding of the threat, and work 
to address cyberthreats collaboratively.
National Industry Partnership Unit
    The FBI established an entity known as the National Industry 
Partnership Unit to develop partnerships through the InfraGard program 
between the FBI and private sector, academic, and other public 
entities, to support the FBI's investigative programs. Established in 
the Cleveland field office in 1996, InfraGard was initially a local 
effort to gain support from the information technology industry and 
academia for the FBI's investigative efforts in the cyber arena. 
InfraGard soon expanded to other FBI field offices, and in 2003 the 
Cyber Division assumed responsibility for the program. InfraGard and 
the FBI have developed a relationship of trust and credibility in the 
exchange of information concerning various terrorism, intelligence, 
criminal, and security matters. InfraGard members gain access to 
information that enables them to protect their assets and in turn give 
information to the Government that facilitates its responsibilities in 
preventing and addressing terrorism and other crimes. This relationship 
supports information sharing at both the national and local levels, 
with the aim of increasing the level of information and reporting 
between InfraGard members and the FBI on matters related to 
counterterrorism, cybercrime, and other major crime programs.
Charting the Cyber Future
    The future cyberthreatscape will certainly be complex--based on 
recent advances in the sophistication of our adversaries, both State 
and non-State, it is hard to imagine what this threatscape will look 
like 10 or even 20 years down the road. Nevertheless, we in the FBI 
pride ourselves on being a forward looking organization, and adapting 
to the challenges we face. The FBI Cyber Division--our agents, computer 
scientists, analysts, and personnel--are all working hard to outpace 
such threats on a daily basis, identifying, pursuing, and defeating our 
adversaries, wherever in the world they might be.
    There are, however, a number of ways that Congress might seek to 
aid us in our efforts. In particular, I would like to enumerate three 
concerns that new legislation or amendments to existing legislation 
could address that would strengthen our ability to combat cyberthreats, 
as follows:

  <bullet>  Updating the Computer Fraud and Abuse Act. The Computer 
        Fraud and Abuse Act (CFAA) constitutes the primary Federal law 
        against hacking, protecting the public against criminals who 
        hack into computers to steal information, install malicious 
        software, and delete files. The CFAA was first enacted in 1986, 
        at a time when the problem of cybercrime was still in its 
        infancy. Over the years, a series of measured, modest changes 
        have been made to the CFAA to reflect new technologies and 
        means of committing crimes and to equip law enforcement with 
        the tools to respond to changing threats. The CFAA has not been 
        amended since 2008, however, and the intervening years have 
        again created the need for the enactment of modest, incremental 
        changes. The Administration has proposed several such revisions 
        to keep Federal criminal law up-to-date with rapidly evolving 
        technologies.
    Cyberthreats adapt and evolve at the speed of light, and we need 
        laws on the books that reflect the most current means by which 
        cyber actors are committing crimes. Updating the CFAA to 
        reflect these changes would help strengthen our ability to 
        punish, and therefore to deter, the crimes we seek to prevent.

  <bullet>  Data Breach Notifications. We believe there is a strong 
        need for a uniform Federal standard holding certain types of 
        businesses accountable for data breaches and theft of 
        electronic personally identifiable information. Businesses 
        should, for example, be required to provide prompt notice to 
        consumers in the wake of a certain cyber attacks. Such a 
        standard would not only hold businesses accountable for 
        breaches, but would also assist in FBI and other law 
        enforcement efforts to identify, pursue, and defeat the 
        perpetrators of cyber attacks.

  <bullet>  Information Sharing. Although the Government and the 
        private sector already share cyberthreat information on a daily 
        basis, legislation can enhance the value and benefit of these 
        information-sharing relationships. The Government and the 
        private sector both have critical and unique insights into the 
        cyberthreats we face, and sharing these insights is necessary 
        to enhance our mutual understanding of the threat. Similarly, 
        the operational collaboration required to identify cyberthreat 
        indicators and to mitigate intrusions requires the exact type 
        of sharing we seek in the first place. As such, the FBI 
        supports legislation that would establish a clear framework for 
        sharing and reduce risk in the process, in addition to 
        providing strong and straightforward safeguards for the privacy 
        and civil liberties of Americans. U.S. citizens must have 
        confidence that threat information is being shared 
        appropriately, and we in the law enforcement and intelligence 
        communities must be as transparent as possible. We also want to 
        ensure that all the relevant Federal partners receive the 
        information in real time.

    The bottom line, however, is that current levels of information 
sharing are insufficient to address the cyberthreats we face, 
specifically with regards to the financial sector. The U.S. is 
currently facing sophisticated, well-resourced adversaries, and minimum 
security requirements are needed to harden our critical infrastructure 
networks. The Government and private sector should collaborate to 
develop these requirements, and we believe that legislation would help 
to further these ends. There area host of statutory and regulatory 
restrictions as well that provide narrowly tailored liability 
protections for appropriate cyber information sharing. Further, there 
are a number of regulatory and statutory concerns that private actors 
may express when it comes to sharing cyberthreat information with the 
Government, and new legislation can and should be crafted to address 
these concerns. The events of the last year, and the continuing high-
profile cyber attacks on major American companies, should serve to 
highlight the need for new engagement against cyberthreats on every 
level possible.
    In the absence of the passage of cybersecurity legislation, 
however, the Administration is taking steps in the right direction to 
ensure that we can share information, in a practical and meaningful 
way. One such step is Executive Order (EO) 13636, entitled ``Improving 
Critical Infrastructure Cybersecurity'' and which I addressed briefly 
earlier, signed by the President in February 2013 and designed to 
provide critical infrastructure owners and operators with assistance to 
address cyberthreats and manage risks. The EO calls for the Government 
to collaborate more closely with industry by sharing information about 
cyberthreats and jointly developing a framework of cybersecurity 
standards and best practices. One of the EO's main goals is to improve 
Government information sharing with critical infrastructure owners and 
operators regarding cyberthreats, including attack signatures and other 
technical data. The FBI would, however, welcome more active engagement 
from Congress on these matters. Although the EO is a step in the right 
direction, robust cybersecurity legislation is still needed. As 
partners across the Government and private sector have explored the 
ways we can operate, under existing laws, to implement the requirements 
of the EO, we are well positioned to have a more informed dialogue with 
Congress, and to improve our ability to address cyberthreats.
Conclusion
    In conclusion, Mr. Chairman, the FBI is focusing our resources, 
expanding our presence at the local, national and international levels, 
and engaging in cooperation with the private sector and 
intergovernmental collaboration. As the Committee knows well, we face 
considerable challenges in our efforts to combat cybercrime, and yet we 
remain optimistic that by identifying, pursuing, arresting and 
prosecuting these offenders we will defeat our cyber adversaries and 
continue to succeed in neutralizing these threats. My colleagues at the 
FBI and I look forward to working with the Committee and with Congress 
in protecting our Nation from the evolving threat posed by cyber 
actors. Thank you again for the opportunity to appear before you today. 
I would be happy to answer any questions you may have.
        RESPONSES TO WRITTEN QUESTIONS OF SENATOR CRAPO
                       FROM BRIAN PERETTI

Q.1. Fast, efficient sharing of actionable cyberthreat 
information between law enforcement, the intelligence 
community, and industry is a vitally important component of 
protecting information systems. While we have seen significant 
progress over the past couple years in the timeliness and 
quality of information sharing, there is still room for 
improvement. Please describe, first, what steps are being taken 
at your agency or Department to improve the information-sharing 
process and more quickly disseminate actionable information to 
those who need it.

A.1. As the Sector Specific Agency for the Financial Sector, 
Treasury encourages private sector membership in the Financial 
Sector Information Sharing and Analysis Center (FS-ISAC). FS-
ISAC membership has increased significantly over the past year 
and Treasury expects this trend to continue. As any ISAC is 
only as valuable as the information shared within it, Treasury 
also promotes and encourages individual private sector firms to 
actively share information through the organization. Increasing 
the number of private sector firms that actively share 
information within the FS-ISAC is a key goal for improving 
information sharing.
    Treasury has created an information sharing and analysis 
unit, known as the Financial Sector Cyber Intelligence Group 
(CIG) to increase information sharing across the financial 
services industry. The CIG is a section within Treasury's 
Office of Critical Infrastructure Protection and Compliance 
Policy that focuses on cybersecurity information sharing with 
the financial sector. Its purpose is to increase the volume, 
timeliness and quality of cyberthreat information shared 
between the Government and the financial services sector as 
called for under Executive Order 13636 on Improving Critical 
Infrastructure Cybersecurity and Presidential Policy Directive 
21 on Critical Infrastructure Security and Resilience, which 
designates Treasury as the Sector Specific Agency for the 
Financial Services Sector. The CIG was established in response 
to a need identified by the financial sector for the Government 
to have a focal point for sharing cyberthreat-related 
information with the sector.
    The CIG identifies and analyzes all-source intelligence on 
cyberthreats to the financial sector; shares timely, actionable 
information that alerts the sector to threats and enables 
firms' prevention and mitigation efforts; and solicits feedback 
and information requirements from the sector. It produces 
threat and mitigation bulletins, called CIG Circulars; responds 
to Requests for Information from the financial sector about 
specific issues of concern to them; delivers classified 
briefings to appropriately cleared financial sector 
representatives; and encourages the sharing of information on 
specific threats to financial institutions. The CIG has a 
representative at the Department of Homeland Security's (DHS) 
National Cybersecurity and Communications Integration Center 
(NCCIC) and Treasury will support any new national initiative 
aimed at integrating cyberthreat intelligence efforts. The CIG 
is currently developing tools, systems, and processes to 
automate information sharing. Once these mechanisms are in 
place, the CIG will be able to share cyberthreat indicators 
with the financial sector in a machine readable format.

Q.2. Second, what obstacles or constraints delay the 
dissemination of such information?

A.2. Treasury engages frequently with individual financial 
institutions, industry groups, and interagency partners to 
understand, assess, and improve upon cybersecurity information 
sharing. Cybersecurity information sharing has improved in 
recent years, and we believe it is critically important that 
industry and Government continuously work together to improve 
the quality and timeliness of such information.
    Generally, we see future work in improving information 
sharing processes focusing on:

  <bullet>  Sharing information from Government to industry, 
        from industry to Government, and between individual 
        companies within industry, including through working to 
        address industry concerns over liability, regulatory 
        use of information, and possible release of information 
        through FOIA and other sunshine requirements; and

  <bullet>  Working with interagency and private sector 
        partners to leverage DHS's STIX/TAXII protocol to 
        automate information sharing processes. STIX/TAXII 
        facilitates cyberthreat indicator sharing in a machine 
        readable format.

Q.3. Financial institutions generally do a very good job 
sharing information with each other, but there is much less 
information sharing that occurs with other sectors. Because 
companies in different sectors can often be victims of the same 
attacks, robust cross-sector coordination is a key piece of the 
cybersecurity effort. What are some of the steps Treasury has 
taken or plans to take to promote better cross-sector 
coordination and information sharing?

A.3. Treasury recognizes that the financial sector is 
critically dependent on services provided by other sectors, 
including the energy, telecommunications, and information 
technology sectors. For this reason, we are working closely 
with the financial sector and our interagency partners to build 
processes for effectively sharing information across sectors. 
These efforts include working with the Department of Energy to 
promote the sharing of best practices across sectors, planning 
and participating in cross sector cybersecurity exercises, and 
sharing and receiving information from DHS's NCCIC, which 
serves as a focal point for cross-sector sharing among 
Government and private sector entities.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
              SENATOR MENENDEZ FROM BRIAN PERETTI

Q.1. As you know, Federal financial regulators have supervisory 
authority with respect to the cybersecurity efforts of 
regulated financial institutions. For example, the Gramm-Leach-
Bliley Act requires financial institutions to safeguard 
consumers' personal information. But today's financial system 
extends far beyond regulated financial institutions--in the 
consumer payments area alone, for example, it extends to 
payment networks, merchants, and third-party payment 
processors, to name a few.
    Aside from the Federal Trade Commission's Section 5 
authority to guard consumers against unfair, deceptive, or 
abusive practices, there seems to be a critical gap in the 
standards and attention that apply to parts of the system 
beyond financial institutions. In last year's data breach at 
Target, for example, a third-party vendor's credentials were 
used to infiltrate a retailer's system, resulting in the theft 
of consumer financial information.
    How do you see the role of the Department of Homeland 
Security and other Federal Government actors in protecting 
against cybersecurity risks to the financial system more 
broadly, beyond just regulated institutions that are supervised 
by financial regulators?

A.1. Treasury communicates directly with financial institutions 
and other financial services sector organizations and works 
with other agencies and private sector groups to leverage 
communication channels in order to emphasize the importance of 
risk and vulnerability defenses within the whole system so that 
institutions can make appropriate risk management decisions. 
Paying attention to the whole risk picture requires attention 
to internal systems as well as vendor systems and services.
    Treasury has been widely promoting the value of using the 
National Institute of Standards and Technology (NIST) 
Cybersecurity Framework to not only promote cybersecurity 
internally; but also for financial institutions to use this 
framework as a way to assess their entire supply chain, 
including third-party vendors. Treasury provides cyberthreat 
and best practices information to Federal and State financial 
regulators so that regulators can use this information to 
inform their supervisory oversight and incorporate this 
information into their examination procedures going forward. 
Treasury worked with regulators through the Financial Stability 
Oversight Council (FSOC) to identify cybersecurity as a key 
operational risk in its 2014 report, but remains concerned 
about regulators' limited ability to provide oversight of third 
party suppliers.

Q.2. What tools do DHS and other Federal Government actors have 
to address risks to parts of the financial system outside of 
regulated institutions, such as payment networks, other than 
through financial regulators' supervision of regulated 
institutions' relationships with third-party vendors?

A.2. Treasury partners with Financial and Banking Information 
Infrastructure Committee (FBIIC) member agencies to address 
risks to parts of the financial system outside of regulated 
institutions. Treasury continues to encourage financial 
services firms to utilize the NIST Cybersecurity Framework, 
which includes holding business partners, suppliers, and 
customers accountable to its risk management approach. In 
particular, efforts by the Securities Industry and Financial 
Markets Association (SIFMA) to develop auditable standards of 
the Framework may be beneficial in supporting broad adoption of 
best practices across the supply chain.
    Treasury works closely with other agencies to identify and 
provide information that may be of use to private sector firms, 
and shares this information through FS-ISAC. Many of the 
financial sector technology service providers are members of 
FS-ISAC. Treasury encourages the sharing of information with 
other third-party service providers across sectors as 
appropriate.
    Treasury also chairs the Committee on Foreign Investments 
in the United States (CFIUS). CFIUS reviews business 
transactions that could result in control of a U.S. business by 
a foreign owned or controlled entity to determine the effect of 
such transactions on national security, including increased 
risk to parts of the financial sector outside of regulated 
institutions such as third party hardware or software vendors.

Q.3. Are there additional tools that would be helpful to have?

A.3. Treasury supports cyber legislation to increase 
information sharing that: facilitates cybersecurity information 
sharing between the Government and the private sector, as well 
as among private sector companies; incentivizes the adoption of 
best practices and standards for critical infrastructure 
protection by complementing the process set forth under the 
Executive Order; gives law enforcement the tools to fight crime 
in the digital age; updates Federal agency network security 
laws, and codifies DHS's cybersecurity responsibilities; 
creates a national data breach reporting requirement; 
incorporates appropriate privacy and civil liberties 
safeguards; reinforces the appropriate roles of civilian and 
intelligence agencies; and, includes targeted liability 
protections.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARNER
                       FROM BRIAN PERETTI

Q.1. In responding to all questions below (in every category), 
please respond as if a ``data security breach'' is the 
``unauthorized access to, or acquisition from, a system 
operated or maintained by a financial institution or other 
entity within the financial services industry, or an agent, 
affiliated organization or service provider to that financial 
institution or other financial services entity, that 
compromises the protection, security, integrity, 
confidentiality, or privacy of any customer financial 
information that is itself personally identifiable or that may 
be associated with personally identifiable information of a 
customer.''
    How many data security breaches of systems operated or 
maintained by a financial institution or other entity within 
the financial services industry--whether such breach has been 
publicly reported or not--is your Government department or 
agency aware occurred during 2013 or 2014? In responding to 
this question, please note the following request for an 
explanation:
    If your response to the forgoing question is that you do 
not have knowledge of any such data security breaches 
whatsoever, please indicate why your department or agency is 
not aware of any breaches given the public reports of multiple 
breaches within the industry in 2013 or 2014.
    Additionally, if your department or agency has knowledge of 
such data security breaches that includes nonpublic 
information, and your answer will indicate that your are 
subject to a confidentiality obligation that prohibits your 
answering this question completely, please indicate which 
specific Federal law or other rule prohibits you from 
testifying to the Committee about this information on data 
security breaches of which your department or agency has 
knowledge.

A.1. Treasury does not investigate data security breaches, 
track data security breach investigation statistics, or have 
authority to compel financial institutions to report 
information associated with data breaches. For this reason, we 
do not maintain a database of data security breach incidents. 
Instead, our efforts are focused on engaging with cybersecurity 
and law enforcement partners, independent regulators, and the 
sector itself to share information related to the technical 
details of a broad range of cyber incidents to reduce the risk 
of these incidents occurring elsewhere.

Q.2. Of those data security breaches at financial institutions 
and/or other entities within the financial services industry 
which your department or agency is aware occurred in 2013 or 
2014, please indicate:
    Approximately how many financial services customers--
whether individuals or organizations--you estimate were 
affected by each of those data security breaches.
    How many data security breaches resulted in individual 
customer notices mailed, emailed, or otherwise personally 
delivered to affected customers by the financial institution or 
other financial services entity?
    How many data security breaches resulted in some form of 
public notice by the financial institution or other financial 
services entity? (In response to this subquestion, please 
indicate for each data security breach if notice was made to 
major media outlets in the geographic region served by the 
institution or entity, and/or if the notice resulted from media 
reports following a public regulatory filing.)
    How many data security breaches have never resulted in any 
form of individual customer notices mailed, emailed, or 
otherwise personally delivered to affected customers by the 
financial institution or other financial services entity?

A.2. Treasury does not investigate data security breaches, 
track data security breach investigation statistics, or have 
authority to compel financial institutions to report 
information associated with data breaches. For this reason, we 
do not maintain a database of data security breach incidents. 
Instead, our efforts are focused on engaging with cybersecurity 
and law enforcement partners, independent regulators, and the 
sector itself to share information related to the technical 
details of a broad range of cyber incidents to reduce the risk 
of these incidents occurring elsewhere.

Q.3. Of those data security breaches which you are aware 
occurred in 2014, and for which no individual customer notice 
was given by the financial institution or other financial 
services entity, has your department or agency investigated the 
circumstances of the breach and considered taking any action to 
require or encourage individual customer notice of the same by 
such institution or entity?

A.3. Treasury does not investigate data security breaches, 
track data security breach investigation statistics, or have 
authority to compel financial institutions to report 
information associated with data breaches. For this reason, we 
do not maintain a database of data security breach incidents. 
Instead, our efforts are focused on engaging with cybersecurity 
and law enforcement partners, independent regulators, and the 
sector itself to share information related to the technical 
details of a broad range of cyber incidents to reduce the risk 
of these incidents occurring elsewhere.

Q.4. Has your department or agency ever engaged in any 
enforcement action against a financial institution or other 
entity within the financial services industry for failure to 
individually notify affected customers of a data security 
breach suffered by that entity?

A.4. No. Treasury does not have authority to take enforcement 
action in this regard.

Q.5. Has your department or agency ever assessed any civil 
penalty or fine against a financial institution or other entity 
within the financial services industry for failure to 
individually notify affected customers of a data security 
breach suffered by that entity?

A.5. No. Treasury does not have authority to take enforcement 
action in this regard.

Q.6. If the answer to either question 4 or 5 is yes, please 
specify the specific date of the department or agency action, 
the type of action taken, the entity which was subject to the 
action, and the amount of any penalty or fine that was 
assessed. If the answer to either question is no, please 
indicate the reason why your department or agency has not.

A.6. Treasury does not have authority to take enforcement 
action in this regard.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR CRAPO
                      FROM PHYLLIS SCHNECK

Q.1. Fast, efficient sharing of actionable cyberthreat 
information between law enforcement, the intelligence 
community, and industry is a vitally important component of 
protecting information systems. While we have seen significant 
progress over the past couple years in the timeliness and 
quality of information sharing, there is still room for 
improvement. Please describe, first, what steps are being taken 
at your agency or Department to improve the information-sharing 
process and more quickly disseminate actionable information to 
those who need it.

A.1. The Department of Homeland Security (DHS) has made 
significant progress during the last 18 months to improve 
information sharing. Congress recognized this good work last 
year when it unanimously passed a law recognizing the National 
Cybersecurity and Communications Integration Center's (NCCIC) 
central role to coordinate and serve as an interface for 
cybersecurity information across the Government and private 
sector. In January 2015, the President announced a legislative 
proposal that builds on this significant action taken by 
Congress. The Administration's 2015 legislative proposal 
encourages the private sector to share appropriate cyberthreat 
indicators with the NCCIC by providing targeted liability 
protection for companies that share threat indicator 
information. The proposal aims to increase the speed, quality, 
and frequency of existing information sharing between the 
Government and private-sector entities, to better protect 
against the shared threat of cyber attacks.
    We are actively working to maximize to the fullest extent 
possible the near-real-time dissemination of all relevant and 
actionable cyberthreat indicators among the private sector and 
Federal Departments for the purpose of network defense, while 
incorporating all appropriate privacy protections. We continue 
to make progress as Congress addresses key information-sharing 
constraints such as industries' concerns over liability 
protections.
    DHS has a number of programs and initiatives dedicated to 
forging and maintaining the public and private-sector trust-
relationships that enable meaningful information sharing 
including: partnerships with critical infrastructure owners and 
operators to ensure cohesive cybersecurity efforts; the 
Critical Infrastructure Cyber Community Voluntary Program (C3 
Voluntary Program) offering cybersecurity resources to private 
and public-sector entities through DHS who voluntarily commit 
to the cybersecurity framework created as a result of Executive 
Order 13636; the sharing of sensitive indicators that support 
intrusion prevention measures through Enhanced Cybersecurity 
Services (ECS); as well as ongoing collaboration with the 
private sector through the NCCIC, DHS's 24/7 center for 
cybersecurity incident response, prevention and mitigation.
    DHS is increasing the speed of indicator information 
sharing through the implementation of the Structured Threat 
Information eXpression (STIX) protocol and the Trusted 
Automated Exchange of Indicator Information (TAXII) a transport 
protocol. These protocols provide a structured framework for 
information sharing and dissemination that enables the analysis 
of full-spectrum cyberthreat information; a common language in 
which to share cyberthreat information across organizations and 
products; and a common set of services and messages that can be 
implemented to share information. TAXII and STIX are intended 
for use by Government and industry Computer Security Incident 
Response Teams to enable timely and secure threat information 
sharing. All threat sharing models, including hub-and-spoke, 
peer-to-peer, and source-subscriber, can take advantage of the 
standardization offered by TAXII and STIX. These protocols are 
in operational use today among several Information Sharing and 
Analysis Centers, within the Cyber Information Sharing and 
Collaboration Program (CISCP), and are being implemented across 
the NCCIC enterprise.
    CISCP, which began in January 2012, established a 
systematic approach to cyberthreat information sharing and 
collaboration between critical infrastructure owners and 
operators across all critical infrastructure sectors. Partners 
who have signed the CISCP Cooperative Research and Development 
Agreement share unclassified, actionable, timely threat 
indicator data to enhance the protection of themselves and in 
many cases their customers and constituents. Important analytic 
collaboration meetings are held monthly at the unclassified 
level and quarterly at the classified secret level among CISCP 
partners.
    With respect to cyberthreat intelligence, DHS's Office of 
Intelligence & Analysis (I&A) conducts cyberthreat intelligence 
outreach and engagements with key critical infrastructure 
sectors at the broadest level possible, with an emphasis on 
providing unclassified cyberthreat intelligence to increase 
owner and operator awareness and encourage them to make use of 
associated indicator data in their protection systems. I&A 
provides tailored analysis of cyberthreat activity to various 
private sector, State and local, and Federal partners to 
develop a common baseline understanding of cyberthreats and 
enable decision makers to protect, prevent, and mitigate 
against cyberthreats.
    DHS developed the C3 Voluntary Program to assist critical 
infrastructure in their adoption of the National Institute of 
Standards and Technology's Cybersecurity Framework, and to 
extend a range of cybersecurity resources to critical 
infrastructure including, among other things, information-
sharing opportunities.
    The ECS program is a voluntary information-sharing program 
that assists critical infrastructure owners and operators to 
improve protection of their systems from unauthorized access, 
exploitation, or data exfiltration. ECS consists of the 
operational processes and security oversight required to share 
sensitive and classified cyberthreat information with qualified 
Commercial Service Providers (CSP) that will enable them to 
better protect their customers who are critical infrastructure 
entities. The ECS program develops threat ``indicators'' with 
this information and provides CSPs with those indicators of 
active, malicious cybersecurity activity. CSPs may use these 
threat indicators to provide approved cybersecurity services to 
critical infrastructure entities.

Q.2. Second, what obstacles or constraints delay the 
dissemination of such information?

A.2. We believe that carefully updating laws to facilitate 
cybersecurity information sharing is one of several legislative 
changes essential to protect individuals' privacy and improve 
the Nation's cybersecurity. Such legislation should, among 
other things, provide for appropriate sharing with targeted 
liability protections.
    The Administration's updated legislative proposal promotes 
better cybersecurity information sharing between the private 
sector and Government, and it enhances collaboration and 
information sharing amongst the private sector. Specifically, 
the proposal encourages the private sector to share appropriate 
cyberthreat information with the DHS NCCIC, and with private-
sector developed and operated Information Sharing and Analysis 
Organizations (ISAOs), by providing targeted liability 
protection for companies that share information with these 
entities. Once information is received, the DHS NCCIC will then 
share it in as close to real-time as practicable with relevant 
Federal agencies and relevant ISAOs. It does not provide 
protection for individual private-sector entities sharing 
directly with one another.
    The proposed legislation also encourages the formation of 
these ISAOs. The Administration's proposal would also safeguard 
Americans' personal privacy by requiring private entities to 
comply with certain privacy restrictions such as removing 
unnecessary personal information and taking measures to protect 
any personal information that must be shared in order to 
qualify for liability protection. The proposal further requires 
the Department of Homeland Security and the Attorney General, 
in consultation with the Privacy and Civil Liberties Oversight 
Board, the Director of the Office of Management and Budget, and 
others, to develop receipt, retention, use, and disclosure 
guidelines for the Federal Government. Finally, the 
Administration intends this proposal to complement and not to 
limit existing effective relationships between Government and 
the private sector. These existing relationships between law 
enforcement and other Federal agencies are critical to the 
cybersecurity mission.

Q.3. On November 14, 2014, the DHS Office of Inspector General 
released a report that made some criticisms of DHS's 
cybersecurity efforts. The report found insufficient staffing 
at National Cybersecurity and Communications Integration Center 
(NCCIC) and the Office of Intelligence and Analysis, and 
insufficient technical training of staffers. The report also 
stated that DHS faces continuing challenges in sharing cyber 
incident information with Federal operations centers and 
coordinating effective responses. There have also been other 
reports of low staff morale and high staff turnover at key 
positions. Please discuss these problems in more detail and 
explain what the Department is doing to address them. 
Specifically, please explain what DHS is doing to ensure that 
information is being shared as quickly and efficiently as 
possible.

A.3. In regards to the specific recommendations mentioned in 
the November 2014 Office of Inspector General (OIG) report, 
NPPD has done the following: OIG-14-02, DHS Efforts To 
Coordinate the Activities of Federal Cyber Operations Centers.

  <bullet>  Recommendation #2: Collaborate with the Department 
        of Defense (DOD) and National Institute of Standards 
        and Technology (NIST) to develop a standard set of 
        incident categories to ensure seamless information 
        sharing between all Federal cyber operations centers. 
        The United States Computer Emergency Readiness Team 
        (U.S.-CERT) published the Revised Guidelines on October 
        1, 2014, and OIG closed this recommendation in October 
        7, 2014.

  <bullet>  Recommendation #4: Collaborate with I&A management 
        to increase the number of its analysts available for 
        continuous coverage at the NCCIC to provide more 
        intelligence and analysis to all sectors. I&A did not 
        receive the budget to increase the number of analysts 
        for continuous coverage. It is uncertain when I&A will 
        be able to increase the number of its analysts 
        available for continuous coverage at the NCCIC. Due to 
        uncertainty surrounding future budget years, the OIG 
        closed this recommendation on January 7, 2015.

    DHS's Office of Intelligence and Analysis is a key partner 
in NCCIC activities, providing tailored all-source cyberthreat 
intelligence and warning to NCCIC components and public and 
private critical infrastructure stakeholders to prioritize risk 
analysis and mitigation.
    Within the NCCIC, the U.S. Computer Emergency Readiness 
Team (U.S.-CERT) provides response support and defense against 
cyber attacks for Federal civilian agency networks as well as 
private-sector partners upon request. U.S.-CERT collaborates 
and shares information with State and local government, 
industry, and international partners, consistent with rigorous 
privacy, confidentiality, and civil liberties guidelines, to 
address cyberthreats and develop effective security responses. 
In fiscal year (FY) 2014, U.S.-CERT processed approximately 
55,523 cyber incidents involving Federal agencies, critical 
infrastructure, and our industry partners. In addition, U.S.-
CERT issued 7,655 actionable cyber alerts in FY2014 that were 
used by private sector and Government agencies to protect their 
systems.
    The Department's Industrial Control Systems Cyber Emergency 
Response Team (ICS-CERT) responded to 240 incidents in FY2014 
while completing 75 on-site assistance visits for response and 
recovery for significant private-sector cyber incidents. DHS 
also empowers owners and operators through a cyber self-
evaluation tool, which was downloaded by more than 4,800 users 
in FY2014. ICS-CERT also trained more than 640 professionals in 
the Industrial Control Systems security industry.
    Successful response to dynamic cyberthreats requires 
leveraging sector specific agencies (SSAs), homeland security, 
law enforcement, and military authorities and capabilities, 
which respectively promote sector resilience, domestic 
preparedness, criminal deterrence and investigation, and 
national defense. DHS, DOD, and the Department of Justice 
(DOJ), each play a key role in responding to cybersecurity 
incidents that pose a risk to the United States. In addition to 
the aforementioned responsibilities of our Department, SSAs 
like the Treasury Department develop and implement sector 
specific plans unique to respective sectors through a 
coordinated effort involving public and private-sector 
partners. DOJ is the lead Federal department responsible for 
the investigation, attribution, disruption, and prosecution of 
cybercrimes, while DOD is responsible for securing national 
security and military systems as well as gathering foreign 
cyberthreat information and defending the Nation from attacks 
in cyberspace. DHS supports our partners in many ways. For 
example, the United States Coast Guard as an Armed Force has 
partnered with U.S. Cyber Command and U.S. Strategic Command to 
conduct military cyberspace operations.
    While each agency operates within the parameters of its 
authorities, the U.S. Government's response to cyber incidents 
of consequence is coordinated among these three agencies. 
Synchronization among SSAs, DHS, DOJ, and DOD not only ensures 
that whole of Government capabilities are brought to bear 
against cyberthreats, but also improves Government's ability to 
share timely and actionable cybersecurity information among a 
variety of partners, including the private sector.

Q.4. Please explain what DHS is doing to better train and 
retain key employees?

A.4. The recently passed Border Patrol Agent Pay Act of 2014 
and Cybersecurity Workforce Assessment Act both contain 
provisions that require DHS to assess its current cybersecurity 
needs and workforce and to plan for the future. As part of the 
requirements of the two bills, DHS must inventory cybersecurity 
positions, attach workforce codes corresponding to the National 
Initiative for Cybersecurity Education (NICE) Framework, 
identify critical needs and develop a plan for achieving those. 
Using those workforce codes, DHS will be better-positioned to 
identify associated training needs and opportunities specific 
to employees' roles in the Department. The recent legislation 
also allows for hiring authorities for cybersecurity positions, 
and provides authority to set pay scale and incentives for 
certain cybersecurity positions.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
             SENATOR MENENDEZ FROM PHYLLIS SCHNECK

Q.1. As you know, Federal financial regulators have supervisory 
authority with respect to the cybersecurity efforts of 
regulated financial institutions. For example, the Gramm-Leach-
Bliley Act requires financial institutions to safeguard 
consumers' personal information. But today's financial system 
extends far beyond regulated financial institutions--in the 
consumer payments area alone, for example, it extends to 
payment networks, merchants, and third-party payment 
processors, to name a few.
    Aside from the Federal Trade Commission's Section 5 
authority to guard consumers against unfair, deceptive, or 
abusive practices, there seems to be a critical gap in the 
standards and attention that apply to parts of the system 
beyond financial institutions. In last year's data breach at 
Target, for example, a third-party vendor's credentials were 
used to infiltrate a retailer's system, resulting in the theft 
of consumer financial information.
    How do you see the role of the Department of Homeland 
Security and other Federal Government actors in protecting 
against cybersecurity risks to the financial system more 
broadly, beyond just regulated institutions that are supervised 
by financial regulators?

A.1. Addressing cybersecurity risks involves a range of policy 
tools and approaches, including voluntary assistance in 
implementing effective cybersecurity measures, and threat 
reduction through criminal investigations or other means. DHS 
plays a leading role through the National Protection and 
Programs Directorate which provides support through 
cybersecurity information-sharing programs and direct technical 
assistance when appropriate and requested, and the Secret 
Service and Immigration and Customs Enforcement conduct 
criminal investigations.
    DHS strengthens the cybersecurity of the financial sector 
through voluntary measures by working in partnership with the 
Financial Services Information Sharing and Analysis Center, the 
Treasury Department, and private industry. USSS is a leader in 
investigating cybercrime across a variety of industries and 
partners closely with DOJ to apprehend and prosecute these 
criminals. The Federal Trade Commission, Consumer Financial 
Protection Bureau, Securities and Exchange Commission, and 
other entities with relevant regulatory authorities, enforce 
their regulations as they relate to cybersecurity consistent 
with their authorities. While coordinated action is important, 
this needs to be balanced with the need to foster private-
sector cooperation by maintaining some distinction and 
separation between regulatory, criminal law enforcement, and 
cybersecurity protection assistance.

Q.2. What tools do DHS and other Federal Government actors have 
to address risks to parts of the financial system outside of 
regulated institutions, such as payment networks, other than 
through financial regulators' supervision of regulated 
institutions' relationships with third-party vendors?

A.2. DHS performs a leading role in both aiding industry in 
implementing effective cybersecurity protections and reducing 
the cybercrime risks they face through effective criminal 
investigations. DHS works with a range of public and private 
partners to execute its role in addressing cybersecurity risks.
    As it relates specifically to payment systems, most of the 
relevant cybersecurity requirements are developed by the 
Payment Card Industry (PCI) Security Council and enforced 
through contracts between financial institutions, payment 
processors, and retailers. The United States Secret Service 
works with the PCI Security Council and private industry to 
inform the development of these and other security standards 
based upon current trends in cybercrime activity. This private-
sector driven cybersecurity standards system has proven to be 
highly adaptive to changes in technology, as well as to changes 
in cybercriminal techniques, and provide effective incentives 
for changes to security standards. On January 1, 2015, version 
3.0 of the PCI Data Security Standards replaced version 2.0 to 
become the new standard.

Q.3. Are there additional tools that would be helpful to have?

A.3. DHS is focused on performing its role in providing 
voluntary cybersecurity assistance to private companies and 
conducting criminal investigations to identify and apprehend 
those responsible for computer intrusions. Further 
strengthening these capabilities will assist DHS in 
accomplishing its mission to safeguard and secure cyberspace.
    As necessary, DHS will continue to work with its partners 
in the interagency and in Congress to develop and advance 
legislative proposals that foster rapid cybersecurity 
information sharing and that strengthen Federal law 
enforcement's authorities to investigate cybercrime, including 
the President's recent cybercrime authorities proposal which 
includes increased authorities to prosecute cybercrimes.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARNER
                      FROM PHYLLIS SCHNECK

Q.1. In responding to all questions below (in every category), 
please respond as if a ``data security breach'' is the 
``unauthorized access to, or acquisition from, a system 
operated or maintained by a financial institution or other 
entity within the financial services industry, or an agent, 
affiliated organization or service provider to that financial 
institution or other financial services entity, that 
compromises the protection, security, integrity, 
confidentiality, or privacy of any customer financial 
information that is itself personally identifiable or that may 
be associated with personally identifiable information of a 
customer.''
    How many data security breaches of systems operated or 
maintained by a financial institution or other entity within 
the financial services industry--whether such breach has been 
publicly reported or not--is your Government department or 
agency aware occurred during 2013 or 2014? In responding to 
this question, please note the following request for an 
explanation:
    If your response to the forgoing question is that you do 
not have knowledge of any such data security breaches 
whatsoever, please indicate why your department or agency is 
not aware of any breaches given the public reports of multiple 
breaches within the industry in 2013 or 2014.
    Additionally, if your department or agency has knowledge of 
such data security breaches that includes nonpublic 
information, and your answer will indicate that your are 
subject to a confidentiality obligation that prohibits your 
answering this question completely, please indicate which 
specific Federal law or other rule prohibits you from 
testifying to the Committee about this information on data 
security breaches of which your department or agency has 
knowledge.

A.1. There were 14 incidents reported from the financial sector 
that are associated with data breaches in 2013-2014. Bear in 
mind that private entities are not required to report breaches 
to the NCCIC, though we make effort to encourage them to share 
information so that we can better inform our private and public 
partners. The NCCIC is the Federal coordination point for 
information sharing and analysis. We maintain trust-based 
relationships across the public and private sector to encourage 
entities to share information and to request assistance as 
needed, without fear of reprisal.
    Through the Protected Critical Infrastructure Information 
(PCII) program, information voluntarily given by the private 
sector for homeland security purposes is exempt from disclosure 
except under specific procedures for Congressional disclosure. 
The PCII Program is an information-protection program that 
enhances voluntary information sharing between infrastructure 
owners and operators and the Government. PCII protections mean 
that homeland security partners can be confident that sharing 
their information with the Government will not expose sensitive 
or proprietary data. Designating information as PCII provides a 
level of protection that facilitates DHS's ability to work 
directly with the infrastructure owners and operators to 
identify vulnerabilities, mitigation strategies, and protective 
measures.
    While protecting their information, DHS has the 
responsibility to provide assistance to those private-sector 
entities who request it and who voluntarily share information 
regarding an incident. Upon receipt of a Request for Technical 
Assistance (RTA), DHS provides on-site and/or remote 
operational support to Government and private-sector partners, 
focusing most specifically on supporting remediation, posture 
adjustment, and recovery efforts. DHS coordinates RTAs with DOJ 
and DOD, and participates in interagency response teams.
    A DHS response team typically includes malware analysts, 
control systems experts, netflow analysts, and DHS law 
enforcement representation, when appropriate. Information 
learned during the operational support process is used not only 
to support the victim, but is also integrated (without 
attribution) into DHS's information-sharing products for the 
broader community.

Q.2. In responding to all questions below (in every category), 
please respond as if a ``data security breach'' is the 
``unauthorized access to, or acquisition from, a system 
operated or maintained by a financial institution or other 
entity within the financial services industry, or an agent, 
affiliated organization or service provider to that financial 
institution or other financial services entity, that 
compromises the protection, security, integrity, 
confidentiality, or privacy of any customer financial 
information that is itself personally identifiable or that may 
be associated with personally identifiable information of a 
customer.''
    Of those data security breaches at financial institutions 
and/or other entities within the financial services industry 
which your department or agency is aware occurred in 2013 or 
2014, please indicate:
    Approximately how many financial services customers--
whether individuals or organizations--you estimate were 
affected by each of those data security breaches.
    How many data security breaches resulted in individual 
customer notices mailed, emailed, or otherwise personally 
delivered to affected customers by the financial institution or 
other financial services entity?
    How many data security breaches resulted in some form of 
public notice by the financial institution or other financial 
services entity? (In response to this subquestion, please 
indicate for each data security breach if notice was made to 
major media outlets in the geographic region served by the 
institution or entity, and/or if the notice resulted from media 
reports following a public regulatory filing.)
    How many data security breaches have never resulted in any 
form of individual customer notices mailed, emailed, or 
otherwise personally delivered to affected customers by the 
financial institution or other financial services entity?

A.2. Private-sector entities are not required to report 
breaches to DHS; our interactions with them are voluntary. DHS 
notifies victims of cyber incidents primarily through the NCCIC 
(U.S.-CERT, ICS-CERT, and National Coordinating Center) and the 
USSS, and this notification is executed in coordination with 
Federal cyber centers and with the FBI. Importantly, DHS is 
responsible for notifying not only the known targets of an 
attack, but also other organizations and sectors that could be 
targeted in the future. These cross sector alerts and warnings 
are a key piece of DHS's efforts to develop shared situational 
awareness and feed various protection efforts. DHS, however, 
does not have the authority to instruct or require financial 
institutions to provide us with information regarding their 
affected customers and their policies regarding customer 
notification of a breach.
    The NCCIC is proud of the partnerships it has established 
with the financial sector. In fact, there are several financial 
partners with presence in NCCIC operations center. The below 
list of NCCIC financial sector partners constitute entities 
that maintain physical and/or virtual representation on the 
NCCIC operations floor:

  <bullet>  Department of the Treasury

  <bullet>  Financial Sector-Information Sharing and Analysis 
        Center (FS-ISAC)

  <bullet>  Federal Deposit Insurance Corporation

  <bullet>  United States Secret Service (USSS)

  <bullet>  Federal Bureau of Investigation (FBI)

  <bullet>  private-sector entities

    Individuals from the private sector, through FS-ISAC 
representatives, cleared at the Top Secret/Sensitive 
Compartmented Information (TS/SCI) level, can and do access 
daily briefs and other NCCIC meetings to share information on 
threats, vulnerabilities, incidents and potential or known 
impacts to the sector. The FS-ISAC, formed to share specific 
threat and vulnerability assessments and effective incident 
response practices, reaches more than 11,000 financial 
institutions throughout the country. FS-ISAC members include: 
banking firms and credit unions, securities firms, insurance 
companies, credit card companies, mortgage banking companies, 
financial services sector utilities, financial services service 
bureaus, sector-appropriate industry associations.
    Building the trust necessary to have these relationships 
with private sector and Federal partners is one of our most 
important goals. However, we have run into numerous examples 
whereby partners have chosen not to share information with us 
despite the possible protection that information could offer 
other partners. We have found that companies' are often 
concerned that if knowledge of a cyber incident becomes public 
it will cause serious damage to their reputation.
    To alleviate these fears, the Department offers protection 
from disclosure of sensitive information under the Protected 
Critical Infrastructure Information (PCII) Act. The PCII 
program helps to ensure the confidentiality of private-sector 
company information, allowing us to strengthen our trust and 
thereby our information sharing and response activities.

Q.3. In responding to all questions below (in every category), 
please respond as if a ``data security breach'' is the 
``unauthorized access to, or acquisition from, a system 
operated or maintained by a financial institution or other 
entity within the financial services industry, or an agent, 
affiliated organization or service provider to that financial 
institution or other financial services entity, that 
compromises the protection, security, integrity, 
confidentiality, or privacy of any customer financial 
information that is itself personally identifiable or that may 
be associated with personally identifiable information of a 
customer.''
    Of those data security breaches which you are aware 
occurred in 2014, and for which no individual customer notice 
was given by the financial institution or other financial 
services entity, has your department or agency investigated the 
circumstances of the breach and considered taking any action to 
require or encourage individual customer notice of the same by 
such institution or entity?

A.3. The responsibility to regulate actions by financial sector 
entities before, during or after a cyber breach is not within 
the purview of DHS responsibilities--as DHS is not a regulator 
of the financial sector. However, we are a coordination point 
for information sharing during and after a cyber breach; and 
the NCCIC works to mitigate damages and provide technical 
assistance upon request. For instance, following attacks on the 
financial services sector in 2013 and 2014, U.S.-CERT went on-
site with major financial institutions and other critical 
infrastructure to provide technical assistance. U.S.-CERT's 
technical data and assistance included identifying 600,000 
Distributed Denial of Service-related IP addresses and 
contextual information about the source of the attacks, the 
identity of the attacker, or associated details. We have had 
long-term, consistent threat engagements with the Department of 
Treasury, the FBI, and private-sector partners in the Financial 
Services Sector.
    DHS notifies victims of cyber incidents primarily through 
the NCCIC (U.S.-CERT, ICS-CERT, and NCC) and the USSS. This 
notification is executed in coordination with Federal cyber 
centers and with the FBI. Importantly, DHS is responsible for 
notifying not only the known targets of an attack, but also 
other organizations and sectors that could be targeted in the 
future. These cross-sector alerts and warnings are a key piece 
of DHS's efforts to develop shared situational awareness and 
feed various protection efforts. DHS, however, does not have 
the authority to instruct or require financial institutions to 
provide us with information regarding their affected customers 
and their policies regarding customer notification of a breach.

Q.4. In responding to all questions below (in every category), 
please respond as if a ``data security breach'' is the 
``unauthorized access to, or acquisition from, a system 
operated or maintained by a financial institution or other 
entity within the financial services industry, or an agent, 
affiliated organization or service provider to that financial 
institution or other financial services entity, that 
compromises the protection, security, integrity, 
confidentiality, or privacy of any customer financial 
information that is itself personally identifiable or that may 
be associated with personally identifiable information of a 
customer.''
    Has your department or agency ever engaged in any 
enforcement action against a financial institution or other 
entity within the financial services industry for failure to 
individually notify affected customers of a data security 
breach suffered by that entity?
    Has your department or agency ever assessed any civil 
penalty or fine against a financial institution or other entity 
within the financial services industry for failure to 
individually notify affected customers of a data security 
breach suffered by that entity?
    If the answer to either question is yes, please specify the 
specific date of the department or agency action, the type of 
action taken, the entity which was subject to the action, and 
the amount of any penalty or fine that was assessed. If the 
answer to either question is no, please indicate the reason why 
your department or agency has not.

A.4. The responsibility to regulate actions by financial sector 
entities before, during or after a cyber breach is not within 
the purview of DHS responsibilities--as DHS is not a regulator 
of the financial sector. However, we are a coordination point 
for information sharing during and after a cyber breach; and 
the NCCIC works to mitigate damages and provide technical 
assistance upon request. For instance, following attacks on the 
financial services sector in 2013 and 2014, U.S.-CERT went on-
site with major financial institutions and other critical 
infrastructure to provide technical assistance. U.S.-CERT's 
technical data and assistance included identifying 600,000 
Distributed Denial of Service-related IP addresses and 
contextual information about the source of the attacks, the 
identity of the attacker, or associated details. We have had 
long-term, consistent threat engagements with the Department of 
Treasury, the FBI, and private-sector partners in the Financial 
Services Sector.
    DHS notifies victims of cyber incidents primarily through 
the NCCIC (U.S.-CERT, ICS-CERT, and NCC) and the USSS. This 
notification is executed in coordination with Federal cyber 
centers and with the FBI. Importantly, DHS is responsible for 
notifying not only the known targets of an attack, but also 
other organizations and sectors that could be targeted in the 
future. These cross-sector alerts and warnings are a key piece 
of DHS's efforts to develop shared situational awareness and 
feed various protection efforts. DHS, however, does not have 
the authority to instruct or require financial institutions to 
provide us with information regarding their affected customers 
and their policies regarding customer notification of a breach.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR CRAPO
                       FROM VALERIE ABEND

Q.1. Fast, efficient sharing of actionable cyberthreat 
information between law enforcement, the intelligence 
community, and industry is a vitally important component of 
protecting information systems. While we have seen significant 
progress over the past couple years in the timeliness and 
quality of information sharing, there is still room for 
improvement. Please describe, first, what steps are being taken 
at your agency or Department to improve the information-sharing 
process and more quickly disseminate actionable information to 
those who need it.
    First, What steps are being taken at your agency or 
Department to improve the information-sharing process and more 
quickly disseminate actionable information to those who need 
it?
    Second, what obstacles or constraints delay the 
dissemination of such information?

A.1. Cyberthreats evolve rapidly, and banks and their critical 
service providers need to have in place appropriate methods for 
monitoring, sharing, and responding to threat and vulnerability 
information to safeguard customer and other sensitive 
information and technology systems. For this reason, the OCC, 
along with the other Federal Financial Institutions Examination 
Council (FFIEC) members, issued the Cybersecurity Threat and 
Vulnerability Monitoring and Sharing Statement on November 3, 
2014. The statement reiterated that banks are expected to 
monitor and maintain sufficient awareness of cybersecurity 
threat and vulnerability information so they can evaluate risk 
and respond accordingly. This statement also recommended that 
banks participate in the Financial Services--Information 
Sharing and Analysis Center (FS-ISAC) and leverage other 
resources to obtain threat information on a timely basis.
    We recognize that obtaining timely, relevant, and 
actionable information is critically important for financial 
institutions and the ability of the financial sector to prepare 
for, respond to, and mitigate evolving threats. Constraints on 
the timely dissemination of threat information can vary 
depending upon the speed at which institutions share, process, 
and act upon the information. To address these obstacles, the 
private sector is working to develop more automated processes 
for distribution of threat information. Further, a statutory 
safe harbor from liability for the sharing of information about 
cyberthreats among institutions and the Federal Government 
would encourage information sharing.

Q.2. During some recent data breaches, hackers have been able 
to break into companies' systems by exploiting vulnerabilities 
of vendors. Please discuss:
    First, what the financial regulators are doing to address 
cybersecurity capabilities at third party service providers for 
financial institutions, using their authorities under the Bank 
Service Company Act of 1962;
    Second, what regulators expect from financial institutions 
in their management of third party relationships; and
    Finally, whether, based on the FFIEC assessment conducted 
this past summer, small institutions are capable of meeting 
these expectations.

A.2. The OCC supervises third-party service providers under our 
Bank Service Company Act (BSCA) authority. The OCC, together 
with the other Federal bank regulatory agencies, developed a 
program to supervise, on an interagency basis, those third-
party technology service providers (TSPs) that are most 
critical to the banking industry. Supervision of the largest 
TSPs is coordinated through the Information Technology (IT) 
Subcommittee of the FFIEC Task Force on Supervision. Other TSPs 
that are smaller in size or complexity are supervised on an 
interagency basis through the regional offices of the agencies.
    As provided in the BSCA, the services performed by a TSP 
for a depository institution are subject to regulation and 
examination to the same extent as if such services were 
performed by the depository institution itself on its own 
premises. Accordingly, the Federal bank regulatory agencies 
examine the adequacy of TSPs' cybersecurity programs, including 
their IT risk management, controls, and information security. 
Examinations are conducted using the same FFIEC information 
technology work programs that are applicable to depository 
institutions. A report of examination is then issued to the 
TSP, along with an URSIT \1\ rating. The examination report is 
made available to depository institutions that use the examined 
services at the time of the examination. The supervision 
program standards used by the Federal bank regulatory agencies 
can be found in the FFIEC IT Examination Handbook Supervision 
of Technology Service Providers booklet. Each Federal bank 
regulatory agency has issued guidance for financial 
institutions regarding the oversight of third-party service 
providers. For the OCC, this guidance is contained in OCC 
Bulletin 2013-29 Third-Party Relationships: Risk Management 
Guidance. This guidance outlines risk management expectations 
for financial institutions' selection, oversight and ongoing 
monitoring of their third-party service providers. This 
guidance has been incorporated into the OCC' s supervisory 
strategies used to examine national banks and Federal savings 
associations. In addition to agency specific guidance, the 
FFIEC members have jointly issued guidance on exam procedures 
to examiners that can be found in the FFIEC IT Examination 
Handbook Outsourcing Technology Services booklet.
---------------------------------------------------------------------------
     \1\ Uniform Rating System for Information Technology.
---------------------------------------------------------------------------
    Based on the results from this past summer's pilot of new 
exam procedures, we found that OCC-supervised community 
institutions involved in the assessment generally have 
processes to manage third-party relationships. We will continue 
to communicate the risks posed by third-party relationships and 
our expectations that financial institutions manage these 
risks. Where examiners determine that an institution does not 
meet our expectations, they will require the institution to 
ensure any gaps are addressed.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
              SENATOR MENENDEZ FROM VALERIE ABEND

Q.1. As you know, Federal financial regulators have supervisory 
authority with respect to the cybersecurity efforts of 
regulated financial institutions. For example, the Gramm-Leach-
Bliley Act requires financial institutions to safeguard 
consumers' personal information. But today's financial system 
extends far beyond regulated financial institutions--in the 
consumer payments area alone, for example, it extends to 
payment networks, merchants, and third-party payment 
processors, to name a few.
    Aside from the Federal Trade Commission's Section 5 
authority to guard consumers against unfair, deceptive, or 
abusive practices, there seems to be a critical gap in the 
standards and attention that apply to parts of the system 
beyond financial institutions. In last year's data breach at 
Target, for example, a third-party vendor's credentials were 
used to infiltrate a retailer's system, resulting in the theft 
of consumer financial information.
    How do you see the role of the FFIEC and its members in 
protecting against cybersecurity risks to the financial system 
more broadly, beyond just regulated institutions?

A.1. Weak cybersecurity has become an increasing risk to the 
safety and soundness of financial institutions and the whole 
financial system. In recognition of this risk, the FFIEC 
created a Cybersecurity and Critical Infrastructure Working 
Group (CCIWG). The CCIWG serves as a dedicated forum to address 
policy relating to cybersecurity and critical infrastructure 
security and resilience of financial institutions and their 
technology service providers. In support of this role and its 
objectives, the CCIWG communicates with the intelligence 
community, law enforcement, and homeland security agencies 
regarding cybersecurity and critical infrastructure issues on 
an ongoing basis. The CCIWG also serves as a forum for members 
to communicate, collaborate, and build on existing efforts to 
support and strengthen the activities of other interagency and 
private sector groups that promote financial services sector 
cybersecurity and critical infrastructure security and 
resilience.

Q.2. What tools do Federal financial regulators have to address 
risks to parts of the system outside of regulated institutions, 
such as payment networks, other than through supervision of 
regulated institutions' relationships with third-party vendors?

A.2. The OCC regulates national banks, Federal savings 
associations, and their third-party service providers. The 
OCC's legal authority to supervise third party service 
providers is set forth in the BSCA. Under this authority, the 
OCC in conjunction with other FFIEC member agencies, supervises 
TSPs, including several payment system processors. Supervision 
of the largest and most systemically important TSPs is 
centrally coordinated through the IT Subcommittee of the FFIEC 
Task Force on Supervision.
    Other third-party TSPs, smaller in size or complexity, are 
supervised on an interagency basis through the regional offices 
of the agencies.
    As provided in the BSCA, the services performed by a TSP 
for a depository institution are subject to regulation and 
examination to the same extent as if such services were 
performed by the depository institution itself. Accordingly, 
the Federal bank regulatory agencies examine the adequacy of 
TSPs' cybersecurity programs as part of their examinations of 
IT risk management, controls, and information security. 
Examinations are conducted using the same FFIEC information 
technology work programs that are applicable to depository 
institutions. A report of examination is then issued to the 
TSP, along with an URSIT rating. The TSP's examination report 
also is made available to insured financial institutions using 
the examined services at the time of the examination. The 
supervision program standards used by agencies can be found in 
the FFIEC IT Examination Handbook Supervision of Technology 
Service Providers booklet.
    In addition, under the Dodd-Frank Act, the Financial 
Stability Oversight Council (Council), of which the OCC is a 
member, has the ability to designate critical payment, 
clearing, settlement and other financial market utilities as 
systemically important. Designated financial market utilities 
performing payment, clearing, or settlement activities are 
subject to heightened prudential standards and supervision by 
the Board of Governors of the Federal Reserve System.
    Also, the OCC is a member of the Financial and Banking 
Industry Infrastructure Council (FBIIC) and directly interacts 
with other financial sector regulatory agencies. The FBIIC 
coordinates efforts to improve the reliability and security of 
financial information infrastructure. Through this interaction, 
the OCC can elevate any concerns it has with financial sector 
service providers that are supervised by other regulatory 
agencies.

Q.3. Are there additional tools that would be helpful to have?

A.3. It would be helpful if sectors such as telecommunications 
and public utilities, upon which banks depend, were subject to 
similar standards and oversight.

Q.4. Like Federal regulators, State financial regulators are 
also incorporating cybersecurity considerations into their 
examination and supervision of regulated institutions. On 
December 10, for example, the New York Department of Financial 
Services (NYDFS) announced new examination procedures relating 
to information technology (IT), including a focus on 
cybersecurity as part of an institution's risk-management 
strategy.
    While there appears to be some overlap with Federal 
financial regulators' requirements, there also seem to be some 
notable differences, such as in the information requested and 
whether the level of scrutiny varies based on factors like the 
size of the institution. One press report in the American 
Banker describes NYDFS's requirements as ``tougher than the 
FFIEC's.''
    How would you compare the FFIEC's cybersecurity approach 
and examination procedures to State efforts such as NYDFS's?

A.4. The OCC by itself, and in conjunction with other members 
of the FFIEC, has developed a comprehensive IT supervision 
program that includes supervisory guidance and examination 
procedures relating to cybersecurity. This approach has been in 
place for several years and the NYDFS' recently announced 
examination procedures appear similar.
    The FFIEC IT Examination Handbook includes 11 individual 
booklets covering examination areas such as IT Management, IT 
Audit, Information Security, Development and Acquisition, 
Operations and other key technology control functions. Each of 
these booklets, and the Information Security booklet in 
particular, addresses cybersecurity controls.
    The FFIEC also has issued a number of guidance statements 
covering cybersecurity-related risks including:

  <bullet>  Authentication in an Internet Banking Environment 
        Guidance and the related supplement.

  <bullet>  Cyber Attacks on Financial Institutions' ATM and 
        Card Authorization Systems Joint Statement.

  <bullet>  Distributed Denial of Service Attacks, Risk 
        Mitigation, and Additional Resources Joint Statement.

  <bullet>  Threat and Vulnerability Monitoring and Information 
        Sharing Statement.

    In addition to guidance issued jointly through the FFIEC, 
examples of guidance issued specifically by the OCC include:

  <bullet>  OCC Bulletin 2008-16 Information Security: 
        Application Security.

  <bullet>  OCC Bulletin 2013-29 Third-Party Relationships: 
        Risk Management Guidance.

    Since cybersecurity threats and attacks evolve, the OCC and 
FFIEC have mechanisms in place to continually reevaluate and 
strengthen overall information technology supervision 
processes. We compare and leverage information from recognized 
governmental, regulatory, and industry frameworks and standards 
when developing our examination programs to ensure the scope of 
our examinations adequately cover evolving risks.
    Recognizing the need to continue to strengthen supervision 
of cybersecurity processes at financial institutions, FFIEC 
members piloted a cybersecurity examination work program 
(Cybersecurity Assessment) at over 500 community financial 
institutions to evaluate their preparedness to mitigate cyber 
risks. The FFIEC members are using the results of this 
Cybersecurity Assessment to identify and prioritize actions to 
enhance the effectiveness of cybersecurity-related supervisory 
programs, guidance, notification expectations, and examiner 
training.

Q.5. What operational areas does the FFIEC consider most 
important for cybersecurity? How does this compare to State 
approaches, such as NYDFS's?

A.5. The OCC assesses the key operational areas needing 
examination coverage based on the inherent risk of each 
institution supervised. A financial institution's inherent risk 
is based on the products and services it offers, its processing 
volumes, customer base, technologies used, third-party 
connectivity, and a number of other factors.
    While the risks and corresponding control expectations will 
differ based on the inherent risks of the institution, key 
areas of our focus include:

  <bullet>  Risk Management and Oversight;

  <bullet>  Threat Intelligence and Collaboration;

  <bullet>  Cybersecurity Controls;

  <bullet>  External Dependency Management; and

  <bullet>  Cyber Incident Management and Resiliency.

    These areas of focus are similar to those of the NYDFS.

Q.6. Because of the fast-evolving nature of the cybersecurity 
field, to what extent does the FFIEC look to State efforts for 
possible models or elements to incorporate into Federal 
approaches?

A.6. The OCC and other FFIEC members, which include State bank 
regulators, have been considering many statutory, regulatory 
and industry-recognized frameworks, such as the Federal 
Information Security Modernization Act requirements, National 
Institute of Standards and Technology publications and 
framework, Control Objectives for Information and Related 
Technology framework, International Organization for 
Standardization standards, Capability Maturity Models, and 
others when developing supervisory policies and examination 
programs.
    The OCC also monitors State laws for possible elements to 
incorporate in its guidance and examination approaches, if 
appropriate. For example, when promulgating its customer 
information guidance in 2005, the OCC reviewed and was guided 
by the California breach notification law.

Q.7. Are there elements of NYDFS's model that FFIEC is 
considering incorporating? For example, is the FFIEC 
considering expanding the information it requests to include 
any items covered by NYDFS's new policy?

A.7. Information outlined in the NYDFS letter, dated December 
10, 2014, on its New Cyber Security Examination Process 
generally is already requested as part of ongoing examinations 
at the financial institutions we supervise. The OCC has 
requested such information from institutions for quite some 
time and tailors its requests for information based on the risk 
and complexity of products and operations of the individual 
institution being examined. Examples of the type of information 
requested can be found in the FFIEC IT Examination Handbook.

Q.8. To what extent are Federal financial regulators engaging 
with State regulators more generally relating to cybersecurity 
examinations and supervision, to help inform State regulators 
as well as to be informed by their experiences?

A.8. State banking regulators are represented on the FFIEC. The 
Chair of the State Liaison Committee (SLC) is a voting member 
of the FFIEC and the SLC is comprised of representatives from 
the Conference of State Banking Supervisors, the American 
Council of State Savings Supervisors, and the National 
Association of State Credit Union Supervisors.
    The State Liaison Committee is also represented on the 
FFIEC Task Force on Supervision's IT Subcommittee and the 
CCIWG. These groups are responsible for developing and 
implementing the FFIEC IT guidance statements, work programs, 
and the cybersecurity pilot outlined throughout this response. 
These groups also provide a forum for Federal and State 
regulators to share experiences regarding cybersecurity 
examinations and supervision.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARNER
                       FROM VALERIE ABEND

Q.1. In responding to all questions below (in every category), 
please respond as if a ``data security breach'' is the 
``unauthorized access to, or acquisition from, a system 
operated or maintained by a financial institution or other 
entity within the financial services industry, or an agent, 
affiliated organization or service provider to that financial 
institution or other financial services entity, that 
compromises the protection, security, integrity, 
confidentiality, or privacy of any customer financial 
information that is itself personally identifiable or that may 
be associated with personally identifiable information of a 
customer.''
    How many data security breaches of systems operated or 
maintained by a financial institution or other entity within 
the financial services industry--whether such breach has been 
publicly reported or not--is your Government department or 
agency aware occurred during 2013 or 2014? In responding to 
this question, please note the following request for an 
explanation:
    If your response to the forgoing question is that you do 
not have knowledge of any such data security breaches 
whatsoever, please indicate why your department or agency is 
not aware of any breaches given the public reports of multiple 
breaches within the industry in 2013 or 2014.
    Additionally, if your department or agency has knowledge of 
such data security breaches that includes nonpublic 
information, and your answer will indicate that your are 
subject to a confidentiality obligation that prohibits your 
answering this question completely, please indicate which 
specific Federal law or other rule prohibits you from 
testifying to the Committee about this information on data 
security breaches of which your department or agency has 
knowledge.

A.1. All national banks and Federal savings associations are 
expected to report to the OCC ``as soon as possible when the 
institution becomes aware of an incident involving unauthorized 
access to or use of `sensitive customer information,' '' as 
defined in 12 CFR Part 30 Appendix B, Supplement A (national 
banks), and Part 170, Appendix B, Supplement A (Federal savings 
associations) (referred to in the answers that follow as ``The 
Response Program Guidance'' or the ``Guidance''). The OCC 
issued the Guidance together with the Board of Governors of the 
Federal Reserve System (State member banks), the Federal 
Deposit Insurance Corporation (State nonmember banks) and the 
National Credit Union Administration (credit unions).
    During 2013 and 2014, there were approximately 20 reported 
security breaches of systems at financial institutions 
supervised by the OCC that fell within the scope of the 
Response Program Guidance.

Q.2. Of those data security breaches at financial institutions 
and/or other entities within the financial services industry 
which your department or agency is aware occurred in 2013 or 
2014, please indicate:
    Approximately how many financial services customers--
whether individuals or organizations--you estimate were 
affected by each of those data security breaches.

A.2. The number of customers impacted by any one of the events 
about which the OCC was notified range from less than 10 
customers to over 83 million customers.
    While a single event can potentially affect millions of 
customers, most events have had an impact on fewer than one 
thousand customers, with many of the individual events 
affecting a small number of customers.

Q.3. How many data security breaches resulted in individual 
customer notices mailed, emailed or otherwise personally 
delivered to affected customers by the financial institution or 
other financial services entity?

A.3. The Response Program Guidance states that a financial 
institution should notify a customer of unauthorized access to 
sensitive customer information if it determines that the misuse 
of such information has occurred or is reasonably possible. OCC 
examiners, as a part of their ongoing supervisory activities, 
determine whether a financial institution that experiences a 
breach of sensitive customer information has notified customers 
in accordance with the Guidance. OCC examiners also determine 
whether the institution has policies and procedures to ensure 
that it is complying with any relevant State laws.
    Of the incidents listed in response to Question 1 above, 
all but three resulted in direct notification to the affected 
customers. In two instances, it was determined that while 
malware affected the bank's system, no sensitive customer 
information was viewed or removed from the bank's system and 
thus misuse of sensitive customer information did not occur and 
was not reasonably possible, within the meaning of the Response 
Program Guidance. In the third instance, the type of 
information accessed did not meet the definition of sensitive 
customer information contained in the Response Program 
Guidance. Therefore, in these cases, notification was not 
required. In the third instance, the institution did, however, 
issue a public press release and posted notice on its public 
Web site.

Q.4. How many data security breaches resulted in some form of 
public notice by the financial institution or other financial 
services entity? (In response to this subquestion, please 
indicate for each data security breach if notice was made to 
major media outlets in the geographic region served by the 
institution or entity, and/or if the notice resulted from media 
reports following a public regulatory filing.)

A.4. The Response Program Guidance does not require public 
notification to media outlets. The OCC has observed that 
financial institutions typically issue a press release or 
public statement for large-scale breach events.

Q.5. How many data security breaches have never resulted in any 
form of individual customer notices mailed, emailed, or 
otherwise personally delivered to affected customers by the 
financial institution or other financial services entity?

A.5. Of the incidents noted above, there is only one data 
security breach where an institution did not notify affected 
customers. As described above, it was determined that the 
customer information accessed or removed from the institution's 
system did not meet the definition of sensitive customer 
information described in the Response Program Guidance. The 
institution did, however, issue a public press release and 
posted notice on its public Web site about the breach event.

Q.6. Of those data security breaches which you are aware 
occurred in 2014, and for which no individual customer notice 
was given by the financial institution or other financial 
services entity, has your department or agency investigated the 
circumstances of the breach and considered taking any action to 
require or encourage individual customer notice of the same by 
such institution or entity?

A.6. When the OCC is notified that a breach of sensitive 
customer information has occurred, as defined by the Response 
Program Guidance, and the institution determines that the 
information has been or reasonably likely to be misused, a 
financial institution is expected to provide notice to affected 
customers. The OCC reviews the facts upon which the 
institution's determination is based to ensure that customers 
are notified when warranted.

Q.7. Has your department or agency ever engaged in any 
enforcement action against a financial institution or other 
entity within the financial services industry for failure to 
individually notify affected customers of a data security 
breach suffered by that entity?
    Has your department or agency ever assessed any civil 
penalty or fine against a financial institution or other entity 
within the financial services industry for failure to 
individually notify affected customers of a data security 
breach suffered by that entity?
    If the answer to either question is yes, please specify the 
specific date of the department or agency action, the type of 
action taken, the entity which was subject to the action, and 
the amount of any penalty or fine that was assessed. If the 
answer to either question is no, please indicate the reason why 
your department or agency has not.

A.7. The OCC has not brought an enforcement action against a 
financial institution or other entity within the financial 
services industry for failure to individually notify affected 
customers of a ``data security breach'' suffered by that 
entity, as defined in Question 1. However, between 2009 and 
2013, the OCC took formal enforcement actions against 60 
national banks for failing to have adequate information 
security programs and required them to enhance their 
information technology systems and/or third-party management 
processes.
    National banks and Federal savings associations are 
expected to provide notice to customers in accordance with the 
Response Program Guidance and any applicable State law. The OCC 
has not observed failures to provide this notice and therefore 
has not taken any enforcement action requiring a financial 
institution to do so.

Q.8. Based in part to the OCC's responses to the questions 
above, in addition to other information it deems relevant, 
please give the Committee your complete and thorough assessment 
of the following questions regarding the interpretive guidance 
issued by the OCC, Federal Reserve Board, FDIC, and OTS on 
March 29, 2005, to every financial institution regarding their 
implementation of a response program designed to address 
incidents of unauthorized access to sensitive customer 
information maintained by the financial institution or its 
service provider:
    Has the OCC conducted an annual or other periodic review of 
the interpretive guidance since its issuance in 2005 and, if 
so, what are the OCC's conclusions from those reviews with 
respect to the current applicability and sufficiency of the 
interpretive guidance to today's data security breaches?

A.8. The OCC conducts periodic reviews of our Response Program 
Guidance, and has done so most recently as part of a 
Cybersecurity Risk Assessment of over 500 financial 
institutions that was conducted under the auspices of the FFIEC 
in which the OCC participated. We currently are reviewing the 
results of the Assessment together with other sources of 
information, to determine whether the Guidance should be 
changed and, if so, how best to make these changes.

Q.9. In light of the 47 State laws regarding breach 
notification that have been enacted to date, has the OCC 
reviewed the circumstances under which financial institutions 
may be subject to such laws, and has it considered updating the 
2005 interpretive guidance to bring it in line with current 
requirements for all businesses subject to such State laws to 
individually notify affected customers when that business 
suffers a breach (as defined under each law)?

A.9. Financial institutions are subject to State breach 
notification laws that provide greater protections than the 
Response Program Guidance. See Section 507 of the Gramm-Leach-
Bliley Act (GLBA), 12 U.S.C. 6807. While drafting the Response 
Program Guidance in 2005, the OCC reviewed and was guided by 
existing State laws, in particular California's breach 
notification law. The OCC also reviews State breach 
notification laws from time-to-time for new developments. Many 
of the current State laws are similar to the Response Program 
Guidance.

Q.10. In the opinion of the OCC, does the 2005 interpretive 
guidance legally ``require'' financial institutions, or other 
entities within the financial services industry, to provide 
individualized notices via mail, email, or other personal 
deliver service to all potentially affected customers when a 
system operated or maintained by a financial institution or 
other financial services entity, or an agent, affiliated 
organization or service provider to that financial institution 
or other financial services entity, suffers a data security 
breach? If your response to this question is ``yes,'' please 
explain the legal reasoning that supports your conclusion that 
the interpretive guidance ``requires'' financial institutions 
to notify customers in light of the text of the guidance 
indicating financial institutions ``should'' contain procedures 
to notify customers when warranted, and does not explicitly 
State that financial institutions ``shall'' notify affected 
customers (similar to the express obligation in Sate data 
breach notification laws).

A.10. As noted above, national banks and Federal savings 
associations are subject to State law breach notice 
requirements. The Response Program Guidance interprets section 
501(b) of the GLBA and the lnteragency Guidelines Establishing 
Information Security Standards. See 12 CFR Part 30, Appendix B 
(national banks) and Part 170, Appendix B (Federal savings 
associations). The Guidelines, which are enforceable by their 
terms, require banks to have a response program that specifies 
actions to be taken when the bank suspects or detects that 
unauthorized individuals have gained access to customer 
information systems, including appropriate reports to 
regulatory and law enforcement agencies. The Guidance 
elaborates on this requirement to state that the OCC expects a 
financial institution's response program to include procedures 
for notifying customers when there has been unauthorized access 
to their sensitive information and misuse of the information 
has occurred or is reasonably possible.

Q.11. If your response to the subquestion above indicates that 
individual customer notice is legally ``required'' for a data 
security breach, please indicate whether the OCC has ever 
enforced such a ``requirement'' against any financial 
institution or other financial services entity, or any agent, 
affiliated organization, or service provider to that financial 
institution or other financial services entity. If the OCC has 
not enforced such a legal ``requirement'' to notify in all 
cases of which it is aware of a data security breach that has 
not resulted in such notice, please explain why it has not 
enforced this requirement in each case.

A.11. Please see the response to Questions 7 and 8.

Q.12. If your response to the subquestion above indicates that 
individual customer notice is legally ``required'' for a data 
security breach, please indicate if the OCC has ever assessed 
any civil penalty or fine against any financial institution or 
other financial services entity, or any agent, affiliated 
organization, or service provider to that financial institution 
or other financial services entity, for failure to individually 
notify affected customers of a data security breach suffered by 
that entity.

A.12. Please see the response to Questions 7 and 8.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR CRAPO
                      FROM WILLIAM NOONAN

Q.1. Fast, efficient sharing of actionable cyberthreat 
information between law enforcement, the intelligence 
community, and industry is a vitally important component of 
protecting information systems. While we have seen significant 
progress over the past couple years in the timeliness and 
quality of information sharing, there is still room for 
improvement. Please describe:
    First, What steps are being taken at your agency or 
Department to improve the information-sharing process and more 
quickly disseminate actionable information to those who need 
it?

A.1. The U.S. Secret Service (Secret Service) continues to be 
committed to quickly disseminating actionable information to 
those who need it, and continues to take steps to further 
improve our ability to notify victims of computer intrusions 
and widely share information to aid organizations in protecting 
their computer networks from the latest cybercriminal methods. 
In FY2014, the Secret Service notified or responded to network 
intrusion incidents at nearly 400 organizations.
    As the Secret Service investigates cybercriminal activity, 
we frequently discover new criminal techniques or methods that 
can inform computer network defense activities. As the Secret 
Service discovers such information, we partner with the 
National Cybersecurity and Communications Integration Center 
(NCCIC), and other public and private entities, to rapidly and 
widely disseminate actionable cybersecurity information, while 
protecting victim privacy and ongoing investigations.
    For example, this past summer, UPS Stores, Inc. announced 
it had been able to use information published in a joint report 
on the Back-Off malware to protect itself and its customers 
from cybercriminal activity. The information in this report was 
derived from a Secret Service investigation of a network 
intrusion at a small retailer in upstate New York. As a result, 
UPS Stores, Inc. was able to identify 51 stores in 24 States 
that had been impacted, approximately 1 percent of their total 
stores, and then contain and mitigate this cyber incident 
before it developed into a major data breach.
    The Secret Service continues to expand its network of 
Electronic Crimes Task Forces (ECTFs) and build relationships 
with public and private-sector partners in order to further 
improve our ability to share actionable cybersecurity 
information in a timely manner.

Q.2. Second, what obstacles or constraints delay the 
dissemination of such information?

A.2. The primary constraint in disseminating cybersecurity 
information is sufficient personnel to analyze the cyberthreat 
information collected through Secret Service investigations, in 
order to extract the relevant actionable cybersecurity 
information to enable computer network defense activities, 
while protecting victim privacy and ongoing investigations.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARNER
                      FROM WILLIAM NOONAN

Q.1. In responding to all questions below (in every category), 
please respond as if a ``data security breach'' is the 
``unauthorized access to, or acquisition from, a system 
operated or maintained by a financial institution or other 
entity within the financial services industry, or an agent, 
affiliated organization or service provider to that financial 
institution or other financial services entity, that 
compromises the protection, security, integrity, 
confidentiality, or privacy of any customer financial 
information that is itself personally identifiable or that may 
be associated with personally identifiable information of a 
customer.''
    How many data security breaches of systems operated or 
maintained by a financial institution or other entity within 
the financial services industry--whether such breach has been 
publicly reported or not--is your Government department or 
agency aware occurred during 2013 or 2014? In responding to 
this question, please note the following request for an 
explanation:
    If your response to the forgoing question is that you do 
not have knowledge of any such data security breaches 
whatsoever, please indicate why your department or agency is 
not aware of any breaches given the public reports of multiple 
breaches within the industry in 2013 or 2014.
    Additionally, if your department or agency has knowledge of 
such data security breaches that includes nonpublic 
information, and your answer will indicate that your are 
subject to a confidentiality obligation that prohibits your 
answering this question completely, please indicate which 
specific Federal law or other rule prohibits you from 
testifying to the Committee about this information on data 
security breaches of which your department or agency has 
knowledge.

A.1. The Secret Service has identified 52 case files involving 
confirmed data breaches of financial services entities in 2013 
or 2014.

Q.2. Of those data security breaches at financial institutions 
and/or other entities within the financial services industry 
which your department or agency is aware occurred in 2013 or 
2014, please indicate:
    Approximately how many financial services customers--
whether individuals or organizations--you estimate were 
affected by each of those data security breaches.

A.2. The Secret Service does not generally keep records of the 
number of customers affected, and instead focuses on the total 
fraud losses or other measures of economic impact. A review of 
the 52 case files indicates that the cases vary from 
potentially a single customer impacted to millions of customers 
impacted. Recorded fraud losses range from $2,000 to in excess 
of $8 million.

Q.3. How many data security breaches resulted in individual 
customer notices mailed, emailed, or otherwise personally 
delivered to affected customers by the financial institution or 
other financial services entity?

A.3. The Secret Service generally keeps no records on whether 
customer notifications are performed as a result of a data 
security breach. The Secret Service is focused on investigating 
and apprehending the criminals responsible for data breaches.

Q.4. How many data security breaches resulted in some form of 
public notice by the financial institution or other financial 
services entity? (In response to this subquestion, please 
indicate for each data security breach if notice was made to 
major media outlets in the geographic region served by the 
institution or entity, and/or if the notice resulted from media 
reports following a public regulatory filing.)

A.4. The Secret Service does not generally keep records on 
whether the victim organization made any form of public notice.

Q.5. How many data security breaches have never resulted in any 
form of individual customer notices mailed, emailed, or 
otherwise personally delivered to affected customers by the 
financial institution or other financial services entity?

A.5. The Secret Service does not generally keep records on 
whether the victim organization made any form of notice to 
their customers.

Q.6. Of those data security breaches which you are aware 
occurred in 2014, and for which no individual customer notice 
was given by the financial institution or other financial 
services entity, has your department or agency investigated the 
circumstances of the breach and considered taking any action to 
require or encourage individual customer notice of the same by 
such institution or entity?

A.6. The Secret Service is focused on working collaboratively 
with victim companies to investigate the criminals responsible 
for data breaches and minimize fraud losses. The Secret Service 
does not have authority to require victim companies to make 
customer notice, and generally only encourages companies to 
take actions as they further our investigative aims of 
countering the cybercriminal activity.

Q.7. Has your department or agency ever engaged in any 
enforcement action against a financial institution or other 
entity within the financial services industry for failure to 
individually notify affected customers of a data security 
breach suffered by that entity? If yes, please specify the 
specific date of the department or agency action, the type of 
action taken, the entity which was subject to the action, and 
the amount of any penalty or fine that was assessed. If no, 
please indicate the reason why your department or agency has 
not.

A.7. The Secret Service has not engaged in any enforcement 
action against a financial institution or other entity within 
the financial services industry for failure to individually 
notify affected customers of a data security breach suffered by 
that entity. The Secret Service does not have any authority to 
engage in any such enforcement action.

Q.8. Has your department or agency ever assessed any civil 
penalty or fine against a financial institution or other entity 
within the financial services industry for failure to 
individually notify affected customers of a data security 
breach suffered by that entity? If yes, please specify the 
specific date of the department or agency action, the type of 
action taken, the entity which was subject to the action, and 
the amount of any penalty or fine that was assessed. If no, 
please indicate the reason why your department or agency has 
not.

A.8. The Secret Service has never assessed any civil penalty or 
fine against a financial institution or other entity within the 
financial services industry for failure to individually notify 
affected customers of a data security breach suffered by that 
entity. The Secret Service does not have any authority to 
assess civil penalties or fines for such matters.



              Additional Material Supplied for the Record
              
              
              
              
   LETTER TO AGENCIES SUBMITTED BY CHAIRMAN JOHNSON AND SENATOR CRAPO

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


             LETTER OF RESPONSE SUBMITTED BY JOINT AGENCIES

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


     LETTER OF RESPONSE SUBMITTED BY THE DEPARTMENT OF THE TREASURY

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 LETTER OF RESPONSE SUBMITTED BY FEDERAL DEPOSIT INSURANCE CORPORATION

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       LETTER OF RESPONSE SUBMITTED BY THE NATIONAL CREDIT UNION 
                             ADMINISTRATION

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 LETTER OF RESPONSE SUBMITTED BY THE BOARD OF GOVERNORS OF THE FEDERAL 
                             RESERVE SYSTEM


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 LETTER OF RESPONSE SUBMITTED BY THE OFFICE OF THE COMPTROLLER OF THE 
                                CURRENCY

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    LETTER TO THE CONFERENCE OF STATE BANK SUPERVISORS SUBMITTED BY 
                   CHAIRMAN JOHNSON AND SENATOR CRAPO

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


     LETTER OF RESPONSE SUBMITTED BY THE CONFERENCE OF STATE BANK 
                              SUPERVISORS

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   STATEMENT SUBMITTED BY THE NATIONAL ASSOCIATION OF FEDERAL CREDIT 
                                 UNIONS

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 STATEMENT SUBMITTED BY THE SECURITIES INDUSTRY AND FINANCIAL MARKETS 
                              ASSOCIATION

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  STATEMENT SUBMITTED BY THE INDEPENDENT COMMUNITY BANKERS OF AMERICA

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

``PROTECTING MERCHANT POINT OF SALE SYSTEMS DURING THE HOLIDAY SEASON''


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
